Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 1 of 25

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

FREEDOM WATCH, INC., individually and on behalf of
those similarly situated
2020 Pennsylvania Ave NW #345
Washington, DC, 20006
LAURA LOOMER, individually and on behalf of those
similarly situated
Palm Beach, Florida
AMENDED CLASS ACTION
COMPLAINT

Plaintiffs,

v.
1:18-cv-02030
GOOGLE, INC.
160 Amiptheatre Parkway
Mountain View, CA, 94043
And
FACEBOOK, INC.,
1 Hacker Way
Menlo Park, CA, 94025
And
TWITTER, INC.,
1355 Market Street #900
San Francisco, CA, 94103
And
APPLE,INC.
1 Infmite Loop
Cupertino, CA, 95014

Defendants.

I.

INTRODUCTION AND CLASS ACTION ALLEGATIONS

Plaintiffs Freedom Watch, Inc. ("Freedom Watch") and Laura Loomer ("Ms. Loomer")
(collectively "Plaintiffs"), individually and on behalf of all others similarly situated, bring this

1

App.001

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 2 of 25

suit as a class action pursuant to Rule 23 of the Federal Rules of Civil Procedure. The class is
defined as all politically conservative organizations, entities and/or individuals who create and/or
distribute media content and advocacy who have experienced illegal suppression and/or
censorship of their media content by Defendants. This class meets all the criteria required by
Federal Civil Rule 23(a).
The members of the class are so numerous that joinder of all its members is impossible.
There are likely to be hundreds or more class members in the United States and worldwide.
Furthermore, common questions of fact and law exist as to all class members, including, but not
limited to, whether Defendants are engaging in illegal suppression and censorship of politically
conservative content. Plaintiffs' claims are typical of all of the claims of the respective class that
it seeks to represent and Plaintiffs have no interests averse to the interest of the other members of
the class, insofar as its injuries are substantially similar to those suffered by the other members of
the class. Lastly, prosecution of separate actions of the hundreds, if not more, of potential
members of this class would almost certainly result in inconsistent or varying adjudication,
which would result in different standards of conduct being imposed upon Defendants by
different courts.

II.

JURISDICTION AND VENUE
1.

This Court has subject matter jurisdiction over this case pursuant to 28 U.S.C. §

1332 (Diversity of Citizenship Jurisdiction) and 28 U.S.C. § 1331 (Federal Question
Jurisdiction). This Court also has subject matter jurisdiction pursuant to 28 U.S.C. § 1332(d), as
the amount in controversy exceeds the value of $1,500,000,000, this is a class action, and one or
more Plaintiffs is a citizen of a state different from the state of citizenship of one or more of the
Defendants.

2

App.002

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 3 of 25

2.

This Court has supplemental jurisdiction over this case pursuant to 28 U.S.C. §

3.

Venue is proper pursuant to 18 U.S.C. § 1965 and 28 U.S.C. § 1391(b)(2), (3) in

1367.

that a substantial part of the events or omissions giving rise to Plaintiffs' claims occurred in this
district.
4.

Freedom Watch is incorporated in and does substantial business in the District of

Columbia. Ms. Loomer is an individual and citizen of Florida and resides in this state.
III.

PARTIES
Plaintiffs

5.

Freedom Watch is a 501(c)(3) non-profit corporation that is incorporated in the

District of Columbia.
6.

Ms. Loomer is an individual and a citizen of the state of Florida
Defendants

7.

Defendant Google, Inc. ("Google") is a corporation incorporated in the state of

Delaware. Google does business in all 50 states, including the District of Columbia. Google
owns the video streaming service, YouTube, and is therefore liable for the violative conduct of
YouTube alleged herein.
8.

Defendant Facebook, Inc. ("Facebook") is a corporation incorporated in the state

of Delaware. Facebook does business in all 50 states, including the District of Columbia.
Facebook owns the photo and video-sharing social networking service, Instagram, and is
therefore liable for the violative conduct of Instagram alleged herein.
9.

Defendant Twitter, Inc. ("Twitter") is a corporation incorporated in the state of

Delaware. Twitter does business in all 50 states, including the District of Columbia.

3

App.003

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 4 of 25

10.

Defendant Apple, Inc. ("Apple") is a corporation incorporated in the state of

Delaware. Apple does business in all 50 states, including the District of Columbia.

IV.

STANDING
11.

Freedom Watch and Ms. Loomer, individually and those similarly situated, have

standing to bring this action because they have been directly affected and victimized by the
unlawful conduct complained herein. Their injuries are proximately related to the conduct of
Defendants, acting in concert in restraint of trade and other unlawful acts, each and every one of
them.

V.

FACTS
Defendants' Suppression and Censorship of Conservative Content

12.

It has been revealed that Defendants, each and every one them, have engaged in a

conspiracy to intentionally and willfully suppress politically conservative content.
13.

This conspiracy has resulted in severe financial loss, as well as unconstitutional

suppression of speech and other content, for Freedom Watch and those similarly situated.
14.

Acting in concert with traditional media outlets, including but not limited to Cable

News Network ("CNN"), MSNBC, the New York Times and the Washington Post - all of whom
are owned and/or managed by persons with a leftist political ideology, Defendants have
intentionally and willfully suppressed politically conservative content in order to take down
President Donald Trump and his administration with the intent and purpose to have installed
leftist government in the nation's capital and the 50 states.
15.

Defendants' goal is to use their position of influence and great market power - as

set forth below - to re-craft the nation into their leftist design.

4

App.004

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 5 of 25

16.

Indeed, many executives of Defendants and at CNN, MSNBC, the New York

Times and the Washington Post, which outlets are not being suppressed and censored, are
intricately connected with former President Barack Obama, former Secretary of State and
presidential candidate Hillary Clinton, and former President Bill Clinton and still serve their
interests, as well as those of other leftist politicians, through the media.
17.

It has been widely reported and documented that Defendants have each, as part of

the conspiracy described herein, actively, willfully, and intentionally and/or or through parallel
concerted violative conduct suppressed conservative content in furtherance of their political
agendas and those of their co-conspirators.
18.

According to Senator Ted Cruz, as reported in the New York Times, "if internet

companies are not a 'neutral platform,' they should not be protected by a law known as Section
230 of the Communications Decency Act, which (some claim) gives companies broad legal
immunity for what people put on their services." 1
19.

In the same article, Rep. Kevin McCarthy stated, "Social media platforms are

increasingly serving as today's town squares .... But sadly, conservatives are too often finding
their voices silenced." 2
20.

In an article from the National Review, it was revealed that each and every one of

the Defendants have actively suppressed and censored conservative content. 3 (the "National
Review Article").

1 Adam

Santariano, Trump Accuses Google of Burying Conservative News in Search Results,
N.Y. Times, Aug. 28, 2018, available at:
https://www .nytimes.com/2018/08/28/business/media/ google-trump-news-results.html

Id.
Ben Shapiro, Viewpoint Discrimination with Algorithms, National Review, Mar. 7, 2018,
available at: https://www.nationalreview.com/2018/03/social-media-companies-discriminateagainst-conservatives/

2
3

5

App.005

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 6 of 25

21.

YouTube is one of the top three most visited websites globally (along with co-

Defendant Facebook and its parent company, Google) and, as of 2017, it was used by over one
billion users each month-almost
22.

one out of every two people on the Internet.

Y ouTube holds itself out to be a public forum for video-based speech in this

district and all around the world, allowing users to upload videos viewable by anyone in the
world, in order to share ideas, viewpoints, and ideologies.
23.

Eighty-five percent of Americans watch videos online and more than 500 million

hours of videos are watched on YouTube each day.
24.

More video content has been uploaded to GoogleN ouTube by public users than

has been created by the major U.S. television networks in 30 years
25.

It was revealed that "YouTube has demonetized videos from conservatives while

leaving similar videos up for members of the Left. For example, Prager University has watched
innocuous videos titled 'Why America Must Lead,' 'The Ten Commandments: Do Not Murder,'
and 'Why Did America Fight the Korean War' demonetized (i.e. barred from accepting
advertisements) at YouTube's hands." 4
26.

YouTube has also demonetized the account of the conservative Western Journal,

"accusing the account owners of 'duplicating content,' although the Google subsidiary declined
to specify what material in particular violated the video platform's terms of service." 5
27.

As evidence of the political motivation behind YouTube's action, Shaun Hair of

the Western Journal stated, "[ w ]e had zero copyright strikes and zero community guideline

Id.
Allum Bokhari, YouTube Cuts Of/Conservative News Org's Ad Revenue Without Explanation,
Breitbart, Aug. 24, 2018, available at: https://www.breitbart.com/tech/2018/08/24/youtube-cutsoff-conservative-news-orgs-ad-revenue-without-explanation/
4

5

6

App.006

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 7 of 25

strikes. Not even a recent warning. Youtube has on three occasions declined to explain or even
give a single example of why duplication is other than generic language about copyright rules." 6
28.

YouTube has also targeted conservative pundit, Alex Jones of InfoWars, deleting

his channel, which had "more than 2 million subscribers and many years' worth of video
content."7
29.

YouTube's parent company, Google, has even been accused by President Trump

himself of bias against conservatives, and that search results on Google only reported "fake
news" against him. 8
30.

In a study conducted by Paula Bolyard of PJ Media, it was revealed that an

incredible 96% of Google search results for "Trump" news came from liberal media outlets,
using the widely accepted Sharyl Attkisson media bias chart.9
31.

In the same study, it was revealed that not a single conservative leaning site

appeared on the first page of search results. 10
32.

The same article also examined another study conducted by "Can I Rank," which

found that:
. . . top search results were almost 40% more likely to contain pages with a 'Left'
or 'Far Left' slant than they were pages from the right," Can I Rank found.
"Moreover, 16% of political keywords contained no right-leaning pages at all
within the first page of results.

Id.
Id.
8 Susan Heavey, White House investigating Google after Trump accuses it of bias, Reuters, Aug,
28, 2018, available at: https://www.reuters.com/article/us-usa-trump-tech/white-houseinvestigating-google-after-trump-accuses-it-of-bias-idUSKCNlLD 1I 1
9 Paula Bolyard, 96 Percent of Google Search Results for 'Trump' News Are from Liberal Media
Outlets, PJ Media, Aug. 25, 2018, available at: https://pjmedia.com/trending/google-searchresults-show-pervasive-anti-trump-anti-conservative-bias/
IO Id.
6

7

7

App.007

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 8 of 25

33.

As reported by the New York Times, "Larry Kudlow, the director of the National

Economic Council and a longtime advocate of deregulation, appeared to back Mr. Trump when
asked by reporters later on Tuesday whether the administration would be pursuing more
regulation of Google. 'We'll let you know,' Mr. Kudlow said. "We're taking a look at it."' 11
34.

The National Review Article also examined Facebook's political censorship:

Facebook was slammed two years ago for ignoring conservative stories and
outlets in its trending news; now Facebook has shifted its algorithm to downgrade
supposedly "partisan" news, which has the effect of undercutting newer sites that
are perceived as more partisan, while leaving brand names with greater public
knowledge relatively unscathed. Facebook's tactics haven't just hit conservative
Web brands - they've destroyed the profit margins for smaller start-ups like
LittleThings, a four-year-old site that fired 100 employees this week after the
algorithm shift reportedly destroyed 75 percent of the site's organic reach (the
number of people who see a site's content without paid distribution)
35.

Furthermore, as documented in an article published on www.gizmodo.com in

2016 titled "Former Facebook Workers: We Routinely Suppressed Conservative News," 12
"Facebook workers routinely suppressed news stories of interest to conservative readers from
[its] influential "trending" news section.... " (the "Gizmodo Article").
36.

The Gizmodo Article was published after interviews with former Facebook "news

curators," who were "instructed to artificially 'inject' selected stories into the trending news
module, even if they weren't popular enough to warrant inclusion-or in some cases weren't
trending at all."
37.

The Gizmodo Article further explains that Facebook's "news curators" routinely

suppressed topics that were of interest to conservative and thus Republican-oriented readers. One
curator that was interviewed was "so troubled by the omissions that they kept a running log of
Santariano, supra note 1.
Michael Nunez, Former Facebook Workers: We Routinely Suppressed Conservative News,
Gizmodo, May 9, 2016, available at: https://gizmodo.com/former-facebook-workers-weroutinely-suppressed-conser-1775461006.
11
12

8

App.008

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 9 of 25

them at the time .... Among the deep-sixed or suppressed topics on the list: former IRS official
Lois Lerner, who was accused by Republicans of inappropriately scrutinizing conservative
groups; Wisconsin Gov. Scott Walker; popular conservative news aggregator the Drudge Report;
Chris Kyle, the former Navy SEAL who was murdered in 2013; and former Fox News
contributor Steven Crowder."
38.

This "news curator" stated, "I believe it had a chilling effect on conservative [and

thus Republican] news."
39.

The Gizmodo article revealed that "[s]tories covered by conservative outlets (like

Breitbart, Washington Examiner, and Newsmax) that were trending enough to be picked up by
Facebook's algorithm were excluded unless mainstream sites like the New York Times, the BBC,
and CNN covered the same stories."
40.

Another "news curator" stated, "It was absolutely bias. We were doing it

subjectively. It just depends on who the curator is and what time of day it is .... Every once in
awhile a Red State or conservative news source would have a story. But we would have to go
and find the same story from a more neutral outlet that wasn't as biased."
41.

This clearly demonstrated bias against conservative and Republican oriented news

stories and outlets has been manifest in Facebook's new algorithm change, which was effected in
2018, and has in effect censored conservative-leaning publishers on Facebook.
42.

A study conducted by Western Journal found that since the algorithm change,

"Liberal publishers have gained about 2 percent more web traffic from Facebook than they were
getting prior to the algorithm changes implemented in early February. On the other hand,

9

App.009

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 10 of 25

conservative [and thus Republican] publishers have lost an average of nearly 14 percent of their
traffic from Facebook."
43.

13

(the "Study").

According to the Study, after removing the 15 publishers with the least traffic

from Facebook (from the original 50 outlets analyzed), the 12 most conservative sites lost an
average of 27 .06 percent of their traffic from Facebook.
44.

On the other hand, "Of the 12 most liberal sites, six saw double-digit decreases in

traffic, while four saw double-digit increases and two -

The Washington Post and HuftPo -

saw single-digit increases. CNN's traffic increased 43.78 percent."
45.

These results are not coincidental. "Campbell Brown, a former anchor on NBC

and CNN who now leads Facebook's

news partnerships team, told attendees at a recent

technology and publishing conference that Facebook would be censoring news publishers based
on its own internal biases."
46.

14

Ms. Brown incredibly admitted:

"This is not us stepping back from news. This is us changing our relationship with
publishers and emphasizing something that Facebook has never done before: It's
having a point of view, and it's leaning into quality news .... We are, for the first
time in the history of Facebook, taking a step to try to to define what 'quality
news' looks like and give that a boost." (Emphasis added.) 15
47.

It is clear from the results shown in the Study, as well as the biases and prejudices

detailed in the Gizmodo Article, that the "point of view" referred to by Ms. Brown is one that
censors conservative content while propping up liberal content.

13

George Upper, Confirmed: Facebook's Recent Algorithm Change Is Crushing Conservative
Sites, Boosting Liberals, The Western Journal, Mar. 13, 2018, available at:
https://www .westernjoumal.com/confirmed-facebooks-recent-algorithm-change-is-crushingconservative-voices-boosting-liberals/.
14 Id.
1s Id.
10

App.010

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 11 of 25

48.

Thus, Facebook is not the neutral social media platform that it holds itself out to

be, and its end users are precluded from seeing news and stories of interest to them if the happen
to lean conservatively.
49.

The National Review Article also revealed that Twitter, "has banned nasty

accounts perceived as right-wing while ignoring similar activity from the left."
50.

As the National Review Article reported, "James O'Keefe recently exposed the

practice of 'shadowbanning,' in which Twitter hides particular content or mutes particular
hashtags for political purposes. That's no coincidence: Twitter head Jack Dorsey is an ardent
leftist who has campaigned with radicals like Black Lives Matter founder DeRay Mckesson, and
whose company relies on the input of an Orwellian Trust and Safety Council staffed thoroughly
with left-wing interest groups.
Facts Pertaining to Directly to Freedom Watch

51.

Freedom Watch is a leading conservative non-profit public interest organization

that operates its own website, a Y ouTube channel as Freedom Watch TV, a Twitter account, and
Podcasts on Apple's network. The chairman and general counsel of Freedom Watch, Larry
Klayman, is also the founder of Judicial Watch and previously was a trial attorney and
prosecutor in the Antitrust Division of the U.S. Department of Justice ("DOJ"). He was an
integral member of the Antitrust Division's trial team that broke up the AT&T monopoly during
the Reagan administration.
52.

Freedom Watch has and still does pay Google and YouTube, Facebook and the

other Defendants for services to promote and advertise its media content in order to inform the
public about its conservative advocacy and to raise the funds through donations to further its
public advocacy and mission.

11

App.011

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 12 of 25

53.

Freedom Watch had experienced steady growth in both audience and revenue

generated through these platforms for many years, until the recently reported suppression of
conservative content set forth above, which grew more pronounced and severe approximately
eight months ago, notably after the election of President Donald J. Trump and as the so-called
Russian collusion and obstruction of justice investigation of Special Counsel Robert Mueller was
publically attacked by the president and other conservatives as a continuing leftist inspired
"witch hunt." Freedom Watch also has a "Leftist Media Strike Force" which was created to
combat discrimination against conservative media content and advocacy, and has several
pending lawsuits which seek to further justice and the rule of law, which it maintains is being
compromised

by the Defendants

herein, as well as other left-leaning

interests.

See

www.freedomwatchusa.org, which is incorporated herein by reference.
54.

Since Defendants, each and every one of them, have begun their conspiracy to

intentionally and willfully, and/or acting in concerted parallel fashion, to suppress conservative
content and refuse to deal with Freedom Watch, Freedom Watch's growth on these platforms has
come to a complete halt, and its audience base and revenue generated has either plateaued or
diminished.
55.

For instance, the number of subscribers to Freedom Watch's YouTube channel

has remained static and is now declining especially over the last several months, after years of
steady grown, which simply cannot be a coincidence given the facts set forth in the previous
section.
56.

The amount of revenue generated by Freedom Watch is a direct and proximate

result of the number of people who engage with its content on Y ouTube, Twitter, Facebook, and
Apple.

12

App.012

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 13 of 25

57.

Since Defendants have begun suppressmg and censonng Freedom Watch's

content on these platforms, Freedom Watch has suffered a dramatic loss in viewership and user
engagement, and this has led directly and proximately to a dramatic loss in revenue.
58.

Since Defendants have begun suppressing and censoring Freedom Watch's

content on these platforms, Freedom Watch has suffered a dramatic loss in viewership and user
engagement, and this has led directly and proximately to a dramatic loss in revenue.
59.

Indeed, whereas Freedom Watch's YouTube videos often reach over 100,000,

with a substantially positive "like" to "dislike" ratio, it is losing subscribers each and every day
from over 70,000 to under 69,000, which has directly and proximately led to led to a substantial
drop in revenue. This is the result of the illegal and anti-competition actions as pled herein.
60.

This is evidence that YouTube is suppressing and censoring Freedom Watch's

content to prevent it from obtaining new subscribers, or even removing Freedom Watch's
subscribers unilaterally.
61.

Defendants'

conspiracy to suppress conservative content has directly and

proximately caused Freedom Watch significant financial injury, as well as injury in the form of
suppression of speech and ideas in furtherance of its conservative public interest advocacy.
62.

Not only is Freedom Watch a user and consumer of Defendants' platforms, it is

also a competitor, insofar as it creates its own original media content in the form of videos,
articles, and podcasts and other audio media, such as radio, which are distributed via the internet
in this district, and both nationwide and worldwide.
Facts Pertaining Directly to Laura Loomer

63.

Ms. Loomer is a well-known conservative investigative journalist and political

activist.

13

App.013

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 14 of 25

64.

Ms. Loomer is a conservative activist and Jewish woman.

65.

In the past, Ms. Loomer has worked for Canadian news publisher, The Rebel

Media, as well as Project Veritas.
66.

Renowned political consultant and strategist Roger Stone said of Ms. Loomer:

Laura Loomer is the most fearless investigative journalist working today. Loomer
is unafraid to confront and expose the connected and powerful. Frankly, Laura
Loomer has bigger journalistic cojones than many of her male counterpartscombine that with her energy and passion for truth and you have a force that must
be reckoned with by the MSM
67.

As of November 21, 2018, Ms. Loomer had over 260,000 followers on Twitter.

68.

On November 21, 2018, Twitter permanently and without cause banned Ms.

Loomer from its platform for the following tweet:
Ilhan is pro Sharia Ilhan is pro- FGM Under Sharia homosexuals are oppressed &
killed. Women are abused & forced to wear the hijab. Ilhan is anti Jewish
69.

Facebook subsequently banned Ms. Loomer for 30 days.

70.

Ms. Loomer's tweet refers to Rep. llhan Omar ("Rep. Omar"), who was elected to

Congress from Minnesota and will take office in January of 2019.
71.

Indeed, Ms. Loomer's tweet simply contained facts about Sharia law, which Rep.

Omar is known to support. The tweet pointed out the fact that which pointed out that Rep.
Omar's support of Sharia law does not make her an ally for gay people, women, or Jews.
72.

For instance, "[i]n Iran, Sudan, Saudi Arabia and Yemen, homosexuality is still

punishable by death, under sharia law. The same applies in parts of Somalia and northern

14

App.014

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 15 of 25

Nigeria. In two other countries - Syria and Iraq - the death penalty is carried out by non-state
actors, including Islamic State." 16
73.

Rep. Omar herself has tweeted anti-Semitic sentiments, yet has faced no

discipline from any of Defendants' platforms:
Israel has hypnotized the world, may Allah awaken the people and help them
see the evil doings of Israel. #Gaza #Palestine #Israel 17
74.

In stark contrast, Twitter refused to take any action against the vile anti-Semite

and anti- white Louis Farrakhan for referring to Jewish persons as "termites."
7 5.

18

Twitter also refused to remove tweets and ban known terrorist organizations,

including Hamas, 19 whose leaders have openly called for the mass-scale extermination of Jewish
people 20 and who even brutally executed one of its own prominent commanders on accusations
of homosexuality. 21 It also entertains tweets from the Muslim Brotherhood and the terrorist
connected Council for American Islamic Relations ("CAIR").
76.

This glaring contrast in behavior is conclusive evidence of discriminatory intent

and restraint of trade against those who share conservative beliefs and those of Jewish origin.

Gay relationships are still criminalised in 72 countries, report finds, The Guardian, Jul. 27,
2017, available at: https:/ /www.theguardian.com/world/2017 /jul/27 /gay-relationships-stillcriminalised-countries-report.
17 https:/ /twitter.com/ilhanmn/status/269488770066313216?lang=en
18 Megan Keller, Twitter says it won't suspend Louis Farrakhan over tweet comparing Jews to
termites, The Hill, Oct. 17, 2018, available at: https://thehill.com/policy/technology/411950twitter-says-it-wont-suspend-louis-farrakhan-over-tweet-comparing-jews-to.
19https://twitter.com/HamasinfoEn?ref_ src=twsrc%5Egoogle% 7Ctwcamp%5Eserp% 7Ctwgr%5
Eauthor
20 Adam Ragson, Hamas official urges killing all Zionist Jews, praises 'peaceful' Gaza protests,
The Times of Israel, Jul. 26, 2018, available at: https://www.timesofisrael.com/hamas-officialurges-killing-of-zionist-j ews-praises-peaceful-gaza-protests/
21 Jack Moore, Hamas Executes Prominent Commander After Accusations of Gay Sex, Mar. 2
2016, available at: https:/ /www.newsweek.com/prominent-hamas-commander-was-executedafter-accusations-gay-sex-43 2343
16

15

App.015

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 16 of 25

77.

Whereas Ms. Loomer was banned for tweeting facts about Sharia law, Mr.

Farrakhan was allowed to refer to Jewish persons as termites without any repercussion.
78.

Even those who strongly oppose Ms. Loomer's viewpoints have taken issue with

Ms. Loomer' s "relatively illogical ban. " 22 Indeed, Twitter' s discriminatory motive and behavior
is so evident that even a columnist who calls Ms. Loomer a "hack" has defended Ms. Loomer
against Twitter.
79.

Ms. Lowe correctly writes:

That said, the line for banning someone from an open platform should be clear
and consistent. News organizations are liable for the content they publish because
they are specifically publishers. Open platforms are not. But if the likes of
Facebook and Twitter are moving into the business of publishing, choosing which
content creators they will ban and which they will lend platforms, then they
should lawyer up and get ready to be taken to court. 23
80.

Ms. Lowe even defends the veracity of the facts asserted in Ms. Loomer's tweet,

writing, "[b]ut Loomer is not wrong that Omar has openly spread the anti-Semitic conspiracy
theory that Jewish Zionists posses hypnotic powers. Nor is she wrong that Sharia law is
inherently homophobic and sexist." 24
81.

As a direct and proximate result of Defendants' illegal discriminatory conduct as

actionable herein, Ms. Loomer has and will continue to suffer severe financial injury, as the loss
of her over 260,000 Twitter followers and Facebook account will prevent her from reaching her
audience with her investigative work.
Defendants' Market Power and Antitrust Allegations

Tiana Lowe, Twitter has banned the idiotic Laura Loomer for an innocuous tweet, Washington
Examiner, Nov. 22 2018, available at: https://www.washingtonexaminer.com/opinion/twitterhas-banned-the-idiotic-laura-loomer-for-an-innocuous-tweet
23 Id.
24 Id.
22

16

App.016

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 17 of 25

82.

Defendants have entered into an illegal agreement to refuse to deal with

conservative news and media outlets, such as Freedom Watch and those similarly situated, as
well as to suppress media content and advocacy, which has no legitimate business justification
and is plainly anticompetitive.
83.

This illegal agreement is evidenced by the fact that Freedom Watch began losing

users on each of Defendants platforms at or around the same time, around eight months ago,
notably after the election of President Donald J. Trump and as the so-called Russian collusion
and obstruction of justice investigation of Special Counsel Robert Mueller was publically
attacked by the president and other conservatives as a continuing leftist inspired "witch hunt."
84.

Defendants' agreement has a plainly anti-competitive effect and has no rational

economic justification, as they are willing to lose revenue from conservative organizations and
individuals like Freedom Watch and those similarly situated to further their leftist agenda and
designs to effectively overthrow President Trump and his administration and have installed leftist
government in this district and the 50 states.
85.

Alternatively, Defendants, who are and should be competitors to each other, have

engaged in "conscious parallelism" insofar as they have each mimicked each others' refusal to
deal with Freedom Watch and those similarly situated in order to set, control, and establish the
relevant market, as defined below.
86.

There is no legitimate independent business reason for Defendants "conscious

parallelism," as they are losing revenue from conservative organizations and individuals like
Freedom Watch and those similarly situated.

17

App.017

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 18 of 25

87.

Facebook is the leading and the largest social media network in the world, with a

social network global market share of 69.97 percent as of March, 2018. 25
88.

Facebook has the largest market share in the United States for social networking

advertising revenue, at 79.2% in 2018 thus far. 26 Facebook has held at least a 73.9% market
share in advertising revenue since at 2015.
89.

In 2017, Facebook held a market share of 20.9% of the net United States digital

ad revenues, as well as 26.8% of the net United States mobile ad market. 27
90.

In conjunction with Google, Facebook makes up 63.1 % of total United States

digital advertising revenues.
91.

Facebook's CEO, Mr. Zuckerberg, testified before a joint session between the

Senate Judiciary and Commerce committees on April 10, 2018.
92.

During his testimony, Zuckerberg struggled to name a single competitor to

Facebook. 28
93.

The Verge published a transcript of the line of questioning on this topic:

Sen. Lindsey Graham: Who's your biggest competitor?
Mark Zuckerberg: Uh, senator, we have a lot of competitors.
LG: Who's your biggest?
MZ: The categories ... do you want just one? I am not sure I can give one but can
I give a bunch? There are three categories that I would focus on. One are the other
tech platforms: Google, Apple, Amazon, Microsoft, we overlap with them in
different ways.
LG: Do they provide the same service you provide?

http://gs.statcounter.com/social-media-stats
https:/ /www .statista.com/statistics/241805/market-share-of-facebooks-us-social-network-adrevenue/
27 https:/ /www .emarketer.com/ Article/Google-Facebook-Tighten-Grip-on-US-Digital-AdMarket/1016494
28 Sarah Jeong, Zuckerberg struggles to name a single Facebook competitor, The Verge, Apr. 10,
2018, available at: https:/ /www.theverge.com/2018/4/10/17220934/facebook-monopolycompetitor-mark-zuckerberg-senate-hearing-lindsey-graham
25
26

18

App.018

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 19 of 25

MZ: In different ways.
LG: Let me put it this way. If I buy a Ford, and it doesn't work well, and I don't
like it, I can buy a Chevy. If I'm upset with Facebook, what's the equivalent
product I can go sign up for?
MZ: Well, the second category I was going to talk about ...
LG: I'm not talking about categories. I'm talking about real competition you face.
'Cause car companies face a lot of competition. They make a defective car, it gets
out in the world, people stop buying that car, they buy another one. Is there an
alternative to Facebook in the private sector?
MZ: The average American uses eight different apps to communicate with their
friends and stay in touch with people ranging from text to email LG: Which is the same service you provide?
MZ: Well, we provide a number of different services.
LG: Is Twitter the same as what you do?
MZ: It overlaps with a portion of what we do.
LG: You don't think you have a monopoly?
MZ: It certainly doesn't feel like that to me. 29

94.

Sarah Miller ("Miller"), the Deputy Director of the Open Markets Institute, has

plainly stated that Facebook is a "corporate monopoly." 30
95.

Miller reasons, "[t]here is no other social media company today that has the

enormous global reach combined with the personal intimacy and immediate engagement of
Facebook. There are more than 200 million users in the United States, with more than half of all
American adults accessing it every day, and almost 2 billion worldwide. It accounts for 77
percent of mobile social networking traffic in the U.S. Through its ownership of WhatsApp and
Instagram, that reach is even greater." 31

Id.
Sarah Miller, Matt Stoller, Facebook Can't Be Fixed, It Needs To Be Broken Up, The Daily
Beast, Apr. 10, 2018, available at: https://www.thedailybeast.com/facebook-cant-be-fixed-itneeds-to-be-broken-up
31 Id.

29

30

19

App.019

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 20 of 25

96.

"Facebook is also the leading way that most Americans get their news. According

to the Pew Research Center, just shy of half of all Americans get their news on Facebook - far
more reach than any other social media site." 32
97.

In another study, it was revealed back in 2016 that 59% of Twitter users get their

news through the Twitter platform. 33 The same study found that 48% of all American adults got
their news from Facebook, 10 % from YouTube, and 16% from Twitter, meaning a total of 74%
of American adults get their news from Defendants' platforms.
98.

The relevant market is the market for media and news publications (and the

submarket for political media and news publications).
99.

The geographic markets are in this district and nationwide and worldwide.

100.

Defendants collectively have obtained monopoly power in the relevant markets

through exclusionary conduct that has severely harmed competition.
101.

As set forth in the both the foregoing and the following sections, Defendants have

engaged in a refusal to deal with Freedom Watch and Ms. Loomer and those similarly situated
that has no viable economic justification and is plainly anticompetitive.
102.

Similarly, the violative conduct of Defendants has resulted in a worse quality of

services for its consumers who tend to lean conservatively and, as set forth in this Amended
Complaint, lack any normal business justification.
FIRST CAUSE OF ACTION
Violation of Section 1 of the Sherman Act - Illegal Agreement in Restraint of Trade

Id.
Jeffrey Gottfried, Elisa Shearer, News Use Across Social Media Platforms 2016, Journalism,
May 26, 2016, available at: http://www.journalism.org/2016/05/26/news-use-across-socialmedia-platforms-2016/
32
33

20

App.020

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 21 of 25

103.

Plaintiffs reallege and incorporate herein by reference each and every foregoing

paragraph of this Amended Complaint as if set forth in full.
104.

Section 1 of the Sherman Antitrust Act states that "Every contract, combination in

the form of trust or otherwise, or conspiracy, in restraint of trade or commerce among the several
States, or with foreign nations, is declared to be illegal."
105.

Defendants, each and every one of them, have conspired and illicitly agreed to

refuse to deal and suppress media content and advocacy from Freedom Watch, Ms. Loomer and
those similarly situated members of the class.
106.

Alternatively, Defendants, each and every one of them, have engaged in

"conscious parallelism" and in concert mimicked each others' refusal to deal with Freedom
Watch and Ms. Loomer and those similarly situated in order to set, control, and establish the
relevant market, as defined above.
107.

Defendants' agreement unreasonably restrains competition insofar as it has no

legitimate business justification. Defendants are losing significant revenue from conservative
groups and individuals like Freedom Watch and Ms. Loomer and those similarly situated
members of the class.
108.

Defendants are accepting this temporary loss of revenue in order to set, control,

and dominate the relevant market, as defmed above.
109.

Defendants' illegal agreement affects interstate commerce because Freedom

Watch and Ms. Loomer and those similarly situated have a nationwide and worldwide reach for
their conservative media content and advocacy.

21

App.021

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 22 of 25

110.

There is a significant negative impact on the relevant market because consumers'

access to conservative media and news content is severely limited and suppressed as a result of
Defendants' agreement and/or "conscious parallelism."
WHEREFORE, Freedom Watch and Ms. Loomer respectfully request that this Court
enter judgment against Defendants in a sum to be determined by a jury, grant preliminary and
permanent injunctive relief, for costs herein incurred, for attorneys' fees, and for such other and
further relief as this Court deems just and proper.
SECOND CAUSE OF ACTION
Violation of Section 2 of the Sherman Act

111.

Plaintiffs reallege and incorporate herein by reference each and every foregoing

paragraph of this Amended Complaint as if set forth in full.
112.

Defendants

have

targeted

media and news publications such as lead plaintiff

Freedom Watch and Ms. Loomer and those members of the class that

have

the

potential

to

compete with it and thereby to erode its monopoly.
113.

Defendants have willfully engaged, and is engaging, in an exclusionary course of

conduct, and there is a dangerous probability that, unless restrained, it will succeed, in violation
of Section 2 of the Sherman Act, 15 U.S.C. § 2.
114.

Defendants have acted with a specific intent to monopolize, and to destroy

effective competition in the relevant market for media and news publications.
WHEREFORE, Freedom Watch and Ms. Loomer respectfully request that this Court
enter judgment against Defendants in a sum to be determined by a jury, grant preliminary and
permanent injunctive relief, for costs herein incurred, for attorneys' fees, and for such other and
further relief as this Court deems just and proper.
THIRD CAUSE OF ACTION

22

App.022

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 23 of 25

Discrimination in Violation o/D.C. Code§ 2-1403.16 ("DCHRA'')

115.

Plaintiffs incorporate herein by reference each and every foregoing paragraph of

this Amended Complaint as if set forth in full.
116.

The DCHRA makes discrimination illegal based on 20 different traits for people

that live, visit, or work in the District of Columbia.
117.

Among the traits protected under the DCHRA are "Political Affiliation" and

"Religion."
118.

Defendants, each and every one of them, acting in concert, are discriminating

against Plaintiffs because of its perceived conservative advocacy which is perceived by them to
further the interests of what is perceived to be an affiliated Republican Party.
119.

Defendants, each and every one of them, acting in concert, are discriminating

against Freedom Watch and Ms. Loomer because of her Jewish faith. Not coincidentally the
founder and chairman and general counsel of Freedom Watch is also of Jewish origin.
120.

Defendants have denied Plaintiffs the full and equal enjoyment of the services,

privileges, and advantages that they provide to persons which they perceive to not be affiliated
with the Republican Party or of Jewish faith.
121.

Defendants have indicated that full and equal enjoyment of the goods, services,

facilities, privileges, advantages, and accommodations will be unlawfully refused, withheld from
or denied to Plaintiffs and that its patronage of Defendants' platforms is objectional, unwelcome,
unacceptable, or undesirable.
122.

Defendants qualify as "public accommodation[s]," as defmed by the DCHRA, as

an "establishment ... dealing with services of any kind .... "

23

App.023

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 24 of 25

WHEREFORE, Freedom Watch and Ms. Loomer respectfully request that this Court
enter judgment against Defendants in a sum to be determined by a jury, grant preliminary and
permanent injunctive relief, for costs herein incurred, for attorneys' fees, and for such other and
further relief as this Court deems just and proper.
FOURTH CAUSE OF ACTION
Violation of the First Amendment to the Constitution and/or 42 U.S. C. § 1983

123.

Plaintiffs reallege and incorporate herein by reference each and every foregoing

paragraph of this Amended Complaint as if set forth in full.
124.

The First Amendment of the United States Constitution protects the freedom of

speech and association, and against viewpoint discrimination in the access and use of public
spaces, quasi-public spaces, and limited public spaces.
125.

Defendants created, operate, and control public platforms that are for public use

and public benefit and invite the public to utilize their platforms as a forum for free speech.
126.

Defendants act as quasi-state actors because they regulate their public platforms,

thereby regulating free speech within their public forums, GoogleN ouTube, Facebook, and
Twitter, Apple, Instagram as well as the other social media companies or entities.
127.

Defendants, each and every one of them acting in concert, have deprived

Plaintiffs and those similarly situated of its constitutional rights by censoring its content for
purely political reasons. Defendants' censorship is arbitrary and capricious, and is purely
viewpoint based.
128.

There exists no compelling, significant, or legitimate reason for the suppressing

and censoring of Freedom Watch's and Ms. Loomer's content as well as the other members of
the class.
VI.

PRAYER FOR RELIEF

24

App.024

Case 1:18-cv-02030-TNM Document 28 Filed 12/06/18 Page 25 of 25

WHEREFORE, Plaintiff on behalf of itself and the other members of the class pray for
relief and judgment against Defendant as follows:
(a) For general (non-economic), special (economic), actual and compensatory and
punitive damages in excess of$ 1,500,000,000.00;
(b) For injunctive relief preventing Defendants, each and every one of them, acting in
concert and individually as joint tortfeasors from discriminating against, refusing to
deal, suppressing media content and advocacy, censoring Freedom Watch and Ms.
Loomer and those similarly situated members of the class.
DEMAND FOR JURY TRIAL
Plaintiffs demand a trial by jury on all counts as to all issues so triable.

Dated: December 5, 2018

Respectfully submitted,

Isl Larry Klayman
Larry Klayman, Esq.
Chairman and General Counsel
FREEDOM WATCH, INC.
D.C. Bar No. 334581
2020 Pennsylvania Ave. NW, Suite 345
Washington, DC 20006
Tel: (310) 595-0800
Email: leklayman@gmail.com
Attorney for Freedom Watch, Laura Loomer,
and the Class

25

App.025

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 1 of 15

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
FREEDOM WATCH, INC. et al.,
Plaintiffs,
v.

Case No. 1:18-cv-02030 (TNM)

GOOGLE, INC. et al.,
Defendants.
MEMORANDUM OPINION
This case is brought by conservative activists who allege that America’s major
technology firms have conspired to suppress their political views. The Plaintiffs raise non-trivial
concerns. But because they have failed to tie these concerns to colorable legal claims, the Court
must dismiss their Amended Complaint.
I.
Freedom Watch and Laura Loomer accuse Google, Facebook, Twitter, and Apple
(collectively, the “Platforms”) of working together to “intentionally and willfully suppress
politically conservative content.” Am. Compl. 4. Freedom Watch describes itself as a
“conservative non-profit public interest organization.” Am. Compl. 11. It operates YouTube, 1
Facebook, Twitter, and Apple accounts through which it publishes and promotes media content.
Id. This content seeks to “inform the public about [Freedom Watch’s] conservative advocacy”
and to raise funds to further its mission. Id.

1

YouTube is a video-sharing website owned by Google.

App.026

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 2 of 15

Freedom Watch “experienced steady growth in both audience and revenue generated
through these platforms for many years.” Id. at 12. This changed, the organization suggests,
following the “suppression of conservative content,” which “grew more pronounced and severe
. . . after the election of President Donald J. Trump.” Id. Freedom Watch alleges that its
“growth on these platforms has [since] come to a complete halt, and its audience base and
revenue generated has either plateaued or diminished.” Id.
Like Freedom Watch, Ms. Loomer has a Facebook account. Id. at 16. Until recently, she
also maintained a Twitter account with over 260,000 followers. Id. at 14. She describes herself
as a “conservative investigative journalist and political activist,” id. at 13, and she uses her social
media accounts to “reach[] her audience with her investigative work.” Id. at 16. Ms. Loomer
claims that Twitter banned her “permanently and without cause” after she posted a tweet about
Congresswoman Ilhan Omar, a Democrat. Id. at 14. After this tweet, “Facebook subsequently
banned [her] for 30 days.” Id. Because of these alleged actions, Ms. Loomer “has and will
continue to suffer severe financial injury.” Id. at 16.
The Plaintiffs believe that the Platforms’ conduct violates several laws. First, they argue
that the Platforms “have entered into an illegal agreement to refuse to deal with conservative
news and media outlets . . . as well as to suppress media content and advocacy.” Id. at 17. This
purported agreement is “evidenced by the fact that Freedom Watch began losing users on each of
Defendants[’] platforms at or around the same time.” Id. And because it has “no legitimate
business justification and is plainly anticompetitive,” id., the agreement violates
§ 1 of the Sherman Act. Id. at 20-21.
Second, the Plaintiffs contend that the Platforms have also violated § 2 of the Sherman
Act. Id. at 22. They have done so by “willfully” engaging in “an exclusionary course of

2

App.027

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 3 of 15

conduct” with a “specific intent to monopolize, and to destroy effective competition in the
relevant market for media and news publications.” Id.
Third, the Platforms have allegedly violated the District of Columbia’s Human Rights
Act. Id. at 23. The Plaintiffs suggest that the Platforms have denied them “the full and equal
enjoyment of the services, privileges, and advantages that they provide to persons which they
perceive to not be affiliated with the Republican Party or of Jewish faith.” Id. Political
affiliation and religious beliefs are both traits protected by the Act, which prohibits
discrimination on these bases at places of public accommodation. See D.C. Code § 2-1402.31.
Arguing that the Platforms are “public accommodations,” the Plaintiffs contend that the Act
covers the alleged discrimination they faced. Am. Compl. 23.
Finally, the Plaintiffs assert that the Platforms have deprived them of their “constitutional
rights by censoring [their] content for purely political reasons.” Id. at 24. This censorship, they
assert, violates the First Amendment because the Platforms are “quasi-state actors” that “create[],
operate, and control public platforms that are for public use and public benefit.” Id.
The Platforms have moved to dismiss these claims. They argue that the Plaintiffs lack
standing to sue them. Defs.’ Mot. to Dismiss Am. Compl. (“Defs.’ Mot.”) at 4, ECF No. 29.
They also argue that the Plaintiffs have failed to state legally cognizable claims. Id. at 8. They
believe that they are not subject to the First Amendment or the District’s Human Rights Act, as
they are neither state actors nor public accommodations. Id. at 8, 17. And they contend that the
Plaintiffs have failed to allege sufficiently the existence of any agreement or unilateral actions
that violate the Sherman Act. Id. at 12-16. 2

2

The Court has diversity and federal question jurisdiction over this case. See 28 U.S.C. §§ 1331-32.

3

App.028

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 4 of 15

II.
Whether the Plaintiffs have standing to sue is a “threshold jurisdictional question.” Steel
Co. v. Citizens for a Better Env’t, 523 U.S. 83, 102 (1998). Article III of the U.S. Constitution
limits this Court’s jurisdiction to “actual cases or controversies.” Clapper v. Amnesty Int’l USA,
568 U.S. 398, 408 (2013). “No principle is more fundamental to the judiciary’s proper role in
our system of government than the constitutional limitation of federal-court jurisdiction to actual
cases or controversies,” and the “concept of standing is part of this limitation.” Simon v. E. Ky.
Welfare Rights Org., 426 U.S. 26, 37 (1976) (citation omitted).
To show standing, the Plaintiffs bear the burden of alleging an injury that is “concrete,
particularized, and actual or imminent; fairly traceable to the challenged action; and redressable
by a favorable ruling.” Clapper, 568 U.S. at 409. Facing a motion to dismiss under Federal
Rule of Civil Procedure 12(b)(1), they “must clearly allege facts demonstrating each element.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (cleaned up). The Court will “draw all
reasonable inferences from [the Plaintiffs’] allegations in [their] favor,” but it may not “accept
inferences that are unsupported by the facts,” “assume the truth of legal conclusions,” or credit
“threadbare recitals of the elements of standing.” Arpaio v. Obama, 797 F.3d 11, 19 (D.C. Cir.
2015).
The Platforms also seek dismissal for a “failure to state a claim upon which relief can be
granted.” Fed. R. Civ. P. 12(b)(6). A valid complaint must contain factual allegations that, if
true, “state a claim to relief that is plausible on its face.” Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007). Mere “labels and conclusions” or “naked assertion[s] devoid of further factual
enhancement” are insufficient. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quotations omitted).
Rather, “[a] claim has facial plausibility when the plaintiff pleads factual content that allows the

4

App.029

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 5 of 15

court to draw the reasonable inference that the defendant is liable for the misconduct alleged.”
Id.
In evaluating a motion to dismiss, the Court must construe the complaint in the light
most favorable to the Plaintiffs and accept as true all reasonable factual inferences drawn from
well-pleaded allegations. In re United Mine Workers of Am. Emp. Benefit Plans Litig., 854 F.
Supp. 914, 915 (D.D.C. 1994). The Court need not, however, accept legal conclusions or mere
conclusory statements as true. Iqbal, 556 U.S. at 678. Evaluating a motion to dismiss is a
“context-specific task that requires the reviewing court to draw on its judicial experience and
common sense.” Id. at 679.
III.
A.
The Plaintiffs have sufficiently alleged facts supporting their standing. To begin with,
the Platforms do not contest Ms. Loomer’s standing to sue Facebook and Twitter. See Defs.’
Mot. at 8; Defs.’ Reply in Supp. of Mot. to Dismiss (“Defs.’ Rep.”) at 4, ECF No. 41 (arguing
only that Ms. Loomer lacks standing against Google and Apple). Because Ms. Loomer has
standing against Facebook and Twitter, the Court assumes for these purposes that Judicial Watch
does too. See Horne v. Flores, 557 U.S. 433, 446 (2009) (noting that because one plaintiff
“clearly has standing” to sue, the Court “need not consider whether the [other plaintiffs] also
have standing to do so”).
As to Apple and Google, the Plaintiffs have met their burden of establishing standing at
this initial stage. This burden “grows heavier at each stage of the litigation,” and, at the pleading
stage, “general factual allegations of injury resulting from the defendant’s conduct may suffice.”
Osborn v. Visa Inc., 797 F.3d 1057, 1064 (D.C. Cir. 2015). In the Amended Complaint,
5

App.030

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 6 of 15

Freedom Watch alleges that the growth of its audience and revenues generated from the
Platforms’ platforms have “come to a complete halt.” Am. Compl. 12. It states that the cause of
this decline is the conspiracy to suppress their content, and that “each and every one of” the
Platforms has participated in this conspiracy. Id. And it asserts, for example, that the “number
of subscribers to Freedom Watch’s YouTube channel has remained static and is now declining.”
Id.
Similarly, Ms. Loomer alleges that the Platforms banned her after suggesting that
Representative Omar is in favor of Sharia law and is “anti Jewish.” Id. at 14. She contends that,
though Representative Omar “herself has tweeted anti-Semitic sentiments,” she has faced “no
discipline from” the Platforms. Id. at 15. She also notes that “Twitter refused to take any action
against” Louis Farrakhan after he posted a video clip on the platform that seemingly compared
Jewish people to “termites.” Id. (citing an October 2018 article from The Hill). Because of this
discriminatory behavior by Twitter and the Platforms, Ms. Loomer argues, she has “suffer[ed]
severe financial injury” and has lost the ability to communicate with her followers. Id. at 16.
In other words, the Plaintiffs have alleged a plausible harm—a decrease in revenues—
that is fairly traceable to the alleged conspiracy by the Platforms. The injunctive relief the
Plaintiffs seek would prevent the Platforms from continuing the alleged suppression of the
Plaintiffs’ media content. Am. Compl. 25. These allegations sufficiently establish the Plaintiffs’
standing to bring their claims.
B.
While they have established standing, the Plaintiffs have failed to state viable legal
claims. Consider first their Sherman Act arguments. Section 1 of the Sherman Act states that
“[e]very contract, combination . . . , or conspiracy, in restraint of trade or commerce among the
6

App.031

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 7 of 15

several States, or with foreign nations, is declared to be illegal.” 15 U.S.C. § 1. “Independent
action is not prescribed” by § 1. Monsanto Co. v. Spray-Rite Service Corp., 465 U.S. 752, 760
(1984). So a valid claim must allege that the Platforms “had a conscious commitment to a
common scheme designed to achieve an unlawful objective.” Id. at 764.
The Plaintiffs’ claim fails to do this. True, the Amended Complaint repeatedly states that
the Platforms have engaged in a conspiracy or illegal agreement. See, e.g., Am. Compl. 4, 5, 12,
17. But it offers only these conclusory statements to suggest the existence of such an agreement.
It includes no allegations, for example, that any of the Platforms met or otherwise communicated
an intent to collectively suppress conservative content.
Adequately stating a Sherman Act § 1 claim “requires a complaint with enough factual
matter (taken as true) to suggest that an agreement was made.” Twombly, 550 U.S. at 556.
Merely invoking terms like “conspiracy” and “agreement” is not enough. See id. at 557. A
“district court must retain the power to insist upon some specificity in pleading before allowing a
potentially massive factual controversy to proceed.” Id. at 558 (quoting Assoc. Gen. Contractors
of Cal., Inc. v. Carpenters, 459 U.S. 519, 528 n.17 (1983)). That specificity is lacking here.
The Plaintiffs also suggest that the Platforms “have engaged in ‘conscious parallelism’
and in concert mimicked each others’ refusal to deal with Freedom Watch and Ms. Loomer.”
Am. Compl. 21. But Freedom Watch admits that it “has and still does pay Google and YouTube,
Facebook and the other Defendants for services.” Id. at 11. This admission contradicts
assertions of a coordinated “refusal to deal” with the Plaintiffs.
More broadly, “conscious parallelism [is] a common reaction of firms in a concentrated
market that recognize their shared economic interests and their interdependence with respect to
price and output decisions.” Twombly, 550 U.S. at 553. It is “not in itself unlawful.” Id. at 554.

7

App.032

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 8 of 15

“Without more, parallel conduct does not suggest conspiracy, and a conclusory allegation of
agreement at some unidentified point does not supply facts adequate to show illegality.” Id. at
556-57.
While the Plaintiffs sufficiently alleges that each of the Platforms acted to suppress or
censor conservative content, they fail to show how the Platforms’ purportedly parallel actions
stem from a conspiracy. The Amended Complaint asserts that the Platforms are “willing to lose
revenue from conservative organizations and individuals like Freedom Watch.” Am. Compl. 17.
This willingness comes from a desire to “further their leftist agenda.” Id. The Plaintiffs suggest
this allegation—that the Platforms were motivated to take these actions despite losing revenue—
provides enough circumstantial evidence of an antitrust conspiracy. See Pls.’ Opp. to Mot. to
Dismiss (“Pls.’ Opp.”) at 13, ECF No. 34.
Not so. Losing revenue from certain organizations or individuals is not necessarily
against the economic interests of any of the Platforms. The Amended Complaint does not allege
that the Platforms’ overall profitability decreased because of their actions. A loss of income
from one source can be offset by larger gains in income from other sources. And the effect of
politically motivated business decisions on the net revenues of corporations is far from clear. 3 In

Compare, for example, two news stories about Nike’s decision to feature former NFL quarterback Colin
Kaepernick in a new advertising campaign. In a September 5, 2018, article, CNN noted that Nike’s share
price declined by three percent after the launch of the campaign and suggested that “Wall Street seems to
think Nike just blew it.” Paul R. La Monica, Nike Investors Aren’t Happy About the Colin Kaepernick
Ad, CNN (September 5, 2018), https://money.cnn.com/2018/09/04/news/companies/ nike-stock-downcolin-kaepernick/index.html. But just a few days later, a reporter noted that Nike’s shares were up about
four percent since the launch and reasoned that the Kaepernick campaign “is resonating with the
company’s core customer base.” Jonathan Berr, Nike Stock Price Reaches All-Time High After Colin
Kaepernick Ad, CBS News (September 14, 2018), https://www.cbsnews.com/news/nike-stock-pricereaches-all-time-high-despite-colin-kaepernick-ad-boycott/.

3

8

App.033

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 9 of 15

short, the Plaintiffs’ Amended Complaint presents no facts excluding the possibility that the
alleged conspirators were acting alone. It therefore fails to state a § 1 claim.
The Plaintiffs’ Sherman Act § 2 claim fares no better. Section 2 makes it illegal for an
entity to “monopolize, or attempt to monopolize, or combine or conspire with any other [entity],
to monopolize any part of the trade or commerce among the several States, or with foreign
nations.” 15 U.S.C. § 2. The Amended Complaint suggests that the “Defendants collectively
have obtained monopoly power in the relevant markets through exclusionary conduct that has
severely harmed competition.” Am. Compl. 20.
Even taking their statements as true, the Plaintiffs fail to make out a § 2 claim. As the
Platforms correctly note, collective or “shared monopoly” arguments are generally “insufficient
to state a claim that defendants have monopolized or attempted to monopolize the [relevant]
market in violation of Section 2 of the Sherman Act.” City of Moundridge v. Exxon Mobil Corp.,
471 F. Supp. 2d 20, 42 (D.D.C. 2007). See also Defs.’ Mot. at 15 n. 7 (collecting cases holding
that allegations of a shared monopoly do not state a viable § 2 claim). Indeed, the Plaintiffs
apparently concede the futility of their shared monopoly claim. See Pls.’ Opp. at 14.
The Amended Complaint also suggests that Facebook is “the leading way that most
Americans get their news,” and that the company “has held at least a 73.9% market share in
advertising revenue since at [sic] 2015.” Am. Compl. 18, 20. The Plaintiffs argue that these
assertions sufficiently “support a finding of single-firm monopolization.” Pls.’ Opp. at 14. They
do not.
First, the Amended Complaint does not allege that any of the Platforms, acting
individually, has monopolized or sought to monopolize any market. Rather, its legal claims
focus on the conduct of the Platforms acting together. See Am. Compl. 20, 22.

9

App.034

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 10 of 15

Second, even if it can be read as alleging that Facebook or one of the other Platforms has
tried to monopolize a market, the Amended Complaint offers only conclusory statements in
support of this argument. It defines the relevant market as the “market for media and news
publications (and the submarket for political media and news publications).” Am. Compl. 20.
And it states that the “geographic markets are in this district and nationwide and worldwide.” Id.
But the Plaintiffs offer no market share data for any of the Platforms in either the local or
worldwide markets for media and news publications. Instead, they make claims about the
“social network global market,” the “social networking advertising revenue” market, the “digital
ad revenues” market, and the “mobile ad market.” Am. Compl. 18. And though the Amended
Complaint states that “59% of Twitter users get their news through the Twitter platform” and
that “48% of all American adults [get] their news from Facebook,” it offers no support for the
notion that either firm has achieved or tried to achieve monopolization of the nationwide media
and news publications market. Am. Compl. 20.
The Plaintiffs also argue that the Platforms conspired to monopolize the market for media
and news publications. Am. Compl. 22; Pls.’ Opp. at 14-15. But, as discussed above, the
Amended Complaint does not adequately allege the existence of a conspiracy. Thus, this
argument fails too, and the Court will dismiss the Plaintiffs’ Sherman Act claims.
C.
Turning to the Plaintiffs’ discrimination claim, the Court finds that the Platforms’ online
services are not “places of public accommodation” under the D.C. Human Rights Act. The Act
makes it unlawful to “deny, directly or indirectly, any person the full and equal enjoyment of the
goods, services, facilities, privileges, advantages, and accommodations of any place of public
accommodations” because of the person’s political affiliation or religion. D.C. Code § 210

App.035

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 11 of 15

1402.31(a). It defines a “place of public accommodation” as “all places included in the meaning
of such terms as inns, taverns, road houses, hotels, motels . . . restaurants, . . . wholesale and
retail stores,” and many other physical locations. Id. § 2-1401.02(24). The definition includes
over 50 specific examples of “places of public accommodation.” Not one of these examples is
an online or virtual platform.
As the D.C. Court of Appeals has made clear, the alleged place of public accommodation
must be a physical location. In U.S. Jaycees v. Bloomfield, it held that a “voluntary membership
organization” that “render[ed] community service” was not a place of public accommodation.
434 A.2d 1379, 1381 (D.C. 1981). The court noted that the organization “does not operate from
any particular place within the District of Columbia,” and instead conducts its activities through
other entities. Id.; accord Samuels v. Rayford, 1995 WL 376939 at *8 (D.D.C. Apr. 10, 1995)
(“Reading the definition in its entirety, therefore, a ‘place of public accommodation’ must: (1) be
a place; and (2) be public, not private, in nature.”).
The Plaintiffs’ arguments to the contrary are unpersuasive. They suggest that “many
Courts across the nation have expressly held internet sites to be places of ‘public
accommodation.’” Pls.’ Opp. at 16. Maybe so. But these courts were not interpreting the D.C.
Human Rights Act. See Pls.’ Opp. at 17 (discussing cases that interpreted Title III of the
Americans With Disabilities Act (the “ADA”)). And courts have also held that “public
accommodations” under the ADA are limited to physical spaces. See, e.g., Weyer v. Twentieth
Century Fox Film Corp., 198 F.3d 1104, 1114 (9th Cir. 2000); Stoutenborough v. Nat’l Football
League, Inc., 59 F.3d 580, 583 (6th Cir. 1995). The applicability of an unsettled interpretation
about an unrelated statute is unclear.

11

App.036

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 12 of 15

The Plaintiffs also invite the Court to find that the cases interpreting the District’s Human
Rights Act do not apply, as they were decided before courts “had any occasion to determine the
ubiquitous nature of internet-based service providers today.” Pls.’ Opp. at 16. The Court
declines to do so. The D.C. Court of Appeals authoritatively interprets the D.C. Code, and it is
not up to this Court to retire U.S. Jaycees. Indisputably, platforms like Facebook and Twitter
have changed the ways people interact with each other, and these social media networks now
permeate most aspects of our lives. But any decision to extend the coverage of existing laws to
these networks must be made elsewhere. Because the Plaintiffs erroneously allege that the
Platforms “qualify as public accommodations as defined by the [Act],” their claim fails.
D.
Lastly, the Court must also dismiss the Plaintiffs’ First Amendment claim. It is axiomatic
that “the constitutional guarantee of free speech is a guarantee only against abridgement by
government, federal or state.” Hudgens v. NLRB, 424 U.S. 507, 513 (1976). In other words, to
“trigger First Amendment protection, the infringement upon speech must have arisen from state
action of some kind.” Bronner v. Duggan, 249 F. Supp. 3d 27, 41 (D.D.C. 2017) (citing Blum v.
Yaretsky, 457 U.S. 991, 1002-03, (1982)).
Here, the Plaintiffs have failed to allege state action. They suggest that the Platforms are
“quasi-state actors because they regulate their public platforms, thereby regulating free speech
within their public forums.” Am. Compl. 24. But an entity can only be a “state actor” if “there
is a sufficiently close nexus between the State and the challenged action of the regulated entity so
that the action of the latter may fairly be treated as that of the State itself.” Jackson v. Metro.
Edison Co., 419 U.S. 345, 351 (1974). The Plaintiffs do not show how the Platforms’ alleged
conduct may fairly be treated as actions taken by the government itself. Facebook and Twitter,
12

App.037

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 13 of 15

for example, are private businesses that do not become “state actors” based solely on the
provision of their social media networks to the public. See Llyod Corp. v. Tanner, 407 U.S. 551,
569 (1972) (“Nor does property lose its private character merely because the public is generally
invited to use it for designated purposes.”).
The Plaintiffs cite two recent cases, Packingham v. North Carolina, 137 S. Ct. 1730
(2017), and Halleck v. Manhattan Cmty. Access Corp., 882 F.3d 300 (2d Cir.), cert. granted, 139
S. Ct. 360 (2018), in support of the proposition that “access to these social media sites could
form the basis for a constitutional First Amendment issue.” Pls.’ Opp. at 10. Neither case
applies here.
True, in Packingham, the Supreme Court recognized that Facebook and Twitter are
among the “most important places (in a spatial sense) for the exchange of views” in society
today. 137 S. Ct. at 1735. But the case involved a challenge to a state law that limited the
speech rights of certain criminals on these platforms. Id. at 1738. It did not create a new cause
of action against a private entity for an alleged First Amendment violation.
In Halleck, the Second Circuit noted that “facilities or locations deemed to be public
forums are usually operated by governments,” and that “determining that a particular facility or
location is a public forum usually suffices to render the challenged action taken there to be state
action.” 882 F.3d at 306. The court found that public access television channels are public
forums. Id. As a result, it held that private companies operating public access television
channels can qualify as state actors. Id. at 307.
But this conclusion was based on a finding that the private companies had “a sufficient
connection to governmental authority to be deemed state actors.” Id. Specifically, the court
determined that municipal authorities, who traditionally operate public access television

13

App.038

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 14 of 15

channels, had expressly “designated [the private companies] to run the public access channels.”
Id. It added that, by running the channels, the private companies were “exercising precisely the
authority to administer” a public forum “conferred on them by a senior municipal official.” Id.
Indeed, the regulatory framework of public access television channels underscores the
nexus between the private providers and traditionally governmental functions. The Cable
Communications Policy Act of 1984 authorizes local regulators to require that “channel capacity
be designated for public, educational, or governmental use.” 47 U.S.C. § 531(b). As the Halleck
court explains, New York’s Public Service Commission has long used this authority to require
cable operators to “designate . . . at least one full-time activated channel for public access use.”
882 F.3d at 302 (citing N.Y. Comp. Codes R. & Regs. tit. 16, § 895.4(b)(1)). The regulation
requires that such channels be “designated for noncommercial use by the public on a first-come,
first-served, nondiscriminatory basis.” Id. (emphasis added). In other words, private cable
companies are required by law to provide public access channels for the public benefit. In their
absence, it would be the government that provided this service to its citizens.
By contrast, the Plaintiffs here allege no nexus between the Platforms’ actions and a
function traditionally reserved exclusively to the state. Nor do they contend that the Platforms
were designated by the state to perform a governmental operation. Instead, the Amended
Complaint focuses on the Platforms’ alleged suppression of conservative political content. It
details, for instance, the seemingly disparate treatment of conservative news publishers on
Facebook and of conservative commentators on Twitter. Am. Compl. 4-5. But while selective
censorship of the kind alleged by the Plaintiffs may be antithetical to the American tradition of

14

App.039

Case 1:18-cv-02030-TNM Document 44 Filed 03/14/19 Page 15 of 15

freedom of speech, it is not actionable under the First Amendment unless perpetrated by a state
actor. Thus, their claim must be dismissed. 4
IV.
For these reasons, the Platforms’ Motion to Dismiss will be granted. A separate order
accompanies this opinion.

Dated: March 14, 2019

TREVOR N. McFADDEN, U.S.D.J.

Because the Court finds that the Plaintiffs have failed to state valid claims, it need not address the
Platforms’ argument that the claims are barred by the Communications Decency Act, 47 U.S.C. §
230(c)(1).

4

15

App.040

Nos. 19-7030
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
FREEDOM WATCH, et al.,

Plaintiffs-Appellees

v.
GOOGLE, INC. et al.,

Defendants-Appellants

On Appeal from the United States District Court for the District of Columbia
No. 1:18-cv-02030-TNM
BRIEF OF AMICI CURIAE LAWYERS’ COMMITTEE FOR CIVIL
RIGHTS UNDER LAW AND THE WASHINGTON LAWYERS’
COMMITTEE FOR CIVIL RIGHTS AND URBAN AFFAIRS
IN SUPPORT OF NEITHER PARTY
Jon Greenbaum (DC Bar # 489887)
David Brody (DC Cir. Bar # 61933)
LAWYERS’ COMMITTEE FOR CIVIL RIGHTS
UNDER LAW
1500 K Street N.W., Suite 900
Washington, D.C. 20005
(202) 662-8300
jgreenbaum@lawyerscommittee.org
dbrody@lawyerscommittee.org

Kaitlin Banner (DC Bar # 1000436)
Margaret Hart (DC Bar # 1030528)
WASHINGTON LAWYERS’ COMMITTEE
FOR CIVIL RIGHTS AND URBAN AFFAIRS
700 14th Street, N.W., Suite 400
Washington, DC 20005
(202) 319-1000
kaitlin_banner@washlaw.org
margaret_hart@washlaw.org

Counsel for Amici Curiae
October 16, 2019

(Page 2 of Total)

App.041

CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 26.1 of the Federal Rules of Appellate Procedure and Rule
26.1 of the United States Court of Appeals for the District of Columbia Circuit,
counsel for amici curiae certify that the Lawyers’ Committee for Civil Rights
Under Law and the Washington Lawyers’ Committee for Civil Rights and Urban
Affairs are not publicly held corporations, do not have parent corporations, and no
publicly held corporation owns 10 percent or more of their stock. Amici curiae are
nonprofit, nonpartisan organizations whose purpose is to protect civil rights and
advance equal opportunity.
/s/ David Brody
David Brody

(Page 3 of Total)

App.042

TABLE OF CONTENTS
Page

STATEMENT OF INTEREST ..................................................................................1
SUMMARY OF ARGUMENT .................................................................................3
ARGUMENT .............................................................................................................6
I.

The DCHRA’s public accommodations provisions are pivotal to
protecting the civil rights of the residents of the District of Columbia. ..........6
A.
The D.C. Council intentionally created a “powerful, flexible,
and far-reaching prohibition against discrimination of many
kinds.”....................................................................................................6
B.
Public accommodations laws were enacted to stop and prevent
racial segregation, discrimination, and hateful persecution. .................7
C.
Online discrimination and intimidation disproportionately harm
African Americans, people of color, and other marginalized
communities. .........................................................................................9

II.

The DCHRA’s public accommodations definition does not distinguish
between online and offline entities; to hold otherwise would yield
discriminatory outcomes and gut the District’s primary civil rights
law. .................................................................................................................16
A.
The Act does not exempt online entities. ............................................17
B.
Appellees are places of public accommodation with regard to
the online goods or services they offer to District residents. ..............24
C.
Exempting online businesses would create absurd results and
disadvantage District-based brick-and-mortar businesses
against online competitors. ..................................................................27

III.

If the Court is uncertain as to the meaning of the DCHRA, it must
certify the legal question to the D.C. Court of Appeals. ...............................29

IV.

Conclusion .....................................................................................................30
-i-

(Page 4 of Total)

App.043

TABLE OF AUTHORITIES
Page
CASES
Ali v. Fed. Bur. of Prisons,
552 U.S. 214 (2008) ............................................................................................ 19
Am. Council of the Blind v. U.S. Gen. Serv. Admin.,
No. 1:14-cv-00671 (D.D.C. 2014) .................................................................. 3, 13
Benisek v. Lamone,
138 S. Ct. 1942 (2018) .......................................................................................... 1
Bethune-Hill v. Va. State Bd. of Elections.,
137 S. Ct. 788 (2017) ............................................................................................ 1
Blodgett v. Univ. Club,
930 A.2d 210 (D.C. 2007) ......................................................................17, 19, 20
Cherokee Nation v. Nash,
267 F. Supp. 3d 86 (D.D.C. 2017) ...................................................................... 18
Delahanty v. Hinckley,
845 F.2d 1069 (D.C. Cir. 1988) .......................................................................... 29
Dist. of Columbia v. John R. Thompson Co.,
346 U.S. 100 (1953) .............................................................................................. 8
Dumpson v. Ade,
2019 WL 3767171 (D.D.C. Aug. 9, 2019) ..................................................... 1, 15
Evenwel v. Abbott,
136 S. Ct. 1120 (2016) .......................................................................................... 2
Exec. Sandwich Shoppe, Inc. v. Carr Realty Corp.,
749 A.2d 724 (D.C. 2000) ............................................................5, 17, 19, 20, 22

- ii -

(Page 5 of Total)

App.044

TABLE OF AUTHORITIES
Page
Expedia, Inc. v. Dist. of Columbia,
120 A.3d 623 (D.C. 2015) .................................................................................. 16
Farmer v. Sweetgreen, Inc.,
No. 1:16-cv-02103 (S.D.N.Y. 2016) .............................................................. 3, 13
Freedom Watch, Inc. v. Google, Inc.,
368 F. Supp. 3d 30 (D.D.C. 2019) ........................................................................ 9
Gay Rights Coal. of Georgetown Univ. Law Ctr. v. Georgetown Univ.,
536 A.2d 1 (D.C. 1987) (en banc) ........................................................................ 9
Gill v. Whitford,
138 S. Ct. 1916 (2018) .......................................................................................... 1
Harris v. Dist. of Columbia Comm’n on Human Rights,
562 A.2d 625 (D.C. 1989) ............................................................................17, 22
James v. Team Washington, Inc.,
1997 WL 633323 (D.D.C. Oct. 7, 1997) ................................................19, 20, 23
Lively v. Flexible Packaging Ass’n,
830 A.2d 874 (D.C. 2003) (en banc) ......................................................16, 19, 20
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights Comm’n,
138 S. Ct. 1719 (2018) .......................................................................................... 1
Mazza v. Hollis,
947 A.2d 1177 (D.C. 2008) ................................................................................ 19
Metz v. BAE Sys. Tech. Sols. & Servs. Inc.,
774 F.3d 18 (D.C. Cir. 2014) .............................................................................. 29
Nat’l Org. for Women v. Mutual of Omaha Ins. Co., Inc.,
531 A.2d 274 (D.C. 1987) ............................................................................20, 23
- iii -

(Page 6 of Total)

App.045

TABLE OF AUTHORITIES
Page
Samuels v. Rayford,
1995 WL 376939 (D.D.C. 1995) .................................................................... 5, 22
Shen v. Albany Unified Sch. Dist.,
No. 3:17-cv-02478-JD (N.D. Cal. 2017) .............................................................. 2
Shoppers Food Warehouse v. Moreno,
746 A.2d 320 (D.C. 2000) (en banc) ............................................................19, 24
Stanley v. Barbri, Inc.,
No. 3:16-cv-01113 (N.D. Tex. 2016) ............................................................. 3, 13
Stewart v. Azar,
No. 19-5095 (D.C. Cir. 2019) ............................................................................... 2
Tidler v. Eli Lilly & Co.,
851 F.2d 418 (D.C. Cir. 1988) ............................................................................ 29
U.S. Jaycees v. Bloomfield,
434 A.2d 1379 (D.C. 1981) ................................................................5, 21, 22, 30
United States v. Microsoft,
138 S. Ct. 1186 (2018) ........................................................................................ 23
STATUTES
42 U.S.C. § 2000a ...................................................................................................... 9
D.C. Code § 2-1401.01 .......................................................................................... 4, 6
D.C. Code § 2-1401.02(24)..................................................................4, 9, 17, 18, 19
D.C. Code § 2-1402.01 ..............................................................................6, 7, 22, 27
D.C. Code § 2-1402.31 ........................................................................................ 9, 15
D.C. Code § 2-1402.61 ........................................................................................ 8, 15
- iv -

(Page 7 of Total)

App.046

TABLE OF AUTHORITIES
Page
D.C. Code § 2-1402.68 .............................................................................................. 9
D.C. Code § 11–723................................................................................................. 29
OTHER AUTHORITIES
Big Data: Seizing Opportunities, Preserving Values, The White
House, at 53 (May 2014) .................................................................................... 10
Big Data and Differential Pricing, The White House (Feb. 2015) ......................... 11
Big Data: A Tool for Inclusion or Exclusion?, FTC (Jan. 2016) ............................ 10
Caroline Haskins, Amazon’s Home Security Company Is Turning
Everyone Into Cops, Motherboard (Feb. 7, 2019) .............................................. 12
D.C. Council, Comm. on Pub. Servs. and Consumer Affairs, Report of
Bill 2-179, at 3 (July 5, 1977) .....................................................................4, 7, 29
Elaine Glusac, As Airbnb Grows, So Do Claims of Discrimination,
N.Y. Times (June 21, 2016)................................................................................ 12
Facebook Now Lets You Order Food Without Leaving Facebook, The
Verge (Oct. 13, 2017) ......................................................................................... 26
Fannie L. Hamer, Testimony before the Credentials Committee,
Democratic National Convention (Aug. 22, 1964)............................................. 13
Jennifer Valentino-DeVries et al, Websites Vary Prices, Deals Based
on Users’ Information, Wall Street J. (Dec. 24, 2012)....................................... 11
Julia Angwin et al, When Algorithms Decide What You Pay,
ProPublica (Oct. 5, 2016) ................................................................................... 10
Julia Angwin and Terry Parris Jr., Facebook Lets Advertisers Exclude
Users by Race, ProPublica (Oct. 28, 2016) ........................................................ 11
-v-

(Page 8 of Total)

App.047

TABLE OF AUTHORITIES
Page
Justin Volz, Health Insurers Are Vacuuming Up Details About You –
And It Could Raise Your Rates, ProPublica (July 17, 2018) .............................. 12
Kristen Clarke, Does Airbnb Enable Racism?, N.Y. Times (Aug. 23,
2016) ................................................................................................................... 11
Laura Counts, Minority homebuyers face widespread statistical
lending discrimination, study finds, Berkeley Haas Sch. of Bus.
(Nov. 13, 2018) ................................................................................................... 12
Louise Matsakis, Facebook’s Ad System Might Be Hard-Coded for
Discrimination, WIRED (April 6, 2019) ............................................................ 11
Maeve Duggan, Online Harassment 2017, Pew Research Center, at 1
(July 11, 2017) .................................................................................................... 14
Mary L. Heen, Ending Jim Crow Life Insurance Rates, 4 Nw. J. L. &
Soc. Pol'y. 360 (2009) ........................................................................................... 8
Sarah Jeong, Insurers Want to Know How Many Steps You Took
Today, N.Y. Times (April 10, 2019) .................................................................. 12
Tracy Jan and Elizabeth Dwoskin, HUD is reviewing Twitter’s and
Google’s ad practices as part of housing discrimination probe,
Wash. Post (March 28, 2019) ............................................................................. 11

- vi -

(Page 9 of Total)

App.048

STATEMENT OF INTEREST
Amici curiae are a national and a regional civil rights organization who
advocate for racial justice and regularly litigate discrimination and equal
opportunity cases, including discrimination in public accommodations under the
DCHRA. See, e.g., Dumpson v. Ade, 2019 WL 3767171 (D.D.C. Aug. 9, 2019).1
The Lawyers’ Committee for Civil Rights Under Law (“National Lawyers’
Committee”) is a nonprofit, nonpartisan organization founded at the request of
President John F. Kennedy in 1963 to enlist the private bar’s leadership and
resources in combating racial discrimination and vindicating the civil rights of
African Americans and other racial and ethnic minorities. The principal mission of
the National Lawyers’ Committee is to secure equal justice for all through the rule
of law; the organization frequently participates as amicus curiae to protect the
interests of these communities. See, e.g., Benisek v. Lamone, 138 S. Ct. 1942
(2018); Gill v. Whitford, 138 S. Ct. 1916 (2018); Masterpiece Cakeshop, Ltd. v.
Colorado Civil Rights Comm’n, 138 S. Ct. 1719 (2018); Bethune-Hill v. Va. State

Amici curiae file this brief pursuant to the Court’s September 3, 2019
Order granting leave to participate. No party’s counsel authored this brief in whole
or in part; no party or party’s counsel contributed money that was intended to fund
preparing or submitting this brief; and no one other than amici curiae, their
members, or their counsel contributed money that was intended to fund preparing
or submitting this brief.
1

-1-

(Page 10 of Total)

App.049

Bd. of Elections., 137 S. Ct. 788 (2017); Evenwel v. Abbott, 136 S. Ct. 1120
(2016); Stewart v. Azar, No. 19-5095 (D.C. Cir. 2019). The National Lawyers’
Committee’s Stop Hate Project works to combat online hateful activities, which
can have chilling effects on the free expression of targeted communities. See, e.g.,
Shen v. Albany Unified Sch. Dist., No. 3:17-cv-02478-JD (N.D. Cal. 2017); Kristen
Clarke and David Brody, It’s time for an online Civil Rights Act, The Hill (Aug. 3,
2018).2
The Washington Lawyers’ Committee for Civil Rights and Urban Affairs
(“Washington Lawyers’ Committee”) is a non-profit civil rights organization
established to eradicate discrimination and poverty by enforcing civil rights laws
through litigation and public policy advocacy in Washington, D.C. and the
surrounding areas. In furtherance of this mission, the Washington Lawyers’
Committee represents some of the most vulnerable persons and populations,
including individuals who are discriminated against on the basis of their race,
national origin, gender, and disability. The Washington Lawyers’ Committee
frequently enforces the DCHRA on behalf of our clients, and has an active practice
aimed at reducing barriers to public services and public accommodations so that

https://thehill.com/opinion/civil-rights/400310-its-time-for-an-online-civilrights-act.
2

-2-

(Page 11 of Total)

App.050

everyone, regardless of race, gender, disability or language can be free from
discrimination in civic participation, economic activity and social engagement.
See, e.g., Farmer v. Sweetgreen, Inc., No. 1:16-cv-02103 (S.D.N.Y. 2016); Stanley
v. Barbri, Inc., No. 3:16-cv-01113 (N.D. Tex. 2016); Am. Council of the Blind v.
U.S. Gen. Serv. Admin., No. 1:14-cv-00671 (D.D.C. 2014).
SUMMARY OF ARGUMENT
Amici curiae file this brief to address one significant error of the District
Court: its legal determination that online businesses are exempted from the
provisions of the District of Columbia Human Rights Act (DCHRA) that ban
discrimination in public accommodations. Ignoring the plain text, which contains
no such exception, and the statutory history, which makes clear that the statute was
designed to eradicate all discrimination in public accommodations, the District
Court instead improperly relies upon a case deciding that a private club was not
subject to the DCHRA’s anti-discrimination provisions when it held events in
public spaces over which it had no control. Because the impact of the Court’s
decision in this case will go beyond the instant parties and facts, amici curiae urge
the Court to carefully consider the scope, intent, text, history, and function of the
DCHRA and to reverse the trial court’s decision on this issue.

-3-

(Page 12 of Total)

App.051

When a business posts a sign that says, “Whites Only,” it does not matter if
it is written in ink or pixels. The discrimination is the same. The harm is the same.
And under District of Columbia law, the transgression is the same. Places of public
accommodation include “all places included in the meaning of such terms as . . .
establishments dealing with goods or services of any kind.” D.C. Code § 21401.02(24). There is no text, history, or case law suggesting that the DCHRA
does not apply to modern online commerce simply because it is online. To the
contrary, the statute and the D.C. Council are as explicit as they can possibly be
that the DCHRA is meant “to secure an end in the District of Columbia to
discrimination for any reason other than that of individual merit,” D.C. Code § 21401.01, and that “the elimination of discrimination within the District of
Columbia should have the highest priority.” D.C. Council, Comm. on Pub. Servs.
and Consumer Affairs, Report of Bill 2-179, at 3 (July 5, 1977). To hold that the
Act does not apply to the entire universe of online businesses—including, inter
alia, online retailers, banks, insurers, travel agencies, airlines, hotel booking
services, entertainment venues, accounting services, food delivery services, and
social media services—means that Appellees and other businesses could
discriminate against consumers without repercussion under D.C. civil rights law.
For example, they could explicitly refuse service based on race, charge higher
-4-

(Page 13 of Total)

App.052

prices based on religion, provide subpar products based on gender, or ignore the
accessibility needs of persons with disabilities. This outcome is antithetical to the
text, history, and caselaw underlying a statute that was explicitly written to be
“powerful, flexible, and far-reaching.” Exec. Sandwich Shoppe, Inc. v. Carr Realty
Corp., 749 A.2d 724, 732 (D.C. 2000).
The District Court’s decision is fully at odds with the text and purpose of the
DCHRA, and the Court consequently conducted an incorrect and cursory
extrapolation of U.S. Jaycees v. Bloomfield, 434 A.2d 1379 (D.C. 1981). U.S.
Jaycees narrowly held that a specific membership-based club was not a public
accommodation when it hosted public events at locations that it did not own or
substantially control. Id. 434 A.2d at 1382. The instant case presents a
fundamentally different issue that U.S. Jaycees does not even begin to address:
whether an online business should be exempted from the same civil rights
obligations that apply to a brick-and-mortar business.3 Comparing one private civic
service organization’s social events in 1981 to the multi-billion dollar online
services offered by the largest technology companies in the world in 2019 is
unfounded and erroneous.
The other case briefly cited by the District Court is similarly inapplicable;
it dealt with a doctor denied the ability to work at a hospital and held the hospital
was a private venue. Samuels v. Rayford, 1995 WL 376939, at *7-8 (D.D.C. 1995).
3

-5-

(Page 14 of Total)

App.053

Racial discrimination and bigotry are just as common online as in brick-andmortar storefront operations. When the D.C. Council gives D.C. residents the right
to “equal opportunity to participate in all aspects of life,” D.C. Code § 2-1402.01,
equal opportunity in online commerce is a subset of such right.
ARGUMENT
I.

THE DCHRA’S PUBLIC ACCOMMODATIONS PROVISIONS ARE
PIVOTAL TO PROTECTING THE CIVIL RIGHTS OF THE
RESIDENTS OF THE DISTRICT OF COLUMBIA.
Public accommodations laws like the D.C. Human Rights Act (DCHRA)

were an essential component of ending de facto race segregation and currently
protect broad classes of individuals from discrimination in evolving marketplaces
and town squares. As this Court interprets the DCHRA, it is important to recognize
what these laws do, why they were necessary, and the role they continue to play.
A.

The D.C. Council intentionally created a “powerful, flexible, and
far-reaching prohibition against discrimination of many kinds.”

The DCHRA is intentionally one of the most comprehensive and powerful
civil rights laws in the nation, designed to prohibit all kinds of discrimination. “It is
the intent of the Council of the District of Columbia, in enacting this chapter, to
secure an end in the District of Columbia to discrimination for any reason other
than individual merit[.]” D.C. Code § 2-1401.01. The Council “reinforce[d] … [its]
view that the Human Rights Act is among our most important laws and is to be
-6-

(Page 15 of Total)

App.054

vigorously enforced.” D.C. Council, Comm. on Pub. Servs. and Consumer Affairs,
Report of Bill 2-179, at 1 (July 5, 1977); see also id. at 3 (“the Council’s intent [is]
that the elimination of discrimination within the District of Columbia should have
the highest priority”).
Moreover, the Council wrote the Act to be broad, flexible, and inclusive.
The Act covers more protected characteristics, more types of activities, and more
entities than most states in order to be as inclusive as possible. See id. at 2
(DCHRA “widely hailed as the most comprehensive of its kind in the nation”);
D.C. Code § 2-1402.01 (“Every individual shall have an equal opportunity to
participate fully in the economic, cultural, and intellectual life of the District and to
have an equal opportunity to participate in all aspects of life, including, but not
limited to, in employment, in places of public accommodation, resort or
amusement, in educational institutions, in public service, and in housing and
commercial space accommodations.”).
B.

Public accommodations laws were enacted to stop and prevent
racial segregation, discrimination, and hateful persecution.

A public accommodation is a business that offers goods or services to the
general public, such as restaurants, hotels, banks, retail stores, insurance
companies, public houses, taxis, and travel agencies. Before modern public
accommodations laws, these venues often openly refused to serve African
-7-

(Page 16 of Total)

App.055

Americans, see, e.g., Dist. of Columbia v. John R. Thompson Co., 346 U.S. 100
(1953) (restaurant refused to serve African Americans solely on account of race);
insurance companies and banks charged people of color more based on their race,
see, e.g., Mary L. Heen, Ending Jim Crow Life Insurance Rates, 4 Nw. J. L. & Soc.
Pol'y. 360 (2009); and white supremacists routinely harassed, assaulted, and
lynched minorities who challenged Jim Crow segregation. See, e.g., Gillian
Brockell, The deadly race riot ‘aided and abetted’ by The Washington Post a
century ago, Wash. Post (July 15, 2019).4
Congress, States, and the District enacted public accommodations laws and
other statutes to end Jim Crow. Importantly, these laws prohibit not only
segregation and discrimination by businesses that serve the general public, but also
interference by third parties in the equal enjoyment of such businesses. See D.C.
Code § 2-1402.61. For example, these laws both forbid a lunch counter from
denying service on the basis of race as well as bar a racist interloper from
threatening those seeking equal access to the lunch counter.
Local public accommodations laws, like the DCHRA, serve an important
function over and above federal law. They can be tailored to community needs,

https://www.washingtonpost.com/history/2019/07/15/deadly-race-riotaided-abetted-by-washington-post-century-ago/.
4

-8-

(Page 17 of Total)

App.056

more easily updated, and more protective than federal baselines. The DCHRA, for
example, covers more protected classes and more industries than Title II of the
Civil Rights Act of 1964. Compare 42 U.S.C. § 2000a with D.C. Code §§ 21401.02(24), 2-1402.31. The DCHRA protects individuals from discrimination
based on twenty protected traits, including inter alia sex, age, sexual orientation,
and gender identity or expression, whereas Title II only addresses race, color,
religion, and national origin. 42 U.S.C. § 2000a; D.C. Code § 2-1402.31. The
DCHRA also allows disparate impact claims. D.C. Code § 2-1402.68; Gay Rights
Coal. of Georgetown Univ. Law Ctr. v. Georgetown Univ., 536 A.2d 1, 29 (D.C.
1987) (en banc).
C.

Online Discrimination and Intimidation Disproportionately Harm
African Americans, People of Color, and Other Marginalized
Communities.

Today, as the District Court acknowledged, it is indisputable that platforms
like Facebook and Twitter have changed the ways people interact with each other,
and these social media networks now permeate most aspects of our lives. Freedom
Watch, Inc. v. Google, Inc., 368 F. Supp. 3d 30, 40 (D.D.C. 2019). Online
discrimination impacts the economic, cultural, and intellectual life of District
residents and is the type of discrimination that the Council sought to eliminate
when it enacted the DCHRA. District residents are often subject to discrimination
-9-

(Page 18 of Total)

App.057

in online businesses where they are entitled to public accommodation, both when
they are explicitly denied services because of their protected characteristics and
when they experience such severe harassment that their equal enjoyment of the
business is inhibited.
Businesses operating online may use personal data in discriminatory ways.
“Just as neighborhoods can serve as a proxy for racial or ethnic identity, there are
new worries that big data technologies could be used to ‘digitally redline’
unwanted groups, either as customers, employees, tenants, or recipients of credit.”
Big Data: Seizing Opportunities, Preserving Values, The White House, at 53 (May
2014).5 See also, generally, Big Data: A Tool for Inclusion or Exclusion?, FTC
(Jan. 2016).6 Online retailers can unfairly discriminate on price. See Julia Angwin
et al, When Algorithms Decide What You Pay, ProPublica (Oct. 5, 2016) (online
test prep company charged higher prices in ZIP codes with large Asian

Available at
https://obamawhitehouse.archives.gov/sites/default/files/docs/big_data_privacy_re
port_may_1_2014.pdf.
5

Available at https://www.ftc.gov/system/files/documents/reports/big-datatool-inclusion-or-exclusion-understanding-issues/160106big-data-rpt.pdf.
6

- 10 -

(Page 19 of Total)

App.058

populations);7 Big Data and Differential Pricing, The White House (Feb. 2015);8
Jennifer Valentino-DeVries et al, Websites Vary Prices, Deals Based on Users’
Information, Wall Street J. (Dec. 24, 2012).9 Online advertising systems can enable
discriminatory targeting that directly blocks equal opportunity, see Julia Angwin
and Terry Parris Jr., Facebook Lets Advertisers Exclude Users by Race, ProPublica
(Oct. 28, 2016),10 as well as entrench disparate impacts into their ad delivery
algorithms. See Louise Matsakis, Facebook’s Ad System Might Be Hard-Coded for
Discrimination, WIRED (April 6, 2019);11 Tracy Jan and Elizabeth Dwoskin,
HUD is reviewing Twitter’s and Google’s ad practices as part of housing
discrimination probe, Wash. Post (March 28, 2019).12 Online travel companies,
like their offline counterparts, can engage in racial discrimination. See Kristen
https://www.propublica.org/article/breaking-the-black-box-whenalgorithms-decide-what-you-pay.
7

Available at
https://obamawhitehouse.archives.gov/sites/default/files/whitehouse_files/docs/Big
_Data_Report_Nonembargo_v2.pdf.
8

9

https://www.wsj.com/articles/SB1000142412788732377720457818939181388153
4.
https://www.propublica.org/article/facebook-lets-advertisers-excludeusers-by-race.
10

11

https://www.wired.com/story/facebooks-ad-system-discrimination/.

https://www.washingtonpost.com/business/2019/03/28/hud-chargesfacebook-with-housing-discrimination/.
12

- 11 -

(Page 20 of Total)

App.059

Clarke, Does Airbnb Enable Racism?, N.Y. Times (Aug. 23, 2016);13 Elaine
Glusac, As Airbnb Grows, So Do Claims of Discrimination, N.Y. Times (June 21,
2016).14 “[B]oth online and face-to-face lenders charge higher interest rates to
African American and Latino borrowers.” Laura Counts, Minority homebuyers
face widespread statistical lending discrimination, study finds, Berkeley Haas Sch.
of Bus. (Nov. 13, 2018).15 The “cutting edge of the insurance industry” is using
A.I. to profile consumers, but “artificial intelligence is known to reproduce biases
that aren’t explicitly coded into it.” Sarah Jeong, Insurers Want to Know How
Many Steps You Took Today, N.Y. Times (April 10, 2019);16 see also Justin Volz,
Health Insurers Are Vacuuming Up Details About You – And It Could Raise Your
Rates, ProPublica (July 17, 2018) (insurers use race and marital status data).17
Online home security services often amplify racial profiling. See Caroline Haskins,
Amazon’s Home Security Company Is Turning Everyone Into Cops, Motherboard

https://www.nytimes.com/2016/08/23/opinion/how-airbnb-can-fightracial-discrimination.html.
13

https://www.nytimes.com/2016/06/26/travel/airbnb-discriminationlawsuit.html.
14

https://newsroom.haas.berkeley.edu/minority-homebuyers-facewidespread-statistical-lending-discrimination-study-finds/.
15

16

https://www.nytimes.com/2019/04/10/opinion/insurance-ai.html.

https://www.propublica.org/article/health-insurers-are-vacuuming-updetails-about-you-and-it-could-raise-your-rates.
17

- 12 -

(Page 21 of Total)

App.060

(Feb. 7, 2019) (posts on the app “disproportionately depict people of color, and
descriptions often use racist language or make racist assumptions about the people
shown”).18 And businesses often fail to make their websites and apps accessible to
people with disabilities. See, e.g., Farmer v. Sweetgreen, Inc., No. 1:16-cv-02103
(S.D.N.Y. 2016) (Defendant agreed in settlement to rework website and app that
were not accessible to people with visual impairments); Stanley v. Barbri, Inc., No.
3:16-cv-01113 (N.D. Tex. 2016) (Barbri failed to offer accessible online test prep
materials); Am. Council of the Blind v. U.S. Gen. Servs. Admin., No. 1:14-cv-00671
(D.D.C. 2014) (GSA award management website inaccessible).
In addition to direct discrimination, African Americans, other people of
color, women, LGBTQ individuals, religious minorities, immigrants, people with
disabilities, and other marginalized communities are also frequent targets of thirdparty threats, intimidation, and harassment online. These hateful acts interfere with
their equal enjoyment of online services, chill their speech and civic engagement,
and cause serious harm. The use of communications technology to subjugate,
exclude, or silence protected classes is not new. See, e.g., Fannie Lou Hamer,
Testimony before the Credentials Committee, Democratic National Convention

https://www.vice.com/en_us/article/qvyvzd/amazons-home-securitycompany-is-turning-everyone-into-cops.
18

- 13 -

(Page 22 of Total)

App.061

(Aug. 22, 1964) (“Is this America . . . where we have to sleep with our telephones
off the hooks because our lives be threatened daily, because we want to live as
decent human beings, in America?”).19 A study by the Pew Research Center of
online harassment found that 41% of Americans have been personally subjected to
harassing behavior online, including nearly one-in-five Americans who were
targeted for physical threats, sustained harassment, sexual harassment, or stalking,
and 66% have witnessed these behaviors directed at others. Maeve Duggan, Online
Harassment 2017, Pew Research Center, at 1 (July 11, 2017).20 Marginalized
groups are more likely to be targeted based on their protected characteristics. 25%
of African Americans and 10% of Latinos report being targeted for online
harassment on the basis of their race or ethnicity, compared with 3% of whites.
Maeve Duggan, 1 in 4 black Americans have faced online harassment because of
their race or ethnicity, Pew Research Center (July 25, 2017).21 One third of U.S.
women have experienced online abuse or harassment and the majority of the
perpetrators were complete strangers. Toxic Twitter, Amnesty Int’l, Chp. 3 (March

19

http://americanradioworks.publicradio.org/features/sayitplain/flhamer.html.
20

https://www.pewinternet.org/2017/07/11/online-harassment-2017/.

https://www.pewresearch.org/fact-tank/2017/07/25/1-in-4-blackamericans-have-faced-online-harassment-because-of-their-race-or-ethnicity/.
21

- 14 -

(Page 23 of Total)

App.062

2018).22 Online intimidation often causes serious injuries including emotional
trauma, reputational harm, interpersonal and professional harms, and financial loss.
Online Harassment 2017 at 2. It also causes silencing and withdrawal: 27% of
Americans have self-censored after witnessing online harassment and 13% have
quit a platform altogether. Id. at 1. 81% of American women who experience
online harassment change the way they use social media; 35% said they stopped
posting content expressing their opinions on certain issues. Toxic Twitter, Chp. 5.23
The DCHRA is designed to protect individuals experiencing direct and
indirect discrimination in public accommodations – including denials of service,
discriminatory pricing, and online harassment that interferes with the equal
enjoyment of public accommodations. Online threats, intimidation, and harassment
can violate the DCHRA. D.C. Code §§ 2-1402.31, 2-1402.61. In Dumpson v. Ade,
white supremacists targeted the plaintiff—the first African American woman
elected student body president of American University—for a real-world hate
crime and subsequent online harassment and threats. 2019 WL 3767171 (D.D.C.
Aug. 9, 2019). The District Court held neo-Nazi Andrew Anglin violated the

https://www.amnesty.org/en/latest/research/2018/03/online-violenceagainst-women-chapter-3.
22

https://www.amnesty.org/en/latest/research/2018/03/online-violenceagainst-women-chapter-5.
23

- 15 -

(Page 24 of Total)

App.063

DCHRA when he used his white supremacist website, The Daily Stormer, to incite
his followers to harass and threaten the plaintiff on social media. The court held the
online harassment violated the DCHRA because it interfered with plaintiff’s equal
enjoyment of American University, a place of public accommodation. Id.
II.

THE DCHRA’S PUBLIC ACCOMMODATIONS DEFINITION DOES
NOT DISTINGUISH BETWEEN ONLINE AND OFFLINE
ENTITIES; TO HOLD OTHERWISE WOULD YIELD
DISCRIMINATORY OUTCOMES AND GUT THE DISTRICT’S
PRIMARY CIVIL RIGHTS LAW.
The DCHRA is a broad remedial statute that protects the civil rights of

District residents. The meaning of the DCHRA’s public accommodations
provisions must be interpreted with the context of the statute as a whole and the
D.C. Council’s intent in passing the DCHRA. When interpreting a District of
Columbia statute, “[c]ourts must not ‘make a fortress out of the dictionary,’ which
is to say that ‘even where the words of a statute have ‘superficial clarity,’ a review
of the legislative history or an in-depth consideration of alternative constructions
that could be ascribed to statutory language may reveal ambiguities that the court
must resolve.” Expedia, Inc. v. Dist. of Columbia, 120 A.3d 623, 631 (D.C. 2015)
(citations omitted) (holding that D.C. sales tax applied to online travel companies).
The D.C. Court of Appeals has consistently held that the DCHRA is “a
remedial civil rights statute that must be generously construed.” Lively v. Flexible
- 16 -

(Page 25 of Total)

App.064

Packaging Ass’n, 830 A.2d 874, 887 (D.C. 2003) (en banc) (citation omitted);
accord Blodgett v. Univ. Club, 930 A.2d 210, 218 (D.C. 2007). The Act is a
“powerful, flexible, and far-reaching prohibition against discrimination of many
kinds.” Exec. Sandwich Shoppe, 749 A.2d at 732. “The right to equal opportunity
without discrimination based on race or other such invidious ground is … a
warrant for the here and now, and not merely a hope of future enjoyment of some
formalistic constitutional or statutory promise.” Harris v. Dist. of Columbia
Comm’n on Human Rights, 562 A.2d 625, 626 (D.C. 1989) (citations omitted).
A.

The Act does not exempt online entities.

Affirming the District Court’s decision would be contrary to the clear intent
of the Council and the plain text of the statute. Nowhere in the statutory definition
of “place of public accommodation” is there any language that the statute provides
an exception to online businesses or is limited to physical facilities. D.C. Code § 21401.02(24).24 To the contrary, the definition is incredibly broad and inclusive. It

“‘Place of public accommodation’ means all places included in the
meaning of such terms as inns, taverns, road houses, hotels, motels, whether
conducted for the entertainment of transient guests or for the accommodation of
those seeking health, recreation or rest; restaurants or eating houses, or any place
where food is sold for consumption on the premises; buffets, saloons, barrooms, or
any store, park or enclosure where spirituous or malt liquors are sold; ice cream
parlors, confectioneries, soda fountains and all stores where ice cream, ice and fruit
preparation or their derivatives, or where beverages of any kind are retailed for
consumption on the premises; wholesale and retail stores, and establishments
- 17 24

(Page 26 of Total)

App.065

begins by including “all places included in the meaning of such terms as . . .” Id.
“The term ‘all’ is unambiguous in its scope and covers the entirety of rights with
no limitation whatsoever.” Cherokee Nation v. Nash, 267 F. Supp. 3d 86, 116
(D.D.C. 2017). The Act then provides an extensive list of categories, including a
number that often interface with the public via the Internet: banks and “all other
financial institutions;” credit bureaus; insurance companies; a wide variety of
entertainment venues, including movie theaters; travel agencies and tour advisory
dealing with goods or services of any kind, including, but not limited to, the credit
facilities thereof; banks, savings and loan associations, establishments of mortgage
bankers and brokers, all other financial institutions, and credit information bureaus;
insurance companies and establishments of insurance policy brokers; dispensaries,
clinics, hospitals, bath-houses, swimming pools, laundries and all other cleaning
establishments; barber shops, beauty parlors, theaters, motion picture houses,
airdromes, roof gardens, music halls, race courses, skating rinks, amusement and
recreation parks, trailer camps, resort camps, fairs, bowling alleys, golf courses,
gymnasiums, shooting galleries, billiards and pool parlors; garages, all public
conveyances operated on land or water or in the air, as well as the stations and
terminals thereof; travel or tour advisory services, agencies or bureaus; public halls
and public elevators of buildings and structures, occupied by 2 or more tenants, or
by the owner and 1 or more tenants. Such term shall not include any institution,
club, or place of accommodation which is in its nature distinctly private except,
that any such institution, club or place of accommodation shall be subject to the
provisions of § 2-1402.67. A place of accommodation, institution, or club shall not
be considered in its nature distinctly private if the place of accommodation,
institution, or club:
(A) Has 350 or more members;
(B) Serves meals on a regular basis; and
(C) Regularly receives payment for dues, fees, use of space, facilities, services,
meals, or beverages directly or indirectly from or on behalf of nonmembers for the
furtherance of trade or business.” D.C. Code § 2-1401.02(24).
- 18 -

(Page 27 of Total)

App.066

services; wholesale and retail stores, and “establishments dealing with goods or
services of any kind.” D.C. Code § 2-1401.02(24). “Moreover, the word ‘any’ …
‘read naturally … has an expansive meaning, that is, ‘one or some indiscriminately
of whatever kind.’” Mazza v. Hollis, 947 A.2d 1177, 1180 (D.C. 2008) (quoting Ali
v. Fed. Bur. of Prisons, 552 U.S. 214, 219-20 (2008)). The “of any kind” verbiage
means the existence of an “actual physical location” is of little significance in
determining the DCHRA’s scope. James v. Team Washington, Inc., 1997 WL
633323, at *2 (D.D.C. Oct. 7, 1997).
Businesses that offer goods or services to the general public over the Internet
are a subset of “all places included in the meaning of such terms as . . .
establishments dealing with goods or services of any kind.” Id. (emphasis added).
This clause must be “generously construed.” Lively, 830 A.2d at 887; Blodgett, 930
A.2d at 218; accord Exec. Sandwich Shoppe, 749 A.2d at 732. Whether goods or
services are offered on a website, Internet-enabled app, or brick-and-mortar
storefront makes no difference under the DCHRA; the plain text is all-inclusive.
The D.C. Court of Appeals has clarified that businesses that do not
principally operate from physical locations within the District may still be subject
to the DCHRA so long as they are serving D.C. residents and otherwise satisfy the
statutory definition. See Shoppers Food Warehouse v. Moreno, 746 A.2d 320 (D.C.
- 19 -

(Page 28 of Total)

App.067

2000) (en banc) (D.C. personal jurisdiction extends to the constitutional limit;
Maryland corporation with no D.C. stores was still subject to D.C. law when it
purposefully solicited D.C. customers through local advertising); Nat’l Org. for
Women v. Mutual of Omaha Ins. Co., Inc., 531 A.2d 274, 276-77 (D.C. 1987)
(Nebraska-based insurer serving District residents is subject to DCHRA); James,
1997 WL 633323 at *2. In James, a Delaware-incorporated company operating out
of Virginia was an “establishment dealing with goods or services of any kind”
when it offered pizza delivery to D.C. residents despite not having any physical
presence in the District. Id. The DCHRA prohibits “the improper denial of the full
and equal enjoyment of the goods and services of a place of public
accommodation” and it does not matter whether “the challenged conduct take[s]
place in a particular physical structure.” Id. (emphasis in original).
The District Court’s legal analysis of the DCHRA was inadequate, which led
to its flawed finding. First, the trial court’s cursory analysis failed to account for
the voluminous binding precedent instructing that the DCHRA be “generously
construed” to effect its remedial purpose. Lively, 830 A.2d at 887; Blodgett, 930
A.2d at 218; accord Exec. Sandwich Shoppe, 749 A.2d at 732. Second, the court
disregarded the plain text of the statute by skipping over the “establishments
offering goods or services of any kind” clause. Third, the court flouted the
- 20 -

(Page 29 of Total)

App.068

fundamental purpose of the DCHRA, which is to prevent discrimination by
retailers, service providers, and other public-facing businesses such as Appellees.
Fourth, the court misinterpreted and stretched U.S. Jaycees beyond that decision’s
own bounds.
The District Court’s extension of U.S. Jaycees v. Bloomfield, 434 A.2d 1379
(D.C. 1981) to the instant case was erroneous because it does not stand for the
broad principle that the DCHRA excludes online places of public accommodation.
The U.S. Jaycees decision was narrow and particularized to a specific entity; it
held that conducting community service activities and public events (such as a
cherry blossom festival, soap box derby, and public service awards ceremony)
were insufficient to transform this private membership-based club into a public
accommodation. 434 A.2d at 1381-82. In distinguishing the Jaycees organization
from a little league baseball club (a public accommodation), the Court focused on
the entities’ control over their places of operation and whether they operate from
“any particular place.” Id., at 1381. “[A]lthough Jaycees sponsors civic activities at
various public places . . . it does not control these areas to the same extent as does
the Little League.” Id., at 1382. Unlike a private club temporarily renting a hotel or
restaurant for one event, most online businesses, including Appellees, (1) are

- 21 -

(Page 30 of Total)

App.069

distinctly public, not private, and (2) continuously operate from and control fixed
“places:” their websites and apps.25
The District Court in this case failed to do the exact thing the U.S. Jaycees
and Samuels courts did—examine each entity to determine if it falls within the
broad definition of a public accommodation in the DCHRA. A case about a private
membership-based club from 1981—before the Internet existed—is simply
inapposite to deciding a case about online commerce in 2019. There are scores of
online companies serving D.C. residents with myriad business models and
practices; this one case cannot fairly account for them all. To hang the Act’s
applicability to the modern “economic, cultural, and intellectual life of the
District,” D.C. Code § 2-1402.01, on an anachronistic analogy to U.S. Jaycees fails
to follow the instruction that the Act be “powerful, flexible, and far-reaching,”
Exec. Sandwich Shoppe, 749 A.2d at 732, and a “warrant for the here and now.”
Harris, 562 A.2d at 626.

Samuels v. Rayford, cited in passing by the District Court, is also inapt.
1995 WL 376939 (D.D.C. Apr. 10, 1995). The Samuels court held that while a
hospital is a place of public accommodation when dealing with patients and
visitors, it is not a place of public accommodation with regard to a doctor seeking
privileges to work at the hospital, because the doctor-hospital relationship is
distinctly private. Id. at *7-8. This unremarkable conclusion has no relevance for
the instant case; Appellees all provide consumer goods and services to the general
public.
25

- 22 -

(Page 31 of Total)

App.070

Moreover, if a physical location is a requirement of the DCHRA, online
businesses do operate from physical facilities.26 The Internet exists in the physical
world and is not an ethereal construct. All online activity—including the
commercial offering of goods and services through a website or app—occurs on
computers in physical locations. See, e.g., United States v. Microsoft, 138 S. Ct.
1186, 1187 (2018) (addressing territoriality concerns for a search warrant for
emails stored by a U.S. company in an overseas data center). Online activity
therefore does occur at a physical “place” if one is required. Delivering goods or
services through the Internet is no different from delivering goods or services by
mail, phone, or courier—at the other end of the communication there is an
establishment rendering the service to D.C. residents.
An online service provider discriminating in its offer of services is no
different from an insurer making discriminatory coverage decisions in its out-ofstate headquarters. See Mutual of Omaha, 531 A.2d at 276-77. An e-commerce
vendor discriminating in its sale of goods is no different from an out-of-state
pizzeria discriminating in its delivery of pizza. See James, 1997 WL 633323. An
Amici maintain that the text, history, and purpose of the DCHRA make
clear that there is no physicality requirement; all that matters is whether a business
is offering a covered good or service to the public. Amici make this argument in
the alternative, however, to show that a physicality requirement makes no
difference to the ultimate outcome in this case.
26

- 23 -

(Page 32 of Total)

App.071

online business that purposefully solicits D.C. customers for its goods or
services—such as through targeted advertising—or otherwise engages in
commerce in the District must abide by D.C. law, including the DCHRA. See
Shoppers Food Warehouse, 746 A.2d 320.27
B.

Appellees are places of public accommodation with regard to the
online goods or services they offer to District residents.

When Appellees Google, Facebook, Twitter, and Apple offer consumer
goods or services to District residents, they are places of public accommodation
under the DCHRA. Google offers numerous goods and services, including
consumer electronics and computers; software; YouTube; and an online
marketplace for media, video games, and third-party software. Facebook offers
social media and entertainment services through websites and apps for its
namesake platform, Instagram, Messenger, and WhatsApp, as well as various
online marketplace services.28 Twitter offers social media services. Google,

Appellees are headquartered out-of-state, but if an online business was
located within the District of Columbia, the analysis becomes even simpler. This is
another reason why the location of a facility should not confound the question of
whether an online business could be a public accommodation.
27

See, e.g., Marketplace, Facebook, www.facebook.com/marketplace (last
visited Oct. 11, 2019) (“Buy and sell local goods, or shop new items shipped from
stores. Use your Facebook account to find what you want and sell what you
don’t.”).
28

- 24 -

(Page 33 of Total)

App.072

Facebook, and Twitter allow any user to buy online advertisements. Apple sells
consumer electronics and computers, as well as myriad software and online
services to use with such hardware; it also operates an online marketplace where
anyone can buy or sell apps and other media. Notably, Apple also has two physical
stores in the District at 1229 Wisconsin Avenue NW and 801 K Street NW.
Beyond the catchall of “dealing with goods or services of any kind,” many
of Appellees’ services either match or closely mirror other categories of public
accommodations as well, including banking and credit,29 travel and tour advisory

Google and Apple offer online payment services so their users can send
and receive money and make purchases at stores. Google Pay,
pay.google.com/about (last visited Sept. 20, 2019); Apple Pay,
www.apple.com/apple-pay (last visited Sept. 20, 2019). Google and Apple also
offer financing options for devices they sell in their stores, either directly or in
partnership with banks. See Terms, Google Fi,
https://fi.google.com/about/tos/#device-plan-terms (last visited Oct. 11, 2019)
(“Pay Monthly Device Plan Terms and Conditions”); Two great ways to buy.
Choose the one that’s right for you., Apple, https://www.apple.com/ushed/shop/browse/financing (last visited Oct. 11, 2019). Apple also offers its own
credit card. Id.
29

- 25 -

(Page 34 of Total)

App.073

services,30 insurance,31 food delivery,32 and entertainment.33 In other words, the
goods and services offered by Appellees are the exact types of public

Google Travel is an online portal for buying plane tickets, booking hotel
rooms, and planning trips. Want the best prices for your trip? Google can help.,
Google (Aug. 8, 2019) https://www.blog.google/products/flights-hotels/bestprices-for-your-trips/. Both Google Maps and Facebook enable users to hail a ride
from Uber or Lyft. Ride with Lyft and Google Maps, Lyft Blog (Sep. 8, 2016)
https://blog.lyft.com/posts/lyft-and-google-maps; Say Hello to Uber On
Messenger, Uber Newsroom (Dec. 17, 2015)
https://www.uber.com/newsroom/messengerlaunch. Google Maps, Apple Maps,
and Facebook provide recommendations for nearby restaurants, local events,
and/or other activities happening near your location. Explore and Eat Your Way
Around Town with Google Maps, The Keyword (May 8, 2019),
https://www.blog.google/products/maps/explore-around-town-google-maps; Apple
Maps Connect, https://mapsconnect.apple.com/ui/help (last visited October 10,
2019); Updating Pages to Make it Easier to Interact with Customers, Facebook
Business (Oct. 19, 2016), https://www.facebook.com/business/news/page-call-toaction-updates.
30

Google and Apple offer insurance policies for the devices they sell in their
stores. AppleCare+, https://www.apple.com/legal/salessupport/applecare/applecareplus/ (last visited October 10, 2019); Google Store
Preferred Care, https://store.google.com/us/magazine/preferred_care (last visited
October 10, 2019).
31

Google and Facebook offer the ability for users to purchase meals for
delivery from local restaurants. What’s for Dinner? Order it with Google, The
Keyword (May 23, 2019) https://www.blog.google/products/assistant/order-yourfavorite-food-with-google/; Facebook Now Lets You Order Food Without Leaving
Facebook, The Verge (Oct. 13, 2017)
https://www.theverge.com/2017/10/13/16468610/facebook-food-ordering-newfeature/.
32

Google and Apple sell music, video, and video games through their online
stores. Google Play, https://play.google.com/store (last visited Oct. 11, 2019);
Apple Music, https://www.apple.com/apple-music/ (last visited Oct. 10, 2019);
App Store, Apple https://www.apple.com/ios/app-store/ (last visited Oct. 11, 2019).
- 26 33

(Page 35 of Total)

App.074

accommodations to which the D.C. Council intended the DCHRA to apply.
Exempting these exceedingly popular businesses from a broad, remedial civil
rights statute would create absurd results and hinder equal opportunity, especially
as online commerce continues to grow. See D.C. Code § 2-1402.01.
C.

Exempting online businesses would create absurd results and
disadvantage District-based brick-and-mortar businesses against
online competitors.

If online businesses are not places of public accommodations under the
DCHRA, it would create an incompatible dichotomy between brick-and-mortar
covered businesses and their online competitors or counterparts—especially for
D.C.-based online businesses. An online retailer with an Etsy shop operating out of
the District, such as Sneekis, which sells D.C. themed t-shirts, could discriminate
against a buyer while a brick-and-mortar company offering the exact same goods
would be prohibited from discrimination.34 Online restaurants such as Galley,
which offers locally-prepared chef-made meals to District residents, would be
permitted to refuse to deliver to African Americans or be inaccessible to blind

Google’s YouTube is equivalent to a movie theater, in that it is a communal place
to consume video entertainment and interact with others. Facebook and Twitter’s
social media platforms are similarly centers for communal entertainment, akin to
digital public squares, as well as services for consuming music and video.
Sneekis, Etsy, https://www.etsy.com/shop/Sneekis?ref=simple-shopheader-name&listing _id=572225854 (Last visited Sept. 30, 2019).
34

- 27 -

(Page 36 of Total)

App.075

users, while a brick-and-mortar restaurant must, rightfully, serve patrons of all
races and be accessible.35 Peapod, an online grocery delivery service operating in
the District, could refuse to serve the elderly while its parent company, Giant,
could not discriminate in its store.36 The D.C. Credit Union, which offers online
banking and a mobile platform, could charge different fees for customers using
online banking based on the customer’s sexual orientation while of course the
DCHRA would prohibit such discrimination at a storefront bank.37 An online travel
agency or insurer could refuse service or price gouge religious minorities or
immigrants, while storefront travel agencies or insurers could not. And misogynists
could sexually harass and threaten a woman patronizing an online business,
whereas such conduct in a bar or physical store would violate the Act. These
dichotomies are illogical. Holding that the DCHRA does not apply online would
allow discrimination to flourish and cause a chilling effect on the District’s
economic, cultural, and intellectual life.

35

2019).
36

Galley, https://www.galleyfoods.com/welcome (Last visited Sept. 30,
Peapod, https://www.peapod.com/ (Last visited October 14, 2019).

DC Credit Union, https://www.dccreditunion.coop/personal/onlinebanking/ (Last visited Sept. 30, 2019).
37

- 28 -

(Page 37 of Total)

App.076

III.

IF THE COURT IS UNCERTAIN AS TO THE MEANING OF THE
DCHRA, IT MUST CERTIFY THE LEGAL QUESTION TO THE
D.C. COURT OF APPEALS.
If this federal Court is uncertain about whether the DCHRA’s public

accommodations provisions create a special exception for online commerce, it
should certify the issue to the D.C. Court of Appeals so that the local high court
can interpret the District’s own law. D.C. Code § 11–723. “A federal court sitting
in diversity should normally decline to speculate on such a question of local
doctrine.” Delahanty v. Hinckley, 845 F.2d 1069, 1070 (D.C. Cir. 1988). The Court
should certify legal questions to the D.C. Court of Appeals if the Court concludes
that District of Columbia law is “genuinely uncertain,” with respect to a dispositive
question, Tidler v. Eli Lilly & Co., 851 F.2d 418, 426 (D.C. Cir. 1988), and the
case concerns “a matter of public importance, in which the District of Columbia
has a substantial interest.” Metz v. BAE Sys. Tech. Sols. & Servs. Inc., 774 F.3d 18,
24 (D.C. Cir. 2014) (citation omitted). For the reasons discussed at length above,
this case is one of extreme public importance; the D.C. Council stated that the
elimination of discrimination is the District’s “highest priority” and the Act was
one of “our most important laws.” Report of Bill 2-179, at 1-3. The District of
Columbia has a substantial interest in the interpretation of the DCHRA to preserve
the intent of the Act and safeguard the civil rights of the District’s residents.
- 29 -

(Page 38 of Total)

App.077

Moreover, to the extent the Court has concerns about the applicability of U.S.
Jaycees, the D.C. Court of Appeals is better situated to clarify the meaning of that
case.
IV.

CONCLUSION
For the reasons discussed above, the Court should either hold that the

DCHRA does not exempt online businesses offering goods or services to D.C.
residents, such as Appellees, from providing public accommodations free from
discrimination, or certify the legal question to the D.C. Court of Appeals.

Respectfully Submitted,
/s/ David Brody
Jon Greenbaum (DC Bar # 489887)
David Brody (DC Cir. Bar # 61933)
LAWYERS’ COMMITTEE FOR CIVIL
RIGHTS UNDER LAW
1500 K Street N.W., Suite 900
Washington, D.C. 20005
(202) 662-8300
jgreenbaum@lawyerscommittee.org
dbrody@lawyerscommittee.org

Kaitlin Banner (DC Bar # 1000436)
Margaret Hart (DC Bar # 1030528)
WASHINGTON LAWYERS’ COMMITTEE
FOR CIVIL RIGHTS AND URBAN
AFFAIRS
700 14th Street, NW, Suite 400
Washington, DC 20005
(202) 319-1000
kaitlin_banner@washlaw.org
margaret_hart@washlaw.org

October 16, 2019

- 30 -

(Page 39 of Total)

App.078

RULE 32(g) CERTIFICATE OF COMPLIANCE
This brief complies with the type-volume limitation of the Federal Rules of
Appellate Procedure. It contains 6469 words.

/s/ David Brody
David Brody
Oct. 16, 2019

-1-

(Page 40 of Total)

App.079

CERTIFICATE OF SERVICE
I hereby certify that on October 15, 2019, I electronically transmitted the
foregoing document to the Clerk’s Office using the CM/ECF System for filing and
that service to the participants in this appeal, all of whom are registered CM/ECF
users, will be accomplished by the appellate CM/ECF System.
/s/ David Brody
David Brody
Oct. 16, 2019

-1-

(Page 41 of Total)

App.080

SCHEDULED FOR ORAL ARGUMENT ON APRIL 15, 2020
No. 19-7030
IN THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
FREEDOM WATCH, INC., et al.,
APPELLANTS,
V.

GOOGLE INC., et al.,
APPELLEES.
ON APPEAL FROM A JUDGMENT OF THE
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF COLUMBIA
FINAL BRIEF FOR THE DISTRICT OF COLUMBIA
AS AMICUS CURIAE IN SUPPORT OF NEITHER PARTY
KARL A. RACINE
Attorney General for the District of Columbia
LOREN L. ALIKHAN
Solicitor General
CAROLINE S. VAN ZILE
Principal Deputy Solicitor General
GRAHAM E. PHILLIPS
Assistant Attorney General
Office of the Solicitor General
Office of the Attorney General
441 4th Street, NW, Suite 630 South
Washington, D.C. 20001
(202) 724-6647
graham.phillips@dc.gov

(Page 42 of Total)

App.081

TABLE OF CONTENTS
STATEMENT OF INTEREST OF AMICUS CURIAE .............................................1
BACKGROUND .......................................................................................................1
SUMMARY OF ARGUMENT ..................................................................................2
ARGUMENT .............................................................................................................4
I.

A Place Of Public Accommodation Need Not Be A Physical
Location .................................................................................................4
A.

The text of the DCHRA is not limited to physical
locations ......................................................................................4
1.

The statutory text encompassed more than physical
locations in 1977 ...............................................................6

2.

The statutory text encompasses internet-based
entities and digital platforms today ..................................9

B.

Limiting the DCHRA’s reach to physical locations
contradicts its purpose...............................................................12

C.

The Office of Human Rights has rejected a physical
location requirement .................................................................14

D.

United States Jaycees v. Bloomfield is neither controlling
nor persuasive ...........................................................................16

E.

If in doubt, this Court should certify the question to the
D.C. Court of Appeals ...............................................................22

CONCLUSION ........................................................................................................25
ADDENDUM

(Page 43 of Total)

App.082

TABLE OF AUTHORITIES*
Cases
Blair-Bey v. Quick, 151 F.3d 1036 (D.C. Cir. 1998) ................................................16
Blodgett v. Univ. Club, 930 A.2d 210 (D.C. 2007) ....................................................5
*Boy Scouts of Am. v. D.C. Comm’n on Human Rights,
809 A.2d 1192 (2002) ...................................................................... 16, 19, 20, 22
Brown v. D.C. Dep’t of Emp’t Servs., 83 A.3d 739 (D.C. 2014) ....................... 14, 16
Burks v. Poppy Constr. Co., 370 P.2d 313 (Cal. 1962) ..............................................6
Christiansburg Garment Co. v. EEOC, 434 U.S. 412 (1978)..................................21
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520 (1993) ............................................................................................21
Companhia Brasileira Carbureto De Calcio v. Applied Indus. Materials
Corp., 35 A.3d 1127 (D.C. 2012) .......................................................................23
Companhia Brasileira Carbureto de Calicio v. Applied Indus. Materials
Corp., 640 F.3d 369 (D.C. Cir. 2011) .......................................................... 23, 24
Council of Alternative Political Parties v. Hooks, 179 F.3d 64 (3d Cir. 1999) .......18
Daly v. D.C. Dep’t of Emp’t Servs., 121 A.3d 1257 (D.C. 2015) .............................21
Esteños v. PAHO/WHO Fed. Credit Union, 952 A.2d 878 (D.C. 2008) ....................4
Exec. Sandwich Shoppe, Inc. v. Carr Realty Corp.,
749 A.2d 724 (D.C. 2000).....................................................................................5
George Wash. Univ. v. D.C. Bd. of Zoning Adjustment,
831 A.2d 921 (D.C. 2003).....................................................................................4

*

Authorities upon which we chiefly rely are marked with asterisks.
ii

(Page 44 of Total)

App.083

Jackson v. D.C. Bd. of Elections & Ethics,
999 A.2d 89 (D.C. 2010) (en banc) ................................................................5, 10
Johnson v. Capital City Mortg. Corp., 723 A.2d 852 (D.C. 1999)..........................18
K Mart Corp. v. Cartier, Inc., 486 U.S. 281 (1988) ...................................................9
Lively v. Flexible Packaging Ass’n, 830 A.2d 874 (D.C. 2003) ................................4
McCutcheon v. Fed. Election Comm’n, 572 U.S. 185 (2014) .................................21
Nat’l Bellas Hess, Inc. v. Dep’t of Revenue of Ill., 386 U.S. 753 (1967) ...................7
Nat’l Cable & Telecomms. Ass’n v. Brand X Internet Servs.,
545 U.S. 967 (2005) ............................................................................................22
Owens v. Republic of Sudan, 864 F.3d 751 (D.C. Cir. 2017)............................ 23, 24
Packingham v. North Carolina, 137 S. Ct. 1730 (2017).......................................... 11
Quarles v. United States, 139 S. Ct. 1872 (2019) ....................................................13
Quinnipiac Council, Boy Scouts of Am. v. Comm’n on Human Rights &
Opportunities, 528 A.2d 352 (Conn. 1987) ........................................................15
Republic of Sudan v. Owens, 194 A.3d 38 (D.C. 2018) ...........................................23
Rivera v. Lew, 99 A.3d 269 (D.C. 2014) ..................................................................23
Rivera v. Lew, No. 13-5222 (D.C. Cir. Jan. 30, 2014) .............................................23
Samuels v. Rayford, No. 91-CV-365,
1995 WL 376939 (D.D.C. Apr. 10, 1995) ......................................................8, 17
Schuchart v. La Taberna Del Alabardero, Inc., 365 F.3d 33 (D.C. Cir. 2004) ........24
South Dakota v. Wayfair, Inc., 138 S. Ct. 2080 (2018) ............................................10
Sturdza v. United Arab Emirates, 281 F.3d 1287 (D.C. Cir. 2002) .........................25
Taylor v. FDIC, 132 F.3d 753 (D.C. Cir. 1997) .......................................................18
Timus v. D.C. Dep’t of Human Rights, 633 A.2d 751 (D.C. 1993) (en banc) ..........14
iii
(Page 45 of Total)

App.084

U.S. Power Squadrons v. State Human Rights Appeal Bd.,
452 N.E.2d 1199 (N.Y. 1983) .........................................................................7, 15
*United States Jaycees v. Bloomfield,
434 A.2d 1379 (D.C. 1981)........................................ 2, 16, 17, 18, 19, 20, 21, 22
United States v. Godoy, 706 F.3d 493 (D.C. Cir. 2013) .............................................5
Univ. of Tex. v. Camenisch, 451 U.S. 390 (1981) ............................................. 17, 18
Welsh v. Boy Scouts of Am., 993 F.2d 1267 (7th Cir. 1993) .............................. 14, 15
Wis. Cent. Ltd. v. United States, 138 S. Ct. 2067 (2018) ...........................................9
Statutes
D.C. Code § 11-723 .................................................................................................23
D.C. Code § 2-1401.01 ............................................................................... 1, 3, 4, 12
D.C. Code § 2-1401.02 ............................................................................... 2, 5, 6, 10
D.C. Code § 2-1402.01 ............................................................................................12
D.C. Code § 2-1402.31 ........................................................................................2, 13
42 U.S.C. § 2000a ....................................................................................................15
Other Authorities
Br. for Technology Companies as Amici Curiae, United States v. Microsoft
Corp., 138 S. Ct. 1186 (2018) (No. 17-2)...........................................................10
Br. for the United States as Amicus Curiae, South Dakota v. Wayfair, 138 S.
Ct. 2080 (2018) (No. 17-494) .............................................................................11
Anthony DePalma, Mexico City Journal: A Glittering Vision of Suburbia
Supplants a Dump, N.Y. Times, June 23, 1993 ....................................................8
Bryan A. Garner et al., The Law of Judicial Precedent (2016) .................. 19, 21, 24

iv
(Page 46 of Total)

App.085

Scott Harris, The Pendulum Swings in Favor of Braude,
L.A. Times, Mar. 6, 1988 ......................................................................................8
Headquarters & Offices, Ally.com .......................................................................... 11
How It Works, SoFi.com ..........................................................................................11
N.R. Kleinfield, A.T.&T. Trying to Lift Morale, N.Y. Times, Apr. 14, 1979 .............8
Jay Loomis, Wachovia Banking on Selling Insurance, Winston-Salem
Journal, July 10, 1997 ...........................................................................................8
*Pool & Geller v. Boy Scouts of America, Nos. 93-030-(PA) & 93-031-(PA)
(D.C. Comm’n on Human Rights June 18, 2001) ................................. 14, 15, 20
Antonin Scalia & Bryan A. Garner, Reading Law: The Interpretation of
Legal Texts (2012)...........................................................................................9, 12

v
(Page 47 of Total)

App.086

STATEMENT OF INTEREST OF AMICUS CURIAE
Amicus curiae the District of Columbia files this brief under Federal Rule of
Appellate Procedure 29(a)(2) to address a single aspect of this case: the
interpretation of the term “place of public accommodation” under the District of
Columbia Human Rights Act (“DCHRA”), D.C. Code § 2-1401.01 et seq. The
District has a clear interest in the proper interpretation of this key provision of its
foremost antidiscrimination law. Although the final say in interpreting the DCHRA
lies with the D.C. Court of Appeals, absent further guidance from that tribunal this
Court’s interpretation will control in any case adjudicated in federal court in this
Circuit. The District therefore urges the Court to reject the district court’s flawed
reading of the statute.
BACKGROUND
Appellants Freedom Watch, Inc. and Laura Loomer (“Freedom Watch”) are
“conservative activists who allege that America’s major technology firms have
conspired to suppress their political views.” Op. 1 (JA 196). Freedom Watch filed
this suit against several of those firms, contending, among other things, that the
firms’ activities violate the DCHRA. It argued that the firms’ websites and digital
platforms are places of public accommodation under the DCHRA, and that the firms
have denied Freedom Watch “the full and equal enjoyment” of those websites’ and
platforms’ services because of its political affiliation or religion. Op. 10 (JA 205)

(Page 48 of Total)

App.087

(quoting D.C. Code § 2-1402.31(a)). The district court dismissed Freedom Watch’s
DCHRA claim on the theory that the firms’ websites and platforms were not places
of public accommodation under the statute. Op. 10-12 (JA 205-07). That was so,
according to the district court, because an “alleged place of public accommodation
must be a physical location.” Op. 11 (JA 206). In the district court’s view, this
“physical location” interpretation was “authoritatively” established by United States
Jaycees v. Bloomfield, 434 A.2d 1379 (D.C. 1981), and Freedom Watch’s arguments
were therefore unavailing. Op. 11-12 (JA 206-07).
SUMMARY OF ARGUMENT
The district court’s holding that a place of public accommodation must be a
physical location within the District was incorrect and should be reversed. The
DCHRA provides an expansive, nonexhaustive definition of “place of public
accommodation,” which must be generously construed in favor of greater protection
against discrimination. That definition includes several categories of entities—such
as “establishments dealing with goods or services of any kind,” “insurance
companies,” “financial institutions, and credit information bureaus”—that can
operate in the District without having any physical location here. D.C. Code
§ 2-1401.02(24). At the time of the DCHRA’s enactment in 1977, for instance, mailorder businesses that sold to District residents would have clearly been covered by

2
(Page 49 of Total)

App.088

the definition. And today, that definition easily encompasses many internet-based
businesses, such as Amazon.com and online banks that cater to District residents.
Any doubt about the definition of “place of public accommodation” is
resolved by looking to the statute’s purpose. That purpose includes giving every
District resident “an equal opportunity to participate fully in the economic, cultural
and intellectual life of the District.” Id. § 2-1402.01. Allowing the many businesses
that operate in the District without physical locations to discriminate at will would
substantially undermine this goal.
Principles of administrative deference also foreclose the district court’s
interpretation. The D.C. Court of Appeals applies the equivalent of Chevron
deference to District agencies’ reasonable interpretations of the statutes they
administer. In 2001, the D.C. Commission on Human Rights, the adjudicatory arm
of the D.C. Office of Human Rights, concluded that the Boy Scouts, despite not
being (or operating) a physical location in the District, was a place of public
accommodation.

Because the Commission’s rejection of a physical location

requirement was reasonable, that interpretation would bind the D.C. Court of
Appeals—and so should govern here too.
The district court’s constricted view of the statute rested entirely on its belief
that the D.C. Court of Appeals’ 1981 decision in Jaycees authoritatively established
a physical location requirement. But Jaycees—a preliminary ruling, reached without
3
(Page 50 of Total)

App.089

adequately adversarial briefing and superseded by the Commission’s 2001
decision—is neither controlling nor persuasive. And if this Court is left with serious
doubts on that score, it should certify this question to the D.C. Court of Appeals. 1
ARGUMENT
I.

A Place Of Public Accommodation Need Not Be A Physical Location.
A.

The text of the DCHRA is not limited to physical locations.

The goal of the DCHRA is “to secure an end in the District of Columbia to
discrimination for any reason other than that of individual merit.” D.C. Code
§ 2-1401.01. Given this “sweeping statement of intent,” the D.C. Court of Appeals
has stressed that courts “must read the words of the DCHRA liberally.” Esteños v.
PAHO/WHO Fed. Credit Union, 952 A.2d 878, 887 (D.C. 2008). “The Human
Rights Act is a broad remedial statute, and it is to be generously construed.” George
Wash. Univ. v. D.C. Bd. of Zoning Adjustment, 831 A.2d 921, 939 (D.C. 2003). This
principle of “generous construction” means that uncertainties about the DCHRA’s
scope should be resolved in favor of broader rather than narrower coverage. See,
e.g., Lively v. Flexible Packaging Ass’n, 830 A.2d 874, 887-90 (D.C. 2003) (en banc)
(adopting broader view of hostile work environment claims as “consistent with the
‘generous construction’ principle”); Exec. Sandwich Shoppe, Inc. v. Carr Realty

The District takes no position on the merits of Freedom Watch’s other claims,
or on whether Freedom Watch’s DCHRA claim fails for reasons other than those
addressed in this brief.

1

4
(Page 51 of Total)

App.090

Corp., 749 A.2d 724, 731-32 (D.C. 2000) (adopting broader interpretation of term
“any person”).

Generous construction ensures that the DCHRA remains the

“powerful, flexible, and far-reaching prohibition against discrimination of many
kinds” that the D.C. Council “undoubtedly intended [it] to be.” Jackson v. D.C. Bd.
of Elections & Ethics, 999 A.2d 89, 98 (D.C. 2010) (en banc) (quoting Exec.
Sandwich Shoppe, 749 A.2d at 732).
Consistent with its expansive overall sweep, the DCHRA “defines ‘place of
public accommodation’ broadly.” Blodgett v. Univ. Club, 930 A.2d 210, 218 n.5
(D.C. 2007). The term “means all places included in the meaning of such terms as
inns, taverns, road houses, hotels, motels,” and dozens of other examples, including
“wholesale and retail stores, and establishments dealing with goods or services of
any kind”; “banks” and “all other financial institutions”; “insurance companies”;
and “travel or tour advisory services, agencies or bureaus.”

D.C. Code

§ 2-1401.02(24) (reproduced in full in the addendum). The words “all places” and
“such terms as” show that the definition is capacious and the examples nonexhaustive. See United States v. Godoy, 706 F.3d 493, 495 (D.C. Cir. 2013) (“The
phrase ‘such as’ typically indicates that enumerated examples are not
comprehensive.”). The only express exclusion is for “any institution, club, or place
of accommodation that is distinctly private.” D.C. Code § 2-1401.02(24).

5
(Page 52 of Total)

App.091

Nothing in the DCHRA’s definition requires a “place of public
accommodation” to be a physical location in the District. To be sure, some of the
listed examples are necessarily physical locations—for instance, “swimming pools”
and “public halls and public elevators of buildings.” Id. But others are not. Indeed,
several of the listed terms naturally encompass commonplace businesses and entities
that operate in the District but are not tied to physical locations here. And contrary
to the firms’ suggestion, this was as true in 1977, when the DCHRA was enacted, as
it is today. See Appellees’ Reply to D.C.’s Opposition to Motion for Summary
Affirmance 4 (June 20, 2019) (“MSA Reply”).
1.

The statutory text encompassed more than physical locations in
1977.

Consider first “establishments dealing with goods or services of any kind.”
D.C. Code § 2-1401.02(24). An “establishment” need not be a physical location. As
the California Supreme Court held—15 years before the DCHRA’s enactment—in
construing California’s analogous civil rights statute, the word “establishment”
“includes not only a fixed location . . . but also a permanent ‘commercial force or
organization’ or ‘a permanent settled position (as in life or business).’ ” Burks v.
Poppy Constr. Co., 370 P.2d 313, 316 (Cal. 1962) (quoting dictionary definitions).
A company that sells its products to District residents through a mail-order catalog
is thus an “establishment[] dealing with goods . . . of any kind.” Mail-order retailing
was commonplace at the time of the DCHRA’s enactment, and many such retailers
6
(Page 53 of Total)

App.092

would have no physical storefront in the District. See, e.g., Nat’l Bellas Hess, Inc.
v. Dep’t of Revenue of Ill., 386 U.S. 753, 753-55 (1967) (describing “mail order
house” with no Illinois facilities).
It is likewise easy to conjure examples of “establishments dealing with . . .
services” that would have existed in 1977 and operated without physical locations,
such as locksmith, lawncare, housecleaning, and handyman businesses. Pointing to
precisely these types of businesses, the New York Court of Appeals unanimously
declined to read a physical location element into New York’s nearly identical
definition of “place of public accommodation.” U.S. Power Squadrons v. State
Human Rights Appeal Bd., 452 N.E.2d 1199, 1202-04 & n.1 (N.Y. 1983); see id. at
1204 (“Analytically, such establishments may discriminate by denying goods and
services without denying individuals access to any particular place, e.g., home
delivery service or services performed in the customer’s home and mail order
services.”).
The DCHRA’s definition of “place of public accommodation” also expressly
refers to “insurance companies,” “financial institutions, and credit information
bureaus.” In 1977, many such entities could—and predictably would—operate in
the District without having physical locations here. A Connecticut insurance
company could sell policies to District residents through door-to-door salesmen.
And a New York stock brokerage—or an Illinois credit reporting agency—could
7
(Page 54 of Total)

App.093

solicit District customers and manage their accounts by mail and phone. The
DCHRA’s express coverage of these types of entities thus refutes the notion that only
physical locations qualify.
Nor does the mere use of the word “place” imply such a restriction. Cf.
Samuels v. Rayford, No. 91-CV-365, 1995 WL 376939, at *8 (D.D.C. Apr. 10, 1995)
(“[T]o be a ‘place of public accommodation,’ a challenged entity must first be a
‘place.’ ”). As the list of statutory examples itself demonstrates, it is common to use
“place” to refer to businesses and service-providers as entities, rather than as
physical locations. Other real-world examples prove the point as well:
• “Compared to most places, you’d have to say [A.T.&T. is] a good place to
work.” N.R. Kleinfield, A.T.&T. Trying to Lift Morale, N.Y. Times, Apr. 14,
1979, at 29.
• “His favorite place to shop, his wife reported, is the Sears Roebuck
catalogue.” Scott Harris, The Pendulum Swings in Favor of Braude, L.A.
Times, Mar. 6, 1988, at B1.
• “[A] 911-type emergency service . . . will give residents a central place to call
for help for the first time.” Anthony DePalma, Mexico City Journal: A
Glittering Vision of Suburbia Supplants a Dump, N.Y. Times, June 23, 1993,
at A4.
• “Wachovia Corp. . . . wants to be known as a place to buy insurance.” Jay
Loomis, Wachovia Banking on Selling Insurance, Winston-Salem Journal,
July 10, 1997, at D1.
There was thus no basis at the time of the DCHRA’s enactment to interpret “place of
public accommodation” as encompassing only physical locations in the District.

8
(Page 55 of Total)

App.094

2.

The statutory text encompasses internet-based entities and digital
platforms today.

Because the term “place of public accommodation” in the DCHRA has never
been limited to physical locations, it embraces websites, internet-based entities, and
digital platforms that otherwise meet the statutory definition. Granted, the list of
statutory examples does not specifically mention websites, the internet, or digital
platforms. See Op. 11 (JA 206) (“Not one of these examples is an online or virtual
platform.”). But that is both unsurprising and immaterial. Unsurprising, because no
one had ever heard of these technologies when the DCHRA was enacted in 1977.
Immaterial, because a statute’s reach is not limited to the applications its drafters
anticipated. “While every statute’s meaning is fixed at the time of enactment, new
applications may arise in light of changes in the world.” Wis. Cent. Ltd. v. United
States, 138 S. Ct. 2067, 2074 (2018). Thus, an electronic funds transfer qualifies as
“money remuneration” even under a statute enacted in 1937. Id. at 2074-75. Or as
Justice Scalia put it, “[a] 19th-century statute criminalizing the theft of goods is not
ambiguous in its application to the theft of microwave ovens . . . .” K Mart Corp. v.
Cartier, Inc., 486 U.S. 281, 323 (1988) (concurring in part and dissenting in part);
see Antonin Scalia & Bryan A. Garner, Reading Law: The Interpretation of Legal
Texts 85-87 (2012).
The principle that general statutory language reaches new and unexpected
technologies applies with special force to the DCHRA.

The DCHRA was

9
(Page 56 of Total)

App.095

specifically “intended to ‘provide a regulation of sufficient scope and flexibility to
be responsive to future needs for the protection of civil and human rights,’ since
‘there may be contexts and reasons for discrimination tomorrow that we do not
anticipate today.’ ” Jackson, 999 A.2d at 120 (quoting legislative history). Thus, the
mere fact that websites and digital platforms were an unanticipated context for
discrimination in 1977 is of no moment, provided that they fall within the statutory
text. Many plainly do.
For example, consider once again the category “wholesale and retail stores,
and establishments dealing with goods or services of any kind.”

D.C. Code

§ 2-1401.02(24). Although websites like Amazon.com and Wayfair.com are not
physical locations, they are no doubt “retail stores” and “establishments dealing with
goods or services of any kind.” Indeed, Amazon.com describes itself as “one of the
world’s largest and best known online retailers and cloud service providers.” Br. for
Technology Companies as Amici Curiae 2, United States v. Microsoft Corp., 138 S.
Ct. 1186 (2018) (No. 17-2). And the Supreme Court has described Wayfair as “a
leading online retailer of home goods and furniture.” South Dakota v. Wayfair, Inc.,
138 S. Ct. 2080, 2089 (2018). Online stores with no physical location thus fit
comfortably within the statutory definition of “place of public accommodation.”
Consider also “banks,” “financial institutions,” and “insurance companies.”
In the internet age, many such institutions provide services to District residents
10
(Page 57 of Total)

App.096

without having any physical location that customers can visit, either inside the
District or elsewhere. Ally Bank, for example, is an online bank that offers services
to District residents but has no physical branches anywhere. 2 The same is true for
the financial services and insurance firm SoFi.3 These and other online businesses
that operate in the District are just as much places of public accommodation as their
brick-and-mortar competitors.
Once again, the word “place” is no impediment. Using “place” to refer to a
website or a digital platform is perfectly ordinary English usage. In fact, the district
court, quoting the Supreme Court, did just that, noting that “Facebook and Twitter
are among the ‘most important places (in a spatial sense) for the exchange of views’
in society today.” Op. 13 (JA 208) (quoting Packingham v. North Carolina, 137 S.
Ct. 1730, 1735 (2017)). And the United States recently described “retail websites”
as “hold[ing] themselves out to the public as places (or virtual places) of general
accommodation.” Br. for the United States as Amicus Curiae 27, Wayfair, 138 S.
Ct. 2080 (No. 17-494). Contrary to the district court’s conclusion, then, the term

See Headquarters & Offices, Ally.com, https://www.ally.com/about/locations
(last visited October 15, 2019) (“As an online bank we don’t have physical
branches . . . .”).
2

See How It Works, SoFi.com, https://www.sofi.com/how-it-works (last visited
October 15, 2019) (“Since we don’t have brick-and-mortar branches, we save on
operating costs.”).

3

11
(Page 58 of Total)

App.097

“place of public accommodation” can readily encompass websites and digital
platforms.
B.

Limiting the DCHRA’s reach to physical locations contradicts its
purpose.

The preceding analysis of the DCHRA’s text is reason enough to reject the
district court’s “physical location” gloss. But the statute’s purpose further reinforces
that conclusion. See Scalia & Garner, Reading Law, at 63 (“A textually permissible
interpretation that furthers rather than obstructs [a statute’s] purpose should be
favored.”).
The purposes of the DCHRA are laid out in the statute itself. As noted, the
act’s first provision states that the Council’s “intent” was “to secure an end in the
District of Columbia to discrimination for any reason other than that of individual
merit,” including discrimination based on race, religion, age, sex, sexual orientation,
and various other characteristics. D.C. Code § 2-1401.01. A separate provision then
further pledges: “Every individual shall have an equal opportunity to participate
fully in the economic, cultural and intellectual life of the District and to have an
equal opportunity to participate in all aspects of life,” including in places of public
accommodation and other settings. Id. § 2-1402.01.
If businesses without physical locations were, as a categorical matter, not
places of public accommodation, the promise of “equal opportunity to participate
fully” in the District’s economic life would be hollow. A mail-order retailer could
12
(Page 59 of Total)

App.098

refuse to accept orders from District residents with “ethnic-sounding” names. A
lawncare company could refuse to work at the homes of black District residents. An
out-of-state stock brokerage firm could refuse to open accounts for District women.
An online insurance company could refuse to sell its policies to gay District
residents. These results clash irreconcilably with the DCHRA’s express aims, and
they are not compelled by its text.
A physical-location requirement is fundamentally misguided because the goal
of prohibiting public-accommodation discrimination is not limited to gaining equal
access to physical spaces. The goal is also to ensure “full and equal enjoyment” of
“goods, services, . . . privileges, advantages, and accommodations.” D.C. Code
§ 2-1402.31(a)(1). In other words, it is not enough for a brick-and-mortar bank, say,
to allow people of color to come inside the building; it must allow them to open
checking accounts, obtain credit cards, take out loans, and all the rest. The firms
cannot dispute this. And yet their position is that if that same bank decides to close
its physical branches and operate solely through a website, it is suddenly free to
discriminate against District residents with respect to any or all of its services. The
Court should not accept such an irrational, ineffective interpretation of the DCHRA.
Cf. Quarles v. United States, 139 S. Ct. 1872, 1879 (2019) (“We should not lightly
conclude that [the legislature] enacted a self-defeating statute.”).

13
(Page 60 of Total)

App.099

C.

The Office of Human Rights has rejected a physical location
requirement.

Even if the combination of the DCHRA’s plain text and its express purposes
left any doubt about a physical location requirement, principles of agency deference
would remove it. Much as with federal courts and federal agencies, the D.C. Court
of Appeals defers to District agencies’ reasonable interpretations of the statutes they
administer. See, e.g., Brown v. D.C. Dep’t of Emp’t Servs., 83 A.3d 739, 746 & n.21
(D.C. 2014). Accordingly, interpretations of the DCHRA by the D.C. Office of
Human Rights (“OHR”) and its adjudicatory arm, the D.C. Commission on Human
Rights, are entitled to deference. See, e.g., Timus v. D.C. Dep’t of Human Rights,
633 A.2d 751, 758-59 (D.C. 1993) (en banc). And nearly two decades ago, OHR
rejected the view that a place of public accommodation must be a physical location.
It did so through formal adjudication in Pool & Geller v. Boy Scouts of
America, Nos. 93-030-(PA) & 93-031-(PA) (D.C. Comm’n on Human Rights June
18, 2001). 4 There, two gay men who sought to be Boy Scout leaders argued that
their exclusion from the organization was public-accommodation discrimination
under the DCHRA. OHR initially dismissed their complainants, citing Welsh v. Boy
Scouts of America, 993 F.2d 1267 (7th Cir. 1993), for the proposition that the Boy
Scouts was not a place of public accommodation. Pool & Geller at 2. Welsh had

4

Available at http://www.glaa.org/archive/2001/poolandgellerruling0621.pdf.
14

(Page 61 of Total)

App.100

held that the Boy Scouts was not a place of public accommodation under Title II of
the Civil Rights Act of 1964, 42 U.S.C. § 2000a, because it was not closely tied to a
“structural facility”—i.e., a physical location. 993 F.2d at 1269. Later, however,
OHR reversed course, dropped its reliance on Welsh, and concluded that there was
“probable cause to believe that the respondents violated the [DCHRA] in a place of
public accommodation.” Pool & Geller at 2.
After a formal hearing, the Commission sustained the charge.

Despite

acknowledging that “[n]either the [Boy Scouts] National Council nor the Local
Council maintains any facilities in the District of Columbia,” the Commission held
that the Boy Scouts was a place of public accommodation under the DCHRA. Id. at
7, 48-54. In addition to discussing the breadth of the statutory definition of “place
of public accommodation,” the Commission favorably cited a pair of decisions from
New York and Connecticut—“jurisdictions with similar statutes”—which found
“that membership organizations like the Boy Scouts are a place of public
accommodation.” Id. at 54 (citing U.S. Power Squadrons, 452 N.E.2d 1199, and
Quinnipiac Council, Boy Scouts of Am. v. Comm’n on Human Rights &
Opportunities, 528 A.2d 352 (Conn. 1987)). Both decisions prominently rejected
the notion that only physical locations can be places of public accommodation. See
U.S. Power Squadrons, 452 N.E.2d at 411 (“The place of the public accommodation
need not be a fixed location . . . .”); Quinnipiac Council, 528 A.2d at 358
15
(Page 62 of Total)

App.101

(“[P]hysical situs is not today an essential element of our public accommodation
law.”).
On appeal, the D.C. Court of Appeals reversed the Pool & Geller decision.
Boy Scouts of Am. v. D.C. Comm’n on Human Rights, 809 A.2d 1192 (2002). But it
did so solely on First Amendment grounds, stating expressly that it was not
addressing the statutory question.

Id. at 1196 & n.4; id. at 1204 (Reid, J.,

concurring). The Pool & Geller decision’s interpretation of “place of public
accommodation” therefore remains intact and constitutes OHR and the
Commission’s considered reading of the statute. That interpretation’s rejection of a
physical location requirement is, at minimum, a reasonable reading of the statute,
and it is therefore “binding” on the D.C. Court of Appeals. Brown, 83 A.3d at 746
n.21. And because this Court is in turn “bound to follow interpretations of D.C. law
by the D.C. Court of Appeals,” Blair-Bey v. Quick, 151 F.3d 1036, 1050 (D.C. Cir.
1998), it governs here as well.
D.

United States Jaycees v. Bloomfield is neither controlling nor
persuasive.

The district court undertook no meaningful analysis of the DCHRA’s text or
purpose because it believed that the D.C. Court of Appeals had “authoritatively” held
that a place of public accommodation “must be a physical location” in United States
Jaycees v. Bloomfield, 434 A.2d 1379 (D.C. 1981). Op. 11-12 (JA 206-07). That
conclusion was mistaken.
16
(Page 63 of Total)

App.102

In Jaycees, a trial court found that excluding women from full membership in
the Jaycees (a community service organization) was likely sex discrimination in a
place of public accommodation under the DCHRA, and it therefore granted a
preliminary injunction. 434 A.2d at 1380. A panel of the D.C. Court of Appeals
reversed. Id. at 1381-83. Although “the rationale of the [Jaycees] opinion is
somewhat unclear,” Samuels, 1995 WL 376939, at *10 n.12, the panel apparently
believed that the Jaycees did not qualify as a place of public accommodation because
it “[wa]s a voluntary membership organization whose primary function is to render
community service” and “d[id] not operate from any particular place within the
District of Columbia,” Jaycees, 434 A.2d at 1381; see also id. at 1382 (noting that
“Jaycees does not utilize any one particular facility provided by municipal
government for its entire operation”). At first blush, then, Jaycees might seem to
support the district court’s decision here. But for at least three reasons Jaycees is
neither controlling nor persuasive.
First, Jaycees is not controlling because it was a tentative ruling on a question
of preliminary relief. As Jaycees itself noted repeatedly, the court was “review[ing]
the trial court’s grant of a preliminary injunction only to gauge the likelihood of
success, not determine the suit on its merits.” 434 A.2d at 1381 (citing Univ. of Tex.
v. Camenisch, 451 U.S. 390, 394 (1981) (warning against “improperly equat[ing]
‘likelihood of success’ with ‘success’ ”)); id. at 1384 (same). And the court explicitly
17
(Page 64 of Total)

App.103

framed its holding on the public-accommodation issue in terms of likelihood of
success. Id. at 1381-82 (“[A]ppellees have failed to demonstrate that there is a
likelihood of success for their argument that under the [DCHRA] Jaycees is a ‘place
of public accommodation.’ ”). The court’s construction of the DCHRA was thus
tentative, not definitive or binding.
This principle was well explained by then-Judge Alito in Council of
Alternative Political Parties v. Hooks, 179 F.3d 64 (3d Cir. 1999). In an appeal after
obtaining summary judgment, the plaintiffs in that case argued that a prior panel’s
decision regarding a preliminary injunction bound the Third Circuit as the law of the
case. Id. at 69. Not so, Judge Alito explained. In deciding to grant preliminary
relief, “the prior panel did not hold that the plaintiffs were entitled to succeed;
instead, it concluded that they were likely to succeed.” Id. at 70. Because the
preliminary injunction standard concerns only likelihood of success, he noted, both
“the findings of fact” and “conclusions of law” reached at that stage—including
those reached by an appellate court on interlocutory appeal—are tentative. Id. at 6970 (citing, inter alia, Camenisch, 451 U.S. at 395). They bind neither the trial court
at later stages of the case nor an appellate court in an appeal from final judgment.
Id.; see Taylor v. FDIC, 132 F.3d 753, 766 (D.C. Cir. 1997) (conclusion of prior
panel that denied preliminary injunction “lacks authoritative weight for this
appeal”); Johnson v. Capital City Mortg. Corp., 723 A.2d 852, 856 (D.C. 1999) (“It
18
(Page 65 of Total)

App.104

follows from the nature of a preliminary injunction proceeding that any findings on
the merits of claims raised are, unless otherwise clearly indicated, merely
tentative.”).
The same logic applies with even more force to the Jaycees decision. In
reversing the preliminary injunction, the panel did not hold that the Jaycees were
entitled to succeed on the public-accommodation claim, only that they were likely to
succeed. 434 A.2d at 1381-82. Thus, the panel’s interpretation of the DCHRA in
Jaycees would not have bound the Court of Appeals even in a later appeal in Jaycees
itself. A fortiori, that interpretation is not binding here, for “a decision that doesn’t
bind the court that issued it or the litigants cannot bind nonparties.” Bryan A. Garner
et al., The Law of Judicial Precedent 232 (2016); see id. at 230-32 (discussing the
limited force of nonfinal decisions).
That Jaycees did not conclusively hold that only physical locations can be
places of public accommodation is confirmed by the D.C. Court of Appeals’ later
decision in Boy Scouts, 809 A.2d 1192. That appeal from the Commission’s Pool &
Geller decision raised two questions: (1) whether the Boy Scouts’ exclusion of gay
Scout leaders was public-accommodation discrimination under the DCHRA, and (2)
if so, whether that exclusion was nonetheless protected by the First Amendment.
The court sidestepped the first question, “assum[ing] without deciding that the
Human Rights Act was intended to reach a membership organization such as the Boy
19
(Page 66 of Total)

App.105

Scouts as a ‘place of public accommodation,’ ” but noting—with a citation to
Jaycees—that “[t]he issue is a complex one.” Id. at 1196 & n.4. Despite the canon
of constitutional avoidance, the court jumped ahead to the First Amendment question
and ruled for the Boy Scouts on that ground. Id. at 1196-1203. If Jaycees had
resolved the physical-location issue, the Court of Appeals would not have considered
the question of the Boy Scouts’ status “a complex one.” It would have been a
trivially easy one, for the Boy Scouts is no more a physical location than is the
Jaycees. See Pool & Geller at 7 (“Neither the [Boy Scouts] National Council nor
the Local Council maintains any facilities in the District of Columbia.”). 5
Second, both the precedential and persuasive force of Jaycees is undermined
by the failure of the appellees in that case to seriously contest the meaning of “place
of public accommodation.”

On the one hand, they claimed to “embrace the

reasoning employed by the trial court,” which had rejected a physical location
requirement. 434 A.2d at 1381. But on the other, they expressly surrendered on the

At the summary affirmance stage, the firms tried to dispute this implication of
Boy Scouts. “The ‘complex’ issue,” they said, “was not whether there was a physical
location requirement, but instead whether the statutory definition’s reference to
‘institutions’ and ‘clubs’ encompassed membership organizations such as the Boy
Scouts.” MSA Reply 3. But even if that were so, the Court of Appeals never would
have reached that uncertainty if Jaycees established a per se rule that only physical
locations can be places of public accommodation.

5

20
(Page 67 of Total)

App.106

key question: “Appellees candidly concede (Brief at 6) that Jaycees ‘is not a place
of public accommodation to which women will be denied equal access.’ ” Id.
This explicit concession would be enough on its own to rob Jaycees of binding
force on this issue. The D.C. Court of Appeals does not consider points conceded in
one case to be binding in others. In Daly v. D.C. Department of Employment
Services, 121 A.3d 1257 (D.C. 2015), for example, the court addressed whether
formal service of an agency order was necessary to trigger a workers-compensation
deadline. An earlier decision had treated service as the triggering event. Id. at 1262.
But the Daly court said that because the point had been “essentially conceded during
oral argument” in the prior case, that decision’s discussion of the issue was “not
binding precedent.” Id. The same logic applies to Jaycees.
The appellees’ concession in Jaycees also radically diminishes any persuasive
force it might otherwise appear to have. “Sound judicial decisionmaking requires
‘both a vigorous prosecution and a vigorous defense’ of the issues in dispute.”
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 572 (1993)
(Souter, J., concurring in part and concurring in the judgment) (quoting
Christiansburg Garment Co. v. EEOC, 434 U.S. 412, 419 (1978)). Accordingly,
opinions “written without the benefit of full briefing or argument on [an] issue” carry
little weight. McCutcheon v. Fed. Election Comm’n, 572 U.S. 185, 202 (2014); see
Garner et al., Law of Judicial Precedent, at 226 (noting the “diminished” authority
21
(Page 68 of Total)

App.107

of cases “submitted without argument, or on scanty or insufficient argument”). It is
hard to imagine anything further from a “vigorous defense” of the DCHRA’s breadth
than the appellees’ express concession in Jaycees that the organization was “not a
place of public accommodation.” 434 A.2d at 1381 (emphasis added) (quoting
appellees’ brief).
Third, on top of everything else, Jaycees has been superseded by the decision
of OHR and the Commission in Pool & Geller. When Jaycees was decided, no
administrative decision or rulemaking had addressed whether a place of public
accommodation under the DCHRA must be a physical location. Jaycees itself noted
that it was not applying the “deferential” standard that would govern if “an
administrative agency order” were at issue. 434 A.2d at 1382 n.6. But in 2001, the
Commission issued the Pool & Geller decision, which rejected a physical location
requirement. See supra Part I.C. Because, at the very least, the DCHRA does not
foreclose that reading, see Boy Scouts, 809 A.2d at 1196 & n.4, it trumps any contrary
interpretation in Jaycees. See Nat’l Cable & Telecomms. Ass’n v. Brand X Internet
Servs., 545 U.S. 967, 982-83 (2005) (holding that agency interpretations entitled to
deference supersede contrary judicial interpretations).
E.

If in doubt, this Court should certify the question to the D.C. Court
of Appeals.

For the reasons explained, the Court should hold that a place of public
accommodation under the DCHRA need not be a physical location and that a website
22
(Page 69 of Total)

App.108

or digital platform can qualify. If, however, the Court has serious doubts about that
conclusion, it should certify the question to the D.C. Court of Appeals. See D.C.
Code § 11-723 (authorizing certification).
In recent years, this Court has repeatedly certified questions of District law,
and the Court of Appeals has answered. See, e.g., Owens v. Republic of Sudan, 864
F.3d 751, 811-12 (D.C. Cir. 2017), certified question answered, 194 A.3d 38 (D.C.
2018); Order, Rivera v. Lew, No. 13-5222 (D.C. Cir. Jan. 30, 2014), certified
question answered, 99 A.3d 269 (D.C. 2014). This Court has said that certification
is proper when (1) “District of Columbia law is genuinely uncertain,” and (2) “the
question is of extreme public importance.” Companhia Brasileira Carbureto de
Calicio v. Applied Indus. Materials Corp., 640 F.3d 369, 373 (D.C. Cir. 2011)
(internal quotation marks omitted), certified question answered, 35 A.3d 1127 (D.C.
2012). Here, assuming the Court is unwilling to overrule the district court’s holding
outright, both certification criteria are satisfied.
First, as this brief has shown, the notion that only a physical location can
qualify as a place of public accommodation is at least “genuinely uncertain” (and in
fact certainly wrong). No doubt the firms will say Jaycees proves otherwise. But as
discussed, Jaycees never established a binding per se rule, and it was in any event
superseded by the Pool & Geller decision. Cf. Companhia, 640 F.3d at 372-73
(finding uncertainty where “a subsequent decision of the D.C. Court of Appeals”
23
(Page 70 of Total)

App.109

“arguably” limited the reach of an earlier decision). The fact that, after Jaycees, the
high courts of New York and Connecticut rejected a physical location requirement
under their similar antidiscrimination laws also creates uncertainty. See Owens, 864
F.3d at 812 (finding uncertainty where “[o]ther states have reached different
conclusions on th[e] question”). And even if Jaycees stood for everything the district
court thought it did, it was decided nearly 40 years ago, did not apply the principle
of “generously construing” the DCHRA that has since become firmly settled, and
did not examine the remarkable consequences of excluding all but physical locations
from the DCHRA’s public-accommodation protections.

Certification would

therefore still be appropriate because, in circumstances like these, a state high court
might decide that “it no longer feels bound by an earlier decision.” Garner et al.,
Law of Judicial Precedent, at 627 (discussing certification).
Second, the question here is surely of extreme public importance. Among the
questions that this Court has found satisfy this standard are:
• whether fraudulent petitions sent to federal agencies in the District provide a
basis for establishing personal jurisdiction over the petitioners (Companhia,
640 F.3d at 373);
• whether a claim for intrusion upon seclusion arises when “a restaurant
discloses to a third party the dining habits of a patron without the patron’s
consent” (Schuchart v. La Taberna Del Alabardero, Inc., 365 F.3d 33, 38 (D.C.
Cir. 2004)); and
• whether a plaintiff is barred from recovering on a contract to perform
architectural services in the District if she is licensed to practice architecture
24
(Page 71 of Total)

App.110

only in another jurisdiction (Sturdza v. United Arab Emirates, 281 F.3d 1287,
1303 (D.C. Cir. 2002)).
Those questions were indeed important, but the issue here—which touches the lives
of many more District residents—is even more so. If in fact only physical locations
are places of public accommodation under the DCHRA, then the countless
businesses and institutions that operate in the District without brick-and-mortar
facilities here have a blank check to discriminate on the basis of race, sex, age, and
other protected characteristics in the provision of goods and services. This Court
should not endorse such an extraordinary proposition without letting the D.C. Court
of Appeals address it—on the merits, and with adequate briefing—in the first
instance.
CONCLUSION
The district court’s holding that a place of public accommodation “must be a
physical location” should be reversed.

25
(Page 72 of Total)

App.111

Respectfully submitted,
KARL A. RACINE
Attorney General for the District of Columbia
LOREN L. ALIKHAN
Solicitor General
CAROLINE S. VAN ZILE
Principal Deputy Solicitor General
/s/ Graham E. Phillips
GRAHAM E. PHILLIPS
Assistant Attorney General
Bar Number 1035549
Office of the Solicitor General

March 2020

Office of the Attorney General
441 4th Street, NW, Suite 630 South
Washington, D.C. 20001
(202) 724-6647
(202) 741-0444 (fax)
graham.phillips@dc.gov

26
(Page 73 of Total)

App.112

ADDENDUM

(Page 74 of Total)

App.113

D.C. Code § 2-1401.02
§ 2-1401.02. Definitions.
The following words and terms when used in this chapter have the following
meanings:
***
(24) “Place of public accommodation” means all places included in the meaning of
such terms as inns, taverns, road houses, hotels, motels, whether conducted for the
entertainment of transient guests or for the accommodation of those seeking health,
recreation or rest; restaurants or eating houses, or any place where food is sold for
consumption on the premises; buffets, saloons, barrooms, or any store, park or
enclosure where spirituous or malt liquors are sold; ice cream parlors,
confectioneries, soda fountains and all stores where ice cream, ice and fruit
preparation or their derivatives, or where beverages of any kind are retailed for
consumption on the premises; wholesale and retail stores, and establishments
dealing with goods or services of any kind, including, but not limited to, the credit
facilities thereof; banks, savings and loan associations, establishments of mortgage
bankers and brokers, all other financial institutions, and credit information bureaus;
insurance companies and establishments of insurance policy brokers; dispensaries,
clinics, hospitals, bath-houses, swimming pools, laundries and all other cleaning
establishments; barber shops, beauty parlors, theaters, motion picture houses,
airdromes, roof gardens, music halls, race courses, skating rinks, amusement and
recreation parks, trailer camps, resort camps, fairs, bowling alleys, golf courses,
gymnasiums, shooting galleries, billiards and pool parlors; garages, all public
conveyances operated on land or water or in the air, as well as the stations and
terminals thereof; travel or tour advisory services, agencies or bureaus; public halls
and public elevators of buildings and structures, occupied by 2 or more tenants, or
by the owner and 1 or more tenants. Such term shall not include any institution, club,
or place of accommodation which is in its nature distinctly private except, that any
such institution, club or place of accommodation shall be subject to the provisions
of § 2-1402.67. A place of accommodation, institution, or club shall not be
considered in its nature distinctly private if the place of accommodation, institution,
or club:
(A) Has 350 or more members;
(B) Serves meals on a regular basis; and

(Page 75 of Total)

ADD-1

App.114

(C) Regularly receives payment for dues, fees, use of space, facilities,
services, meals, or beverages directly or indirectly from or on behalf of
nonmembers for the furtherance of trade or business.
***

(Page 76 of Total)

ADD-2

App.115

CERTIFICATE OF COMPLIANCE
I certify that this brief complies with the type-volume limitation in Federal
Rule of Appellate Procedure 29(a)(5) because it contains 5750 words, excluding
exempted parts. This brief complies with the typeface and type style requirements
of Federal Rule of Appellate Procedure 32(a)(5) and (6) because it has been prepared
in a proportionally spaced typeface using Microsoft Word 2010 in 14-point Times
New Roman font.
/s/ Graham E. Phillips
GRAHAM E. PHILLIPS

(Page 77 of Total)

App.116

USCA Case #19-7030

Document #1844360

Filed: 05/27/2020

Page 1 of 4

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-7030

September Term, 2019
FILED ON: MAY 27, 2020

FREEDOM WATCH, INC., INDIVIDUALLY AND ON BEHALF OF THOSE SIMILARLY SITUATED AND
LAURA LOOMER, INDIVIDUALLY AND ON BEHALF OF THOSE SIMILARLY SITUATED PALM BEACH,
FLORIDA,
APPELLANTS
v.
GOOGLE INC., ET AL.,

APPELLEES
Appeal from the United States District Court
for the District of Columbia
(No. 1:18-cv-02030)

Before: ROGERS and GRIFFITH, Circuit Judges, and RANDOLPH, Senior Circuit Judge
JUDGMENT
This appeal was considered on the record from the United States District Court for the
District of Columbia and on the briefs of the parties. The Court has accorded the issues full
consideration and determined that they do not warrant a published opinion. See D.C. CIR. R. 36(d).
For the reasons stated below, it is
ORDERED and ADJUDGED that the decision of the district court be AFFIRMED.
Freedom Watch and Laura Loomer (collectively, “Freedom Watch”) brought this suit against
Google, Facebook, Twitter, and Apple (the “Platforms”) alleging that they conspired to suppress
conservative political views and violated the First Amendment, the Sherman Antitrust Act, and the
District of Columbia Human Rights Act. The district court dismissed the complaint, holding that
Freedom Watch had standing to sue but failed to allege colorable legal claims. Freedom Watch, Inc.
v. Google, 368 F.Supp.3d 30, 36–37 (D.D.C. 2019). On appeal, we reach the same conclusion.
Freedom Watch has standing to bring this suit. Freedom Watch alleges that the Platforms
conspired to suppress its audience and revenues, and succeeded in reducing each. As the district
court concluded, this injury suffices for standing purposes. Id. at 36.

(Page 1 of Total)

App.117

USCA Case #19-7030

Document #1844360

Filed: 05/27/2020

Page 2 of 4

-2The Platforms protest this conclusion, arguing that Freedom Watch is unable to point to any
actions by the Platforms that caused its alleged injury. With respect to Twitter and Facebook,
Freedom Watch specifically alleges that those Platforms prevented Ms. Loomer from using their
services. With respect to Google and Apple, standing rests on the general claim that those
companies were engaged in a conspiracy against Freedom Watch. As the district court explained,
at the pleading stage, “general factual allegations of injury resulting from the defendant’s conduct
may suffice.” Id. at 36 (quoting Osborn v. Visa Inc., 797 F.3d 1057, 1064 (D.C. Cir. 2015)). The
general allegation that the Platforms conspired to suppress Freedom Watch’s audience and revenue,
combined with Freedom Watch’s representations that its audience and revenue declined, suffices
to establish standing.
Freedom Watch’s First Amendment claim fails because it does not adequately allege that the
Platforms can violate the First Amendment. In general, the First Amendment “prohibits only
governmental abridgment of speech.” Manhattan Cmty. Access Corp. v. Halleck, 139 S. Ct. 1921,
1928 (2019). Freedom Watch contends that, because the Platforms provide an important forum for
speech, they are engaged in state action. But, under Halleck, “a private entity who provides a forum
for speech is not transformed by that fact alone into a state actor.” Id. at 1930. Freedom Watch fails
to point to additional facts indicating that these Platforms are engaged in state action and thus fails
to state a viable First Amendment claim.
Freedom Watch also fails to state a viable claim under the Sherman Antitrust Act. To state
a § 1 claim, a complainant must plead “enough factual matter (taken as true) to suggest that an
agreement was made.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 556 (2007). Freedom Watch
argues that we should infer an agreement primarily from the Platforms’ parallel behavior, as each
company purportedly refused to provide certain services to Freedom Watch. But, as the district
court explained, parallel conduct alone cannot support a claim under the Sherman Act. See Freedom
Watch, 368 F.Supp.3d at 37 (citing Twombly, 550 U.S. at 556 (“Without more, parallel conduct does
not suggest conspiracy”)). Freedom Watch puts forth two additional factors that it claims suggest
conspiracy: that the Platforms are pursuing a revenue-losing strategy and that they are motivated
by political goals. But Freedom Watch does not explain why either factor tends to show an unlawful
conspiracy, rather than lawful independent action by the different Platforms. See Freedom Watch,
368 F.Supp.2d at 37–38.
Freedom Watch’s § 2 claim is also deficient. To state a § 2 claim – collective
monopolization by several parties or individual monopolization by a single party – a complainant
must allege that monopoly powers were acquired through “anticompetitive conduct.” See Verizon
Commc’ns Inc. v. Law Offices of Curtis V. Trinko, LLP, 540 U.S. 398, 407 (2004) (emphasis
omitted). The only anticompetitive conduct that Freedom Watch alleges (without supporting factual
allegations) is that the Platforms conspired against it to suppress conservative content, but not that
the Platforms conspired to acquire or maintain monopoly power. A § 2 claim requires the latter
allegation.
That leaves Freedom Watch’s discrimination claim under the D.C. Human Rights Act. The
Act prohibits discrimination on the basis of political affiliation in “any place of public

(Page 2 of Total)

App.118

USCA Case #19-7030

Document #1844360

Filed: 05/27/2020

Page 3 of 4

-3accommodations.” D.C. CODE § 2-1402.31(a); see also id. § 2-1401.02(24). Relying on a D.C.
Court of Appeals case interpreting that statute, U.S. Jaycees v. Bloomfield, 434 A.2d 1379 (D.C.
1981), the district court concluded that only physical places within the District of Columbia qualify
as “places of public accommodation.” Freedom Watch, 368 F.Supp.3d at 39. Because Freedom
Watch had not alleged that the Platforms operated out of a particular place in D.C., but only that
they do business in the District, the district court dismissed the claim. Id.
On appeal, Freedom Watch contests the district court’s interpretation of “place of public
accommodations.” It is joined by the District of Columbia, which submitted an amicus brief on this
issue. The District of Columbia argues that the district court’s reliance on Jaycees is misplaced.
It contends that Jaycees is not authoritative because it was a decision on a preliminary injunction
rather than a final decision on the merits and that the D.C. Commission on Human Rights has
interpreted the Human Rights Act to reject a physical location requirement, Pool & Geller v. Boy
Scouts of America, Nos. 93-030-(PA) & 93-031-(PA) (D.C. Comm’n on Human Rights June 18,
2001).
When interpreting D.C. law, we strive “to achieve the same outcome we believe would result
if the District of Columbia Court of Appeals considered this case.” Novak v. Capital Mgmt. & Dev.
Corp., 42 F.3d 902, 907 (D.C. Cir. 2006). The D.C. Court of Appeals in Jaycees held that “places
of public accommodation” under the D.C. Human Rights Act must operate from a “particular place”.
Jaycees, 434 A.2d at 1381–82.
The arguments to the contrary are unsuccessful. The District of Columbia argues that
Jaycees is not binding, because it was a decision on a preliminary injunction and thus not a final
legal conclusion. See University of Texas v. Camenisch, 41 U.S. 390, 395 (1981). Maybe so. But
the D.C. Court of Appeals has interpreted this statute and at minimum, its interpretation is a
reasonable one. We have no basis to believe it would reach a different conclusion on
reconsideration. The Pool & Geller decision does not alter this analysis because the D.C. Court of
Appeals reversed the Commission’s decision, although it explicitly declined in that case to consider
what qualified as a “place of public accommodation.” See Boy Scouts of Am. v. D.C. Comm’n on
Human Rights, 809 A.2d 1192, 1196 n.4 (D.C. 2002).
Freedom Watch argues that we should interpret this local statute more broadly to make it
consistent with the Americans with Disabilities Act. That Act also contains a provision concerning
places of “public accommodation,” and several federal courts have concluded that clause sweeps
wider than just physical places. See, e.g., Carparts Distribution Ctr. v. Auto. Wholesaler’s Ass’n,
37 F.3d 12, 19 (1st Cir. 1994). But as the district court noted, other federal courts have reached the
opposite conclusion and held that only physical places qualify as places of public accommodation
under the ADA. See Freedom Watch, 368 F.Supp.3d at 39. Moreover, the D.C. Court of Appeals
is the arbiter of D.C. law and the definitions of “public accommodation” in the two laws are
different from one another. The fact that other courts interpret another (though similar) statute
differently is not a sufficient reason to deviate from Jaycees.

(Page 3 of Total)

App.119

USCA Case #19-7030

Document #1844360

Filed: 05/27/2020

Page 4 of 4

-4Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk is
directed to withhold issuance of the mandate until seven days after resolution of any timely petition
for rehearing or rehearing en banc. See Fed. R. App. P. 41(b); D.C. CIR. R. 41.
PER CURIAM
FOR THE COURT:
Mark J. Langer, Clerk
BY:

(Page 4 of Total)

/s/
Daniel J. Reidy
Deputy Clerk

App.120

USCA Case #19-7030

Document #1855177

Filed: 08/05/2020

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 19-7030

September Term, 2019
1:18-cv-02030-TNM
Filed On: August 5, 2020

Freedom Watch, Inc., individually and on
behalf of those similarly situated and Laura
Loomer, individually and on behalf of those
similarly situated Palm Beach, Florida,
Appellants
v.
Google Inc., et al.,
Appellees
BEFORE:

Srinivasan, Chief Judge; Henderson, Rogers, Tatel, Garland,
Griffith, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges;
and Randolph, Senior Circuit Judge.
ORDER

Upon consideration of appellants’ petition for rehearing en banc, which includes
a request for oral argument on the petition, it is
ORDERED that the petition be denied. It is
FURTHER ORDERED that the request for oral argument be dismissed as moot.

Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

(Page 5 of Total)

/s/
Michael C. McGrail
Deputy Clerk

App.121

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
FEDERAL TRADE COMMISSION
600 Pennsylvania Avenue, N.W.
Washington, DC 20580
Plaintiff,

Case No.:

v.
FACEBOOK, INC.
1601 Willow Road
Menlo Park, CA 94025

PUBLIC REDACTED VERSION OF
DOCUMENT FILED UNDER SEAL

Defendant.
COMPLAINT FOR INJUNCTIVE AND OTHER EQUITABLE RELIEF
Plaintiff, the Federal Trade Commission (“FTC”), by its designated attorneys, petitions this
Court pursuant to Section 13(b) of the Federal Trade Commission Act (“FTC Act”), 15 U.S.C.
§ 53(b), for a permanent injunction and other equitable relief against Defendant Facebook, Inc.
(“Facebook”), to undo and prevent its anticompetitive conduct and unfair methods of competition
in or affecting commerce in violation of Section 5(a) of the FTC Act, 15 U.S.C. § 45(a).
I. NATURE OF THE CASE
1.

Facebook is the world’s dominant online social network. More than 3 billion

people regularly use Facebook’s services to connect with friends and family and enrich their social
lives. But not content with attracting and retaining users through competition on the merits,
Facebook has maintained its monopoly position by buying up companies that present competitive
threats and by imposing restrictive policies that unjustifiably hinder actual or potential rivals that
Facebook does not or cannot acquire.

1
App.122

2.

Facebook holds monopoly power in the market for personal social networking

services (“personal social networking” or “personal social networking services”) in the United
States, which it enjoys primarily through its control of the largest and most profitable social
network in the world, known internally at Facebook as “Facebook Blue,” and to much of the world
simply as “Facebook.”
3.
than

In the United States, Facebook Blue has more than

daily users and more

monthly users. No other social network of comparable scale exists in the United

States.
4.

Facebook’s unmatched position has provided it with staggering profits. Facebook

monetizes its personal social networking monopoly principally by selling advertising, which
exploits a rich set of data about users’ activities, interests, and affiliations to target advertisements
to users. Last year alone, Facebook generated revenues of more than $70 billion and profits of
more than $18.5 billion.
5.

Since toppling early rival Myspace and achieving monopoly power, Facebook has

turned to playing defense through anticompetitive means. After identifying two significant
competitive threats to its dominant position—Instagram and WhatsApp—Facebook moved to
squelch those threats by buying the companies, reflecting CEO Mark Zuckerberg’s view,
expressed in a 2008 email, that “it is better to buy than compete.” To further entrench its position,
Facebook has also imposed anticompetitive conditions that restricted access to its valuable
platform—conditions that Facebook personnel recognized as “anti user[,]” “hypocritical” in light
of Facebook’s purported mission of enabling sharing, and a signal that “we’re scared that we can’t
compete on our own merits.”

2
App.123

6.

As Facebook has long recognized, its personal social networking monopoly is

protected by high barriers to entry, including strong network effects. In particular, because a
personal social network is generally more valuable to a user when more of that user’s friends and
family are already members, a new entrant faces significant difficulties in attracting a sufficient
user base to compete with Facebook. Facebook’s internal documents confirm that it is very
difficult to win users with a social networking product built around a particular social “mechanic”
(i.e., a particular way to connect and interact with others, such as photo-sharing) that is already
being used by an incumbent with dominant scale. Even an entrant with a “better” product often
cannot succeed against the overwhelming network effects enjoyed by a dominant personal social
network.
7.

Despite strong network effects, important competitive threats to a dominant

personal social networking provider can emerge, particularly during periods of technological or
social transition and particularly if the newcomer is differentiated from the incumbent in a manner
that exploits the technological or social transition. During such periods, a competitor may be able
to gain scale despite the network effects enjoyed by the incumbent.
8.

Accordingly, Facebook’s leadership has learned and recognized that the sharpest

competitive threats to Facebook Blue come not from “Facebook clones,” but from differentiated
services and during periods of transition.
9.

In an effort to preserve its monopoly in the provision of personal social networking,

Facebook has, for many years, continued to engage in a course of anticompetitive conduct with
the aim of suppressing, neutralizing, and deterring serious competitive threats to Facebook Blue.
This course of conduct has had three main elements: acquiring Instagram, acquiring WhatsApp,
and the anticompetitive conditioning of access to its platform to suppress competition.

3
App.124

10.

Instagram Acquisition.

In 2012, Facebook acquired Instagram, the most

significant personal social networking competitor to emerge since Facebook Blue launched.
11.

Instagram—a mobile-first app that enables users to engage in personal social

networking with family and friends through taking, editing, sharing, and commenting on
photographs—emerged at a critical time of technological and social transition, when users of
personal social networking were migrating from desktop computers to smartphones and toward a
greater use of photo-based sharing. Smartphones combined high-quality cameras with mobile
access to the internet, which gave consumers new ways to share moments from their lives. By
satisfying users’ demand for excellence in photo handling, social networking, and user experience
via their smartphones, Instagram quickly seized a particularly strong position as a fast-growing
provider of personal social networking. As users increasingly demanded and prioritized personal
social networking services on their smartphones, and connecting with friends and family through
photo-sharing, Instagram became an existential threat to Facebook Blue’s personal social
networking monopoly.
12.

Facebook initially tried to compete with Instagram on the merits by improving its

own mobile photo-sharing features. But by September 2011, Mr. Zuckerberg saw that Facebook
had fallen far behind, writing internally: “In the time it has taken us to get ou[r] act together on
this[,] Instagram has become a large and viable competitor to us on mobile photos, which will
increasingly be the future of photos.”
13.

So Facebook fell back on the philosophy that “it is better to buy than compete.” In

February 2012, Mr. Zuckerberg acknowledged that if left independent—or in the hands of another
acquirer like Google or Apple—Instagram threatened to leave Facebook Blue “very behind in both
functionality and brand on how one of the core use cases of Facebook will evolve in the mobile

4
App.125

world.” Emphasizing that this was a “really scary” outcome for Facebook, Mr. Zuckerberg
suggested “we might want to consider paying a lot of money” for Instagram.
14.

Mr. Zuckerberg recognized that by acquiring and controlling Instagram, Facebook

would not only squelch the direct threat that Instagram posed, but also significantly hinder another
firm from using photo-sharing on mobile phones to gain popularity as a provider of personal social
networking. As Mr. Zuckerberg explained to Chief Financial Officer David Ebersman in an email,
controlling Instagram would secure Facebook’s enduring dominance around one of the few social
mechanics that could provide a footing for a competing personal social networking provider:
[T]here are network effects around social products and a finite number of different
social mechanics to invent. Once someone wins at a specific mechanic, it’s difficult
for others to supplant them without doing something different. It’s possible
someone beats Instagram by building something that is better to the point that they
get network migration, but this is harder as long as Instagram keeps running as a
product. [Integrating Instagram’s functions into Facebook] is also a factor but in
reality we already know these companies’ social dynamics and will integrate them
over the next 12-24 months anyway. The integration plan involves building their
mechanics into our products rather than directly integrating their products if that
makes sense. . . . [O]ne way of looking at this is that what we’re really buying is
time. Even if some new competitors spring[] up, buying Instagram, Path,
Foursquare, etc now will give us a year or more to integrate their dynamics before
anyone can get close to their scale again. Within that time, if we incorporate the
social mechanics they were using, those new products won’t get much traction since
we’ll already have their mechanics deployed at scale. (Emphasis added.)
15.

On April 9, 2012—the day Facebook announced it was acquiring Instagram—Mr.

Zuckerberg wrote privately to a colleague to celebrate suppressing the threat: “I remember your
internal post about how Instagram was our threat and not Google+. You were basically right. One
thing about startups though is you can often acquire them.”
16.

The Instagram acquisition has given Facebook control over its most significant

personal social networking competitor, which both neutralizes the direct threat that Instagram
posed by itself, and, additionally, makes it more difficult for other firms to use photo-sharing via

5
App.126

smartphones to gain traction in personal social networking. Through its control of Instagram,
Facebook has attempted to prevent Instagram from “cannibalizing” Facebook Blue, confirming
that an independent Instagram would constitute a significant threat to Facebook’s personal social
networking monopoly. Despite Facebook’s efforts, Facebook Blue has lost users and engagement
to Instagram

17.

WhatsApp Acquisition. After neutralizing the threat from Instagram, Facebook

turned to what it considered “the next biggest consumer risk” for Facebook Blue: the risk that an
app offering mobile messaging services would enter the personal social networking market, either
by adding personal social networking features or by launching a spinoff personal social networking
app. Facebook identified the popular and widely used mobile messaging app, WhatsApp, as the
most significant threat in this regard. Once again, though, rather than investing and innovating in
an effort to out-compete WhatsApp, Facebook responded to the competitive threat by acquiring it.
18.

By early 2012, the risk that a successful mobile messaging app available on

multiple mobile operating systems could break into personal social networking had become a
strategic focus for the company’s leadership. In an April 2012 email, for example, Mr. Zuckerberg
identified a troubling global trend of “messaging apps . . . using messages as a springboard to build
more general mobile social networks.” And by October 2012, the threat was widely recognized
within Facebook, with a Facebook business growth director predicting internally that “[t]his might
be the biggest threat we’ve ever faced as a company.”
19.

Facebook’s attention soon focused on WhatsApp, which, by 2012, had become a

uniquely threatening competitor in mobile messaging and an obvious candidate to enter the
personal social networking market. Not locked into a single mobile operating system like Apple’s

6
App.127

iMessage, nor heavily localized in parts of Asia like LINE, Kakao, or WeChat, WhatsApp was the
clear “category leader” in mobile messaging. In an August 2013 email, the head of Facebook’s
internal mergers and acquisitions (“M&A”) group warned that WhatsApp’s “kind of mobile
messaging is a wedge into broader social activity/sharing on mobile we have historically led in
web.”
20.

Once again, Facebook decided it was better to buy than compete. After Facebook

announced the acquisition of WhatsApp, employees internally celebrated the acquisition of
“probably the only company which could have grown into the next FB purely on mobile[.]” Other
industry observers shared that view. For example, investment bank SunTrust Robinson Humphrey
observed in an analyst report: “We think WhatsApp and Facebook were likely to more closely
resemble each other over time, potentially creating noteworthy competition, which can now be
avoided.”
21.

Just as with Instagram, WhatsApp presented a powerful threat to Facebook’s

personal social networking monopoly, which Facebook targeted for acquisition rather than
competition. Facebook’s control of WhatsApp both neutralizes WhatsApp as a direct threat and,
separately, makes it harder for future mobile messaging apps to acquire scale and threaten to enter
personal social networking.
22.

Anticompetitive Conditioning. In addition to its strategy of acquiring competitive

threats to its personal social networking monopoly, Facebook has, over many years, announced
and enforced anticompetitive conditions on access to its valuable platform interconnections, such
as the application programming interfaces (“APIs”) that it makes available to third-party software
applications.

7
App.128

23.

In order to communicate with Facebook (i.e., send data to Facebook Blue, or

retrieve data from Facebook Blue) third-party apps must use Facebook APIs. For many years—
and continuously until a recent suspension under the glare of international antitrust and regulatory
scrutiny—Facebook has made key APIs available to third-party apps only on the condition that
they refrain from providing the same core functions that Facebook offers, including through
Facebook Blue and Facebook Messenger, and from connecting with or promoting other social
networks.
24.

This conduct—which is motivated by a desire to weaken and hinder potential

competitive threats—harms competition and helps maintain Facebook’s monopoly in personal
social networking, in at least two ways.
25.

First, announcing these anticompetitive conditions changed the incentives of third-

party apps that relied upon the Facebook ecosystem, by deterring them from including features
and functionalities that might compete with Facebook or from working in certain ways with other
firms that compete with Facebook. This deterrence suppresses the emergence of threats to
Facebook’s personal social networking monopoly.
26.

Second, enforcing the anticompetitive conditions by terminating access to valuable

APIs hinders and prevents promising apps from evolving into competitors that could threaten
Facebook’s personal social networking monopoly.
27.

Harm to Competition.

Through at least the foregoing conduct, Facebook

suppresses, deters, hinders, and eliminates personal social networking competition, and maintains
its monopoly power in the U.S. personal social networking market, through means other than
merits competition. In doing so, Facebook deprives users of personal social networking in the
United States of the benefits of competition, including increased choice, quality, and innovation.

8
App.129

Facebook cannot justify this substantial harm to competition with claimed efficiencies,
procompetitive benefits, or business justifications that could not be achieved through other means.
28.

By suppressing, neutralizing, and deterring the emergence and growth of personal

social networking rivals, Facebook also suppresses meaningful competition for the sale of
advertising.

Personal social networking providers typically monetize through the sale of

advertising; thus, more competition in personal social networking is also likely to mean more
competition in the provision of advertising.

By monopolizing personal social networking,

Facebook thereby also deprives advertisers of the benefits of competition, such as lower
advertising prices and increased choice, quality, and innovation related to advertising.
29.

Today, Facebook’s course of conduct to unlawfully maintain its personal social

networking monopoly continues, and must be enjoined. Facebook continues to hold and operate
Instagram and WhatsApp, and continues to keep them positioned to provide a protective “moat”
around its personal social networking monopoly. Facebook continues to look for competitive
threats, and will seek to acquire them unless enjoined. Likewise, Facebook’s imposition of
anticompetitive conditions on APIs continued until suspended—at least for the time being—in the
glare of attention from governments and regulators around the globe. Facebook will resume those
policies or equivalent measures unless enjoined.
II. JURISDICTION AND VENUE
A. Jurisdiction
30.

This Court has subject matter jurisdiction over this action pursuant to Sections 5(a)

and 13(b) of the FTC Act, 15 U.S.C. §§ 45(a) and 53(b), and 28 U.S.C. § 1331, 1137(a), and 1345.
This is a civil action arising under Acts of Congress protecting trade and commerce against

9
App.130

restraints and monopolies, and is brought by an agency of the United States authorized by an Act
of Congress to bring this action.
31.

This Court has personal jurisdiction over Facebook because Facebook has the

requisite constitutional contacts with the United States of America pursuant to 15 U.S.C. § 53(b).
32.

Facebook’s general business practices, and the unfair methods of competition

alleged herein, are “in or affecting commerce” within the meaning of Section 5 of the FTC Act,
15 U.S.C. § 45.
33.

Facebook is, and at all relevant times has been, a corporation, as the term

“corporation” is defined in Section 4 of the FTC Act, 15 U.S.C. § 44.
B. Venue
34.

Venue in this district is proper under 15 U.S.C. § 22, 28 U.S.C. § 1391(b)(1), and

15 U.S.C. § 53(b). Facebook resides, transacts business, and is found in this district.
III. THE PARTIES
35.

Plaintiff FTC is an administrative agency of the United States government,

established, organized, and existing pursuant to the FTC Act, 15 U.S.C. §§ 41 et seq., with its
principal offices in the District of Columbia. The Commission is vested with authority and
responsibility for enforcing, among other things, Section 5 of the FTC Act, 15 U.S.C. § 45, and is
authorized under Section 13(b) of the FTC Act, 15 U.S.C. § 53(b), to initiate court proceedings to
enjoin violations of any law the FTC enforces and to seek equitable remedies.
36.

The FTC is authorized to bring this case in federal court because it has reason to

believe that Defendant Facebook is violating or is about to violate a provision of law enforced by
the Federal Trade Commission, and this is a proper case for permanent injunctive relief within the
meaning of Section 13(b) of the FTC Act, 15 U.S.C. § 53(b).

10
App.131

37.

Defendant Facebook is a publicly traded, for-profit company, incorporated in

Delaware and with its principal place of business at 1601 Willow Road, Menlo Park, CA 94025.
Facebook’s principal businesses are in technologies that facilitate digital interactions and
communications, including Facebook Blue, which provides personal social networking;
Instagram, which provides personal social networking; Facebook Messenger, which provides
mobile messaging services; and WhatsApp, which provides mobile messaging services.
IV. INDUSTRY BACKGROUND
A. The Rise of Personal Social Networking and Facebook
38.

In the early 2000s, the widespread use of personal computers enabled a new way

of connecting and communicating with other people online: social networking with friends and
family. Friendster, launched in March 2003, was one of the first personal social networks to gain
significant popularity, and Myspace followed soon after. Half a year later, in February 2004, Mr.
Zuckerberg and his Harvard College classmates launched Facebook (then styled “TheFacebook”).
39.

In contrast to the limited functionalities of email and messaging, personal social

networking gained popularity by providing a distinct and richer way for people to maintain
personal connections. Personal social networking enables people to stay up to date and share
personal content with friends and family, and is an integral part of the daily lives of millions of
Americans.
40.

Through an account on a personal social network, people can post content about

their own lives and interests, and view what personal connections have posted. In doing so, they
can stay up to date about the lives of people they care about. During a single session, a person can
read about one friend’s recent vacation, another friend’s thoughts on a local restaurant, and a
relative’s wedding announcement. And then the person can post her own content, and interact

11
App.132

with her friends’ posts, through comments, replies, and reactions.

Thus, personal social

networking gives people a personalized social space in which they can share content with their
personal connections.
41.

Facebook launched first on college campuses, but within a few years it had

expanded to the general public. Soon after that, Facebook surpassed both Friendster and Myspace,
presenting itself as a more premium, private, and personal social networking experience. By 2009,
Facebook had established itself as the most popular personal social networking provider in the
United States and the world. Facebook has remained the number one provider of personal social
networking in the United States and the world ever since.
42.

Historically, personal social networking providers have refrained from charging a

monetary price for providing personal social networking to users, relying instead on monetizing
user data and engagement through advertising. Personal social networking providers compete for
users on a variety of factors, including quality of the user experience, functionality, and privacy
protection options, among others.
B. Facebook’s Business Model: Selling Advertising Based on Detailed User Data
43.

While there are other ways in which personal social networking could be

monetized, Facebook has chosen to monetize its businesses by selling advertising that is displayed
to users based on the personal data about their lives that Facebook collects.
44.

This has been highly profitable for Facebook. Advertisers pay billions—nearly $70

billion in 2019—to display their ads to specific “audiences” of Facebook Blue and Instagram users,
created by Facebook using proprietary algorithms that analyze the vast quantity of user data the
company collects regarding its users. This allows advertisers to target different campaigns and

12
App.133

messages to different groups of users. Ads displayed by Facebook are interspersed with—and can
be similar in appearance to—user-generated content on each personal social network.
45.

Facebook has recognized the unique characteristics of the advertising that a

personal social network can offer (“social advertising”). For example, in earnings calls, Facebook
Chief Operating Officer (“COO”) Sheryl Sandberg described Facebook Blue as the “world’s first
global platform that lets marketers personalize their messages at unprecedented scale,” and called
Facebook Blue and Instagram the “two most important mobile advertising platforms” in the world.
46.

Social advertising is distinct from other forms of advertising, including other forms

of display advertising, search advertising, and “offline” advertising (e.g., television, radio, and
print).
47.

Social advertising is a distinctive form of display advertising. Display advertising

refers to the display of advertisements—in the form of images, text, or videos—on websites or
apps when a user visits or uses them. Display advertising is distinct from “offline” advertising,
such as TV, radio, and print advertising, because it offers the ability to reach consumers during
their online activity (including during their use of mobile devices like smartphones and tablets),
allows for interactive ads, and permits rich ad targeting to users using personal data generated and
collected through their online activity. Display advertising is also distinct from search advertising,
which is a form of digital advertising that is shown to a person when he or she enters a specific
search term in an online search engine, like Google or Bing. Advertisers buy search advertising
to target consumers who are actively inquiring about a particular type of product or service. By
contrast, display advertising reaches consumers who are not actively querying a search engine,
including consumers who may be further from making a specific purchase decision.

13
App.134

48.

Social advertising is a type of display advertising, but it is distinct in several ways

from the non-social display advertising on websites and apps that are not personal social networks.
For example, in part because users must log in to a personal social network with unique user
credentials, social advertising enables advertisers to target users based on personalized data
regarding users’ personal connections, activities, identity, demographics, interests, and hobbies.
Also, in contrast to display advertising on other websites and apps, social advertising leverages
high engagement and frequent contact with users, as well as the integration of advertisements
directly into a user’s feed of content generated by personal connections (including ads that
resemble “native” content and boosted content). Social advertising also facilitates forms of
engagement with the advertisement that are not available with other forms of display advertising—
such as allowing a user to share an advertisement with a personal connection, or to “like” or follow
an advertiser’s page. Among other things, the foregoing characteristics enable social advertising
providers to sell advertisers access to personally targeted “audiences” of highly engaged users, and
to reach users that need not be actively searching for—or even aware of—the advertised product
or service.
49.

As Ms. Sandberg emphasized in a 2012 earnings call: “[O]n the question of where

advertisers are, you know as I’ve said before, we are a third thing. We’re not TV, we’re not search.
We are social advertising.” Facebook in particular has a preeminent ability to target users with
advertising due to its scale, its high level of user engagement, and its ability to track users both on
and off Facebook properties to measure outcomes.
50.

Facebook’s social advertising business, serving ads to users of its personal social

networks reflecting its vast access to data, is extraordinarily profitable. According to its public

14
App.135

earnings reports, Facebook earns “substantially all of [its] revenue from selling advertising
placements to marketers.”
V. RELEVANT MARKET AND MONOPOLY POWER
A. Personal Social Networking in the United States
51.

The provision of personal social networking services (“personal social networking”

or “personal social networking services”) in the United States is a relevant market.
52.

Personal social networking services are a relevant product market. Personal social

networking services consist of online services that enable and are used by people to maintain
personal relationships and share experiences with friends, family, and other personal connections
in a shared social space. Personal social networking services are a unique and distinct type of
online service. Three key elements distinguish personal social networking services from other
forms of online services provided to users.
53.

First, personal social networking services are built on a social graph that maps the

connections between users and their friends, family, and other personal connections. The social
graph forms the foundation upon which users connect and communicate with their personal
connections, and can reflect friendships, online conversations, a desire to see someone’s updates,
visits to places, and other shared connections to personal interests and activities, including groups,
locations, businesses, artists, and hobbies. Personal social networking providers use the social
graph as the backbone for the features they offer users, including the two other key elements of
personal social networking discussed below.
54.

Second, personal social networking services include features that many users

regularly employ to interact with personal connections and share their personal experiences in a
shared social space, including in a one-to-many “broadcast” format. In this shared social space,

15
App.136

which may include a news feed or other similar feature, users share content—such as personal
updates, interests, photos, news, and videos—with their personal connections. Personal social
networking providers can use the social graph to inform what content they display to users in the
shared social space and when. This generally applies to all forms of content on the personal social
networking service, including user-created content like user “news feed” posts, publisher-created
content like news articles, and advertisements.
55.

Third, personal social networking services include features that allow users to find

and connect with other users, to make it easier for each user to build and expand their set of
personal connections. The social graph also supports this feature by informing which connections
are suggested or available to users.
56.

The relevant geographic market is the United States. The United States is a relevant

geographic market for personal social networking services due to several factors, including
differences in broadband access and social norms that vary at the country level. In addition,
network effects between users are generally stronger between users in the same country, because
for most users the vast majority of relevant friends, family, and other personal connections reside
in the same country as the user. Accordingly, users in the United States predominately share with
other users in the United States. For users in the United States, a personal social networking
service that is not popular in the United States, even if it is popular in another country, is therefore
not reasonably interchangeable with a personal social networking service that is popular in the
United States. Facebook and other industry participants recognize these distinctions and track
their performance, and that of rivals, separately by country.
57.

While users may engage with other websites and apps, other types of internet

services are not adequate substitutes for personal social networking.

16
App.137

58.

Personal social networking is distinct from, and not reasonably interchangeable

with, specialized social networking services like those that focus on professional (e.g., LinkedIn)
or interest-based (e.g., Strava) connections. Specialized networks are designed for, and are utilized
by users primarily for, sharing a narrow and highly specialized category of content with a narrow
and highly specialized set of users for a narrow and distinct set of purposes.
59.

Personal social networking is distinct from, and not reasonably interchangeable

with, online video or audio consumption-focused services such as YouTube, Spotify, Netflix, and
Hulu. Users employ such services primarily for the passive consumption and posting of specific
media content (e.g., videos or music) from and to a wide audience of often unknown users. These
services are not used primarily to communicate with friends, family, and other personal
connections.
60.

Personal social networking is distinct from, and not reasonably interchangeable

with, mobile messaging services. Mobile messaging services do not feature a shared social space
in which users can interact, and do not rely upon a social graph that supports users in making
connections and sharing experiences with friends and family. Indeed, users of mobile messaging
services generally do not and cannot query a mobile messaging service to find contact information
they do not already possess, nor can they query the service to find other users connected to the
people, places, things, and interests that matter to them. Instead, users of mobile messaging
services employ such services primarily to send communications to a small and discrete set of
people generally limited to a set of contacts entered by each user. Mr. Zuckerberg described this
distinction in a 2019 post, calling personal social networking providers like Facebook Blue “the
digital equivalent of a town square,” and contrasting the private communication offered by mobile
messaging apps like WhatsApp as “the digital equivalent of the living room.”

17
App.138

B. Facebook’s Monopoly Power
61.

Facebook provides personal social networking to users via its Facebook Blue and

Instagram services.
62.

Facebook Blue has been the dominant personal social networking provider in the

United States since at least 2011. From the beginning, Mr. Zuckerberg has described Facebook
Blue as being “about real connections to actual friends, so the stories coming in are of interest to
the people receiving them, since they are significant to the person creating them.”

Indeed, in August 2020, Mr.
Zuckerberg testified that “the use cases that we’ve focused on the most over time are helping you
connect . . . with your friends and family.” Similarly, Ms. Sandberg testified in September 2020
that the value Facebook Blue provides to its users is “helping you stay in touch with friends and
family and helping you know what’s going on with them in a very efficient way.”
63.

Instagram provided personal social networking at the time Facebook acquired it.

Instagram’s founders set out to build a “mobile social network” and succeeded in doing so. Since
its founding, Instagram has provided the defining features of personal social networking, including
maintaining a social graph with personal connections, enabling users to interact with their personal
connections and share their personal experiences via a shared social space, including in a one-tomany “broadcast” format, and offering features that allow each user to find and connect with other
users, to build a network of personal connections.
64.

Facebook holds monopoly power in the provision of personal social networking in

the United States, and has held such power continuously since at least 2011. Facebook has

18
App.139

maintained a dominant share of the U.S. personal social networking market (in excess of 60%)
since that time, until the present day. It is likely to continue to hold monopoly power for the
foreseeable future.
65.

Facebook’s dominant position in the U.S. personal social networking market is

durable, due to significant entry barriers, including direct network effects and high switching costs.
Direct network effects refer to user-to-user effects that make a personal social network more
valuable as more users join the service. Direct network effects are a significant barrier to entry
into personal social networking.

Specifically, because a core purpose of personal social

networking is to connect and engage with personal connections, it is very difficult for a new entrant
to displace an established personal social network in which users’ friends and family already
participate.
66.

A potential entrant in personal social networking services also would have to

overcome users’ reluctance to incur high switching costs. Over time, users of a personal social
network build more connections and develop a history of posts and shared experiences, which they
would lose by switching to another personal social networking provider. Further, these switching
costs can increase over time—a form of a “ratchet effect”—as each user’s collection of content
and connections, and investment of effort in building each, continually builds with use of the
service.
67.

Providers of personal social networking typically sell advertising that they display

to their users. Any positive indirect network effects (i.e., increases in the value of one service as
a function of usage of another) between a personal social networking provider’s services to users
and its sale of advertising to advertisers operate in only one direction: users either are indifferent

19
App.140

to the amount of advertising that the personal social networking provider displays, or would prefer
fewer or no advertisements.
VI. ANTICOMPETITIVE CONDUCT
A. Facebook’s Efforts to Deter, Suppress, and Neutralize Personal Social Networking
Competition
68.

Personal social networking is characterized by strong network effects: a provider’s

service is generally more valuable to a user when more of the user’s friends and family are using
that service. Once a personal social network has achieved dominant scale, these effects make
competition and entry harder, even for a rival that users perceive as offering a higher quality
product.
69.

As a result, and as Facebook well understands, the most significant competitive

threats to Facebook Blue may come not from near clones of Facebook Blue, but from differentiated
products that offer users a distinctive way of interacting with friends and family for which
Facebook Blue is not optimized. As Mr. Zuckerberg explained in a February 2012 email: “Once
someone wins at a specific mechanic, it’s difficult for others to supplant them without doing
something different.”
70.

Facebook’s leadership also understands that Facebook Blue’s personal social

networking monopoly is most vulnerable at moments of disruption and transition, when a
competitor may be better placed than Facebook Blue to exploit changes in technology or consumer
behavior. A crucial transition of this kind occurred from about 2010 to 2014 with the proliferation
of smartphones, which transformed the way that users consumed digital services. Mr. Zuckerberg
and other executives realized that Facebook Blue offered a relatively poor experience for mobile
users, and that this made Facebook’s monopoly position more vulnerable than it had ever been.

20
App.141

71.

Facebook navigated this period of transition, and has maintained its monopoly

power in personal social networking thereafter, not by competing on the merits, but rather through
a course of anticompetitive conduct spanning years. This course of conduct includes at least:
a. the acquisition and continued control of Instagram, which has neutralized a
significant independent personal social networking provider;
b. the acquisition and continued control of WhatsApp, which has neutralized a
significant competitive threat to Facebook’s personal social networking monopoly;
and
c. the imposition and enforcement of anticompetitive conditions on access to APIs in
order to suppress and deter competitive threats to its personal social networking
monopoly.
72.

This conduct reflects a deeply rooted view within Facebook that, as Mr. Zuckerberg

put it in a June 2008 internal email, “it is better to buy than compete.” This view recurs in
Facebook’s internal documents. For example, Mr. Zuckerberg noted after the announcement of
the Instagram acquisition that “we can likely always just buy any competitive startups.”
73.

Consistent with this approach, and in addition to the conduct identified above and

described in more detail below, Facebook has tried and failed to buy other companies that have
drawn its competitive attention, including Twitter and Snapchat. For example, in lamenting that
Twitter had “turned down [Facebook’s] offer” to be acquired in November 2008, Mr. Zuckerberg
wrote: “I was looking forward to the extra time that would have given us to get our product in
order without having to worry about a competitor growing.” Similarly, Facebook has made
multiple overtures to acquire

over the years,

21
App.142

.
74.

Facebook has also made a point of attempting to detect and evaluate competitive

threats early, in order to neutralize them before they have a chance to grow fully. Reflecting this
policy, in October 2013, Facebook acquired the user surveillance company Onavo. Onavo
marketed itself to users as providing secure virtual private networking services, but—unknown to
many users—it also tracked users’ online activity.
75.

By acquiring Onavo, Facebook obtained control of data that it used to track the

growth and popularity of other apps, with an eye towards identifying competitive threats for
acquisition or for targeting under its anticompetitive platform policies. As a December 2013
internal slide deck noted: “With our acquisition of Onavo, we now have insight into the most
popular apps. We should use that to also help us make strategic acquisitions.” Facebook also used
Onavo data to generate internal “Early Bird” reports for Facebook executives, which focused on
“apps that are gaining prominence in the mobile eco-system in a rate or manner which makes them
stand out.” Facebook shut down Onavo in 2019 following public scrutiny; however, it continues
to track and evaluate potential competitive threats using other data.
76.

Today, Facebook’s monopolization is ongoing. Facebook continues to hold and

operate Instagram and WhatsApp, which neutralizes their direct competitive threats to Facebook,
and continues to keep them positioned to provide a protective “moat” around its personal social
networking monopoly. Specifically, Facebook recognizes that so long as it maintains Instagram
and WhatsApp operating at scale, it will be harder for new firms to enter and build scale around
their respective mechanics.

Thus, Facebook benefits from precisely the dynamic that Mr.

Zuckerberg emphasized when explaining the value of the Instagram acquisition: “new products

22
App.143

won’t get much traction since we’ll already have their mechanics deployed at scale.” Facebook
continues to look for other competitive threats, and will seek to acquire them unless enjoined from
doing so.
77.

Likewise, Facebook’s imposition of anticompetitive conditions on APIs—

punishing and suppressing some promising threats (e.g., Path, Circle, and various messaging apps)
and preventing and deterring others from even becoming threats in the first place—continued until
recently suspended in the glare of attention from governments and regulators around the globe.
Facebook will resume those policies or equivalent measures unless enjoined from doing so.
B. Facebook Acquired Instagram to Neutralize a Competitor
78.

Beginning around 2010, the widespread adoption of smartphones marked a

significant change in the way that people consumed digital services, with people shifting from
desktop computers to mobile devices. With respect to personal social networking services,
because smartphones are portable and offer integrated digital cameras, social networking with
family and friends through taking, sharing, and commenting on photographs via a mobile app
optimized for that activity became increasingly popular.
79.

But Facebook Blue was struggling to provide a strong user experience for this kind

of personal social networking activity.

It was built and optimized for desktop use, not

smartphones, and its performance for working with and sharing photos on mobile devices was
weak. Facebook feared that its personal social networking monopoly would be toppled by a
mobile-first, photo-based competitor emerging and gaining traction.
80.

It was soon clear that Instagram was just that competitor. Following its launch in

October 2010 for iOS devices, Instagram quickly gained popularity for users seeking a product
that facilitated photo-based social interactions with friends and family.

23
App.144

81.

Instagram’s growth was stellar. It gained 25,000 users on its first day; 100,000

users in a week; 1 million users in less than three months; and 10 million users in less than a year—
all while available only on Apple’s iOS devices and before launching on Android devices.
82.

Facebook watched Instagram’s emergence with mounting anxiety. In February

2011, Mr. Zuckerberg wrote to colleagues: “In 4 months they’re up to 2m users and 300k daily
photo uploads. That’s a lot. We need to track this closely.”
83.

Facebook initially tried to compete on the merits with mobile photo-sharing

capabilities, dedicating significant resources to developing its own camera app, code-named
“Snap.” But despite relentless pressure from senior management, these efforts met with limited
success. In July 2011, one executive demanded: “[W]hy is mobile photos app development
moving so slowly? We still are getting our ass kicked by Instagram.” And by September 2011,
Mr. Zuckerberg was railing: “In the time it has taken us to get ou[r] act together on this[,]
Instagram has become a large and viable competitor to us on mobile photos, which will
increasingly be the future of photos.”
84.

In that same September 2011 email, Mr. Zuckerberg warned that Instagram was a

major threat:
One theme in many of the products we’re about to launch -- News Feed, Timeline,
Open Graph -- is that people love nice big photos. A lot of the time people don’t
even understand how the new News Feed or Timeline work, but they love those
products because of the bigger and richer photos. While this is nice in the short
term, I view this as a big strategic risk for us if we don’t completely own the photos
space. If Instagram continues to kick ass on mobile or if Google buys them, then
over the next few years they could easily add pieces of their service that copy what
we’re doing now, and if they have a growing number of people’s photos then that’s
a real issue for us.
They’re growing extremely quickly right now. It seems like they double every
couple of months or so, and their base is already -5-10m users. As soon as we
launch a compelling product a lot of people will use ours more and future Instagram
users will find no reason to use them. But at the current rate, literally every couple
24
App.145

of months that we waste translates to a double in their growth and a harder position
for us to work our way out of. (Emphasis added.)
85.

Facebook employees scrambled to meet Mr. Zuckerberg’s demands. In an internal

email dated September 13, 2011, Facebook’s Director of Engineering reminded her team: “Zuck
is anxious for the [Facebook] snap app (mainly motivated by a desire to slow down Instagram’s
growth).”
86.

Facebook’s leadership feared not only an independent Instagram, but also an

Instagram in the hands of another purchaser, such as Google (mentioned by Mr. Zuckerberg in the
September 2011 email above), Apple, or Twitter. In April 2012, a Facebook engineer warned Mr.
Zuckerberg of “the potential for someone like Apple to use [Instagram] as a foothold.” And an
investor in Instagram and former Facebook executive underscored the threat of Twitter: “if twitter
and instragram [sic] became one company it would make life more difficult for facebook.”
87.

As Instagram soared, Facebook’s leaders began to focus on the prospect of

acquiring Instagram rather than competing with it. For example, in January 2012, the head of
Facebook’s internal M&A group wrote to Mr. Zuckerberg to suggest “m&a” as a solution to this
problem, in order to increase users’ switching costs, retain engagement, and lock them into
Facebook Blue:
[I] think photos in general and certainly in conjunction with mobile is a weak spot
for us, yet represents a large part of many users[’] engagement on fb. i view this
as both a significant threat (google/picasa/android, instagram, etc.) and
opportunity. . . . imo, photos (along with comprehensive/smart contacts and unified
messaging) is perhaps one of the most important ways we can make switching costs
very high for users - if we are where all users’ photos reside because the upoading
[sic] (mobile and web), editing, organizing, and sharing features are best in class,
will be very tough for a user to switch if they can’t take those photos and associated
data/comments with them. i think this area should be a priority for us organically
and through m&a especially given competitive dynamics. (Emphasis added.)

25
App.146

88.

By February 2012, Mr. Zuckerberg predicted that an independent Instagram could

soon achieve massive scale, and suggested that Facebook should move to acquire it:
If [my analytical] framework holds true, then we should expect apps like Instagram
to be able to grow quite large. If it has 15m users now, it might be able to reach
100-200m in the next 1-2 years. (Intuitively this is not crazy because in the next
year alone iOS should double and it should spread to Android, so even without
further increase in market share it should grow by at least 4x this year.) If those
assumptions hold true, then we should perhaps be more open to buying these
companies than we currently seem to be. (Emphasis added.)
89.

Throughout this period, Mr. Zuckerberg repeatedly explained the case for

acquisition in terms of Instagram’s threat as a personal social networking competitor. In February
2012, he wrote:
I wonder if we should consider buying Instagram, even if it costs ~$500m. . . . For
the network piece, one concerning trend is that a huge number of people are using
Instagram every day -- including everyone ranging from non-technical high school
friends to even FB employees -- and they’re only uploading some of their photos to
FB. This creates a huge hole for us and one that I’m [sic] sure anything we’re going
to do on platform or with social dynamics will completely solve. Sometimes you
don’t want to bug all your FB friends with a lot of photos so you put them in the
photo-posting place instead. With [Facebook] Snap, our basic thesis is that what
people need is a good way to post a bunch of photos on FB. We’re doing some
work on filters but not a ton, and the team is approaching this more as a nice feature
and somewhat of a gimmick. Instagram, on the other hand, is approaching this
problem from the perspective of how to help people take beautiful photos. I think
it’s quite possible that our initial thesis was wrong and that theirs is right -- that
what people want is more to take the best photos than to put them on FB. If so,
[Facebook] Snap might be a good first step but we’d be very behind in both
functionality and brand on how one of the core use cases of Facebook will evolve
in the mobile world, which is really scary and why we might want to consider
paying a lot of money for this. (Emphasis added.)
90.

Later that month, Mr. Zuckerberg wrote in similar terms to Mr. Ebersman:

One business questions [sic] I’ve been thinking about recently is how much we
should be willing to pay to acquire mobile app companies like Instagram and Path
that are building networks that are competitive with our own. These companies
have the properties where they have millions of users (up to about 20m at the
moment for Instagram), fast growth, a small team (10-25 employees) and no
revenue. The businesses are nascent but the networks are established, the brands
are already meaningful and if they grow to a large scale they could be very
26
App.147

disruptive to us. These entrepreneurs don’t want to sell (largely inspired [by] our
success), but at a high enough price -- like $500m or $1b -- they’d have to consider
it. Given that we think our own valuation is fairly aggressive right now and that
we’re vulnerable in mobile, I’m curious if we should consider going after one or
two of them. What do you think about this? (Emphasis added.)
91.

Mr. Ebersman cautioned that acquiring a nascent competitor was a poor reason for

an acquisition since “someone else will spring up immediately in their place” and “[w]e will
always have upstarts nipping at our heels.” But, as Mr. Zuckerberg explained, Mr. Ebersman was
wrong:
It’s a combination of (1) [i.e., neutralizing a potential competitor] and (3)
[integrating acquired products into Facebook]. The basic plan would be to buy
these companies and leave their products running while over time incorporating the
social dynamics they’ve invented into our core products. One thing that may make
[neutralizing a potential competitor] more reasonable here is that there are
network effects around social products and a finite number of different social
mechanics to invent. Once someone wins at a specific mechanic, it’s difficult for
others to supplant them without doing something different. It’s possible someone
beats Instagram by building something that is better to the point that they get
network migration, but this is harder as long as Instagram keeps running as a
product. [Integrating acquired products into FB] is also a factor but in reality we
already know these companies’ social dynamics and will integrate them over the
next 12-24 months anyway. The integration plan involves building their mechanics
into our products rather than directly integrating their products if that makes sense.
By a combination of (1) and (3), one way of looking at this is that what we’re really
buying is time. Even if some new competitors spring[] up, buying Instagram, Path,
Foursquare, etc now will give us a year or more to integrate their dynamics before
anyone can get close to their scale again. Within that time, if we incorporate the
social mechanics they were using, those new products won’t get much traction since
we’ll already have their mechanics deployed at scale. (Emphasis added.)
92.

On March 9, 2012, Mr. Zuckerberg emailed Facebook’s Vice President of

Engineering (and later Chief Technology Officer) Mike Schroepfer to let him know that “Kevin
[Systrom] from Instagram called me yesterday to talk about selling his [company] to us. He said
he thinks he’ll either raise money or sell at $500m.” Mr. Schroepfer replied that “not losing
strategic position in photos is worth a lot of money.”

27
App.148

93.

Similarly, on April 4, 2012, Ms. Sandberg and other senior managers received an

email report that compared usage of Instagram and Facebook Blue on the iPhone, which flagged
that “Facebook is not that far ahead [of Instagram] on iPhone.” Ms. Sandberg forwarded the email
to Mr. Zuckerberg, noting: “This makes me want instagram more[.]”
94.

Meanwhile, Facebook employees continued their efforts to compete with Instagram

by developing a standalone photo-sharing app for the Facebook Blue network. For example, in an
email dated April 3, 2012, Mr. Schroepfer reminded a Facebook engineer, with respect to
Facebook’s own photo app: “[W]e need to get into ship mode asap. Not sure if you saw the recent
instgram [sic] numbers but we just don’t have much time.” The engineer responded a couple of
hours later: “Yeah, Instagram stats are scary and we need to ship asap. I’ll communicate to the
team that we need to enter into launch mode.”
95.

On April 9, 2012, Facebook announced that it had reached an agreement to acquire

Instagram for $1 billion, Facebook’s most expensive acquisition as of that date. Facebook paid a
premium for Instagram, reflecting the significant threat that Instagram posed to Facebook’s
monopoly.
96.

Meanwhile, Facebook employees celebrated the acquisition of an existential threat.

For example, on April 10, 2012—two days after the announcement—the head of Facebook’s
internal M&A group wrote to Mr. Ebersman emphasizing that Instagram had “done a great job in
one of the main tenets of social networking as we know it today (photos), but where social
networking is clearly headed (mobile).” He noted that “their growth trajectory is pretty incredible,
mark asked them yesterday during their visit when they will reach 100m users and they said their
projections are for end of this year.”

28
App.149

97.

Other close observers of Facebook recognized that Facebook had neutralized a

significant competitive threat by buying Instagram. For example, in an email dated April 12, 2012,
a major Facebook shareholder and former Facebook executive wrote to Instagram co-founder
Kevin Systrom:
I have been prodding various FB folks, including Zuck, for at least 6 months to do
this, do it quickly, and do it at any cost. From my perspective the risk of not buying
you guys (and someone like Google snapping you up) was beginning to make me,
and a lot of other major shareholders, extremely uncomfortable. . . . [I]n the last few
years [Facebook] allowed [its] core photos product (and its mobile offering) to
languish. As a result the photos product never realized its ultimate potential, and
worse, it ran the risk of the unthinkable happening - being eclipsed by another
network with a “parallel graph”. As you know, photos is the lifeblood of Facebook,
propping up the whole network through the usage, interaction, and positive feedback
loops it generates, and time on site is directly linked to photo browsing. Going back
to 2005, shortly after I launched photos it was generating ~50% of all Facebook
page views, a stat which remained fairly steady until the introduction of games on
platform. (Emphasis added.)
98.

Less than two weeks after the acquisition was announced, Mr. Zuckerberg

suggested canceling or scaling back investment in Facebook’s own mobile photo app as a direct
result of the Instagram deal, writing in an email dated April 22, 2012: “Examples of things we
could scale back or cancel: . . . Mobile photos app (since we’re acquiring Instagram).” And
Facebook did indeed allow it to die, making only two updates to it before discontinuing it entirely
in 2014.
99.

In the wake of the Instagram acquisition, Facebook employees felt that they no

longer needed to fear that a personal social networking competitor would emerge using mobile
photo-sharing. For example, in an email dated April 23, 2012, a Facebook business development
manager wrote to colleagues that he was unconcerned about the apps Camera+ and Hipstamatic
because, among other things, “Instagram is clear winner on iOS and would [be] difficult to
compete with at this point[.]” In an October 2012 document, a Facebook product director

29
App.150

recognized that its ownership of Instagram meant it “effectively dominate[d] photo sharing,” and
would not be “require[d] to do much work to maintain or extend” that dominance.
100.

Facebook’s acquisition of Instagram neutralized a singularly threatening personal

social networking competitor and an increasingly serious threat to Facebook Blue’s monopoly.
An investor slide deck dated May 31, 2011, underscored Instagram’s founders’ plan “to develop a
complete social networking service.” Mr. Systrom emphasized the breadth of this vision to Mr.
Zuckerberg in private correspondence shortly before the acquisition:
[My vision for Instagram] means not limiting the scope of Instagram to just photos
- but to explore other mediums as well which support the original vision of Burbn
[Instagram’s original name] being to improve the way we communicate and share
in the real world. . . . Is it a next-generation photos app or is it a next-generation
communication app? I don’t mean to get overly philosophical, but the limits of our
ambitions have really yet to be tested, and I want to see that through at least for
now. The desire to have an effect at the scale of FB is real and tangible, and one
that is actually quite hard to balance in our minds. (Emphasis added.)
101.

Instagram also planned and expected to be an important advertising competitor. An

investor slide deck dated May 31, 2011, records Instagram’s plan to earn revenues through mobile
advertising. Likewise, in a January 2012 email, Mr. Systrom explained to an external partner:
“[W]e believe in the long run brands will pay to either be featured, have their content featured, or
run targeted ‘instagrams’ to people as advertisements. Right now we raised enough money that
we can work on building a product people love before going to try to sell to advertisers. We want
an audience first[.]”
102.

By acquiring Instagram, Facebook neutralized Instagram as an independent

competitor to Facebook Blue. Since the acquisition, Facebook has taken actions to reduce the
impact of Instagram on Facebook Blue, confirming that Instagram is a significant threat to
Facebook’s personal social networking monopoly. For instance, after the acquisition Facebook
limited promotions of Instagram that would have otherwise drawn users away from Facebook
30
App.151

Blue. This disappointed Mr. Systrom, who complained in a November 2012 email: “you keep
mentioning how you can’t promote Instagram until you understand it’s [sic] effect on FB
engagement. Who decided this?”
103.

Facebook’s Vice President of Growth responded: “Chris [Cox, Vice President of

Product,] voiced the concern (which btw I agree with) about instagram’s feed cannibalizing our
own / training users to check multiple feeds—which is why we want to first measure the impact
of instagram’s usage on our engagement / wire things up to make sure it is all accretive. . . . I am
not sure growing Instagram blindly through promotions without understanding the impact on FB’s
engagement makes sense[.]”
104.

Nevertheless, despite Facebook’s efforts to minimize Instagram’s impact on

Facebook Blue, Facebook Blue continues to lose ground to Instagram. For example, a

105.

In sum, Facebook’s acquisition and control of Instagram represents the

neutralization of a significant threat to Facebook Blue’s personal social networking monopoly, and
the unlawful maintenance of that monopoly by means other than merits competition. This conduct
deprives users of the benefits of competition from an independent Instagram (either on its own or
acquired by a third party), including, among other things: the presence of an additional locus of
competitive decision-making and innovation; a check on Facebook Blue’s treatment of and level
of service offered to users; an alternative provider of personal social networking for users
untethered from Facebook’s control; and a spur for Facebook to compete on the merits in response.

31
App.152

Facebook’s ownership and control of Instagram also maintains a protective “moat” that deters and
hinders competition and entry in personal social networking.
106.

Facebook cannot substantiate merger-specific efficiencies or other procompetitive

benefits sufficient to justify the Instagram acquisition.
C. Facebook Acquired WhatsApp to Neutralize a Competitive Threat to its Personal
Social Networking Monopoly
107.

Beginning around 2010, as another consequence of the increased popularity of

smartphones, consumers began using mobile messaging services to communicate with one
another. Mobile messaging includes (1) text messaging via short-message-service or multimediamessage-service protocols (“SMS”), and (2) text messaging via internet-based, over-the-top
mobile messaging apps (“OTT mobile messaging services”).

Traditionally, OTT mobile

messaging services have not charged a per-message fee, and have provided improvements over
SMS, like enhanced features for sharing content (e.g., photos, videos, sound clips, and GIFs) and
the option to create persistent groups of users. Since 2011, when the messaging volume of SMS
peaked, the messaging volume of OTT messaging services has grown astronomically.
108.

Facebook’s leadership soon realized that the explosion of OTT mobile messaging

services presented a significant competitive threat to Facebook Blue’s personal social networking
monopoly. In particular, they realized that a mobile messaging app that reached sufficient scale
could, by adding additional features and functionalities, enter the personal social networking
market at competitive scale and undermine or displace Facebook Blue’s personal social
networking monopoly.
109.

Facebook’s leadership feared that mobile messaging would serve as a path for a

serious competitive threat to enter the personal social networking market. For example, in an April
2012 email, a Facebook data scientist noted: “[W]hile these [mobile messaging] apps began as
32
App.153

alternatives to SMS, they are increasingly expanding into domains that more closely resemble
traditional social-networking services.” A couple of weeks later, he wrote again to colleagues:
“We’re continuing to focus on mobile messenger apps. Two takeaways: several of these apps are
trying to expand into more full-fledged social networking; and a number are working on
international expansion but with varying degrees of success.” Likewise, in an August 2013 email,
the head of Facebook’s internal M&A group warned that “the scary part, of course, is that this kind
of mobile messaging is a wedge into broader social activity / sharing on mobile we have
historically led in web.”
110.

Facebook executives and employees saw this as a serious strategic threat. For

example, in an email dated October 4, 2012, Facebook’s Director of Product Management wrote
to colleagues on the subject of competition from mobile messaging services: “[T]his is the biggest
threat to our product that I’ve ever seen in my 5 years here at Facebook; it’s bigger than G+, and
we’re all terrified. These guys actually have a credible strategy: start with the most intimate social
graph (I.e. [sic] the ones you message on mobile), and build from there.”
111.

Similarly, notes included with a February 2013 Facebook board presentation titled

“Mobile Messaging” warned that mobile messaging services were “a threat to our core businesses:
both [with respect to] graph and content sharing. [T]hey are building gaming platforms, profiles,
and news feeds. [T]hese competitors have all the ingredients for building a mobile-first social
network. . . . At its current rate, WhatsApp will be near SMS levels of messaging in 1 year[.]”
112.

Mr. Zuckerberg also recognized the strategic value of mobile messaging services

as popular and important services in their own right. For example, in April 2012, he wrote:
“I actually think that messaging is the single most important app on anyone’s phone. It may not
be the biggest business, but it is almost certainly by far the most used app, and therefore it’s a

33
App.154

critical strategic point for us.” He continued: “Since we bought Instagram (and extended the close
date!), I now feel like we’re ahead in photos but falling increasingly behind in messages.”
113.

Facebook’s fears soon focused on WhatsApp, the leading OTT mobile messaging

services provider and a significant competitive threat to Facebook Blue’s personal social
networking monopoly. Launched in November 2009, WhatsApp’s distinctively strong user
experience and top-grade privacy protection had fueled stellar growth. By February 2014,
WhatsApp had approximately 450 million monthly active users worldwide and was gaining users
at a rate of one million per day, placing it “on a path to connect 1 billion people.”
114.

Unlike other mobile messaging apps that had built a large user base in parts of Asia

but had not made inroads in the West, WhatsApp had not only achieved vast scale in Asia and
Europe, but was also building share in the United States. Unlike Apple’s iMessage app, which is
confined to the iOS operating system on Apple devices, WhatsApp was available on all the major
smartphone operating systems, positioning it as a credible threat to achieve significant crossplatform scale. And unlike traditional SMS, WhatsApp offered a rich content-sharing ability akin
to a social network and increased encryption for privacy-conscious users. As a result, WhatsApp
threatened a move or spin-off into the personal social networking market.
115.

Facebook launched Facebook Messenger, an app that offered OTT mobile

messaging services, in the fall of 2011, in a direct effort to prevent WhatsApp from gaining scale.
On the date of its global launch, the product director of Facebook Messenger wrote to his team
that: “We have a great shot of competing with Whatsapp on being the app for serious mobile
messaging users worldwide. . . . Whatsapp has 15 million (registered?) users. Let’s see how
quickly can we get to 10 million daily actives.”

34
App.155

116.

But Facebook soon realized that it was far behind WhatsApp. To improve its

performance and usage, Facebook would have had to spend considerable resources to catch up.
As Mr. Zuckerberg put it in April 2012:
[R]ight now, aside from Facebook integration, WhatsApp is legitimately a better
product for mobile messaging than even our standalone Messenger app. It’s more
reliable and faster for sending messages. You get better signal and feedback via
read receipts and last seen times. You can even reach most people easily via the
contacts integration. . . . [W]hatsApp sends more mobile messages per day than we
do by more than 2x, and they’re growing about 3x faster week-over-week. This is
a big deal. . . . [U]nfortunately for us, I don’t think there’s any way to directly
minimize the advantage which is their momentum and growth rate. Their growth
comes from the product and network they’ve built, so the best things that we can
do is build out our product and network as well and as quickly as we can.
117.

Facebook executives saw clearly that WhatsApp credibly threatened to increase its

scale in mobile messaging in the United States as it had already done in Europe and elsewhere.
One executive wrote to Mr. Zuckerberg on August 8, 2013: “[I] am really worried . . . these guys
[WhatsApp] are the real deal!” He continued: “With the window of opportunity to solve the
messaging situation shrinking there are a couple of things we might want to add to messenger 3.0
. . . . I will run it by you offline briefly to get your thoughts / see if we should double down now
(it might be now or never given how fast these guys keep growing / the ambitions they are
signaling)[.]” Mr. Zuckerberg responded: “[I]f they build substantive features beyond just making
SMS free, that could be enough for them to tip markets like the US where SMS is still the primarily
[sic] platform.”
118.

Facebook executives and employees repeatedly identified WhatsApp internally as

a unique threat to Facebook Blue that it would not be able to forestall through competition via
Facebook Messenger. For example:
a. In May 2013, a Facebook director of product growth commented of WhatsApp’s
CEO, Jan Koum, that he is “our biggest competitor/threat today[.]”
35
App.156

b. In July 2013, a director of engineering wrote: “‘If we don’t build the thing that kills
Facebook, someone else will,’ and that’s WhatsApp (see below). I personally think
companies like WhatsApp are Facebook’s biggest threat . . . [.]”
c. In August 2013, the Vice President of Growth noted: “We are definitely not playing
in the same field as whatsapp does . . . . [W]e might be already too late as of today
for a ‘start from scratch strategy’ . . . [.]”
d. In September 2013, the Vice President of Growth wrote further that if WhatsApp
became a platform “in a way that makes the user experience better / fuels growth > we are f.ed / this cements them as leader[.]”
119.

Facebook feared not only what WhatsApp would do independently; it also feared

what WhatsApp would do in the hands of another purchaser. As Facebook’s Vice President of
Growth wrote in October 2012, the “[b]iggest problem would be if it lands in the wrong
hands…[.]” Facebook particularly feared an acquisition of WhatsApp by Google. As a manager
of engineering and co-founder of a messaging app that Facebook acquired in 2011 warned
colleagues in October 2012: “[T]he case for Google acquiring WhatsApp has only gotten stronger
in the past 6 months. . . . [I]f [WhatsApp] is acquirable at all, the risks of us not being the acquirer
have grown.” Facebook’s Vice President of Growth agreed: “[T]hat is definitely what I would do
if I was them…[.]”
120.

As with Instagram, Facebook decided to acquire WhatsApp rather than compete

with it, in an effort to neutralize a significant competitive threat to its personal social networking
monopoly. In April 2012, Mr. Zuckerberg wrote: “[I]’m the most worried about messaging.
WhatsApp is already ahead of us in messaging in the same way Instagram was ‘ahead’ of us in
photos.” He added: “I’d pay $1b for them if we could get them.”

36
App.157

121.

Facebook first reached out to WhatsApp about a potential acquisition in November

2012; and it reached out again in February 2014, this time with more success. On February 19,
2014, Facebook announced an agreement to buy WhatsApp for $19 billion. This valuation
reflected the seriousness of the threat that WhatsApp posed to Facebook’s personal social
networking monopoly.
122.

For the second time in two years, Facebook employees celebrated the neutralization

of an existential competitive threat. In an instant message dated February 19, 2014, a Facebook
manager noted approvingly: “[W]orth it. Their numbers are through the roof, everyone uses them,
especially abroad it [sic]. Prevents probably the only company which could have grown into the
next FB purely on mobile[.] . . . [1]0% of our market cap is worth that[.]” (Emphasis added.)
123.

A few days later, a Facebook executive wrote to colleagues summarizing the

WhatsApp acquisition as a “land grab”—a significant response to a limited period of competitive
vulnerability, rather than something that would have to be repeated regularly in the future:
A big concern expressed is that we are going to spend 5-10% of our market cap
every couple years to shore up our position. I like David’s answer that we think
this is a “point in time” where change is coming to the mobile landscape. I hate the
word “land grab” but I think that is the best convincing argument and we should
own that.
124.

Outside Facebook, industry analysts also understood that the WhatsApp acquisition

had neutralized a significant competitive threat to Facebook. The investment bank SunTrust
Robinson Humphrey laid out the case for the deal with remarkable clarity:
[W]e feel it is easy to see why WhatsApp was more than just a “messaging” threat.
Much like how the acquisition of Instagram by Facebook was both an offensive and
defensive move, we think this acquisition not only expands the company’s [total
addressable market] and capabilities but also covers it’s [sic] flank from the fast
growing “messaging companies”. At first glance, one may assume that WhatsApp
is “merely a texting app”. However WhatsApp is much more, sharing 600m photos,
100m videos, 200m voice messages, and 19B messages per day. Moreover, users
can also share locations, places, and communicate 1-to-1 or 1-to-many. Given this
37
App.158

functionality by WhatsApp and the focus of Facebook on communication and
linking the world’s population, we think WhatsApp and Facebook were likely to
more closely resemble each other over time, potentially creating noteworthy
competition, which can now be avoided.
125.

Another firm, Bernstein Research, noted of the deal:

The “distance” between the WhatsApp mobile stream and Facebook’s mobile
Newsfeed is not great and one could see the emergence of another 1 billion user
service that could, over time, become a competitor to Facebook for user
engagement. As an independent company or as part of another business such as
Google, Twitter, or eBay, WhatsApp graph could be extended and used to create a
feasible competitor to Facebook.
126.

By acquiring WhatsApp, Facebook has suppressed the competitive threat that

WhatsApp poses to Facebook’s personal social networking monopoly.

Facebook has kept

WhatsApp cabined to providing mobile messaging services rather than allowing WhatsApp to
become a competing personal social networking provider, and has limited promotion of WhatsApp
in the United States. For example

127.

In sum, Facebook’s acquisition and control of WhatsApp represents the

neutralization of a significant threat to Facebook Blue’s personal social networking monopoly, and
the unlawful maintenance of that monopoly by means other than merits competition. This conduct
deprives users of the benefits of competition from an independent WhatsApp (either on its own or
acquired by a third party), which would have the ability and incentive to enter the U.S. personal
social networking market. Moreover, WhatsApp’s strong focus on the protection of user privacy
would offer a distinctively valuable option for many users, and would provide an important form
of product differentiation for WhatsApp as an independent competitive threat in personal social

38
App.159

networking. Facebook’s ownership and control of WhatsApp also maintains a protective “moat”
that deters and hinders other mobile messaging apps that could credibly threaten to enter the
personal social networking market.
128.

Facebook cannot substantiate merger-specific efficiencies or other procompetitive

benefits sufficient to justify the WhatsApp acquisition.
D. Facebook Maintained and Enforced Anticompetitive Conditions for Platform
Access to Deter Competitive Threats to its Personal Social Networking Monopoly
129.

Facebook launched “Facebook Platform” in 2007 with the goal of becoming the

infrastructure for social interactions on the internet. Facebook Platform encouraged software
developers to build an entire ecosystem of apps and tools—ranging from games and page design
tools to video-sharing tools and e-marketing apps—that interoperate with Facebook Blue, with the
aim of turning Facebook Blue into a dominant platform for apps. As Mr. Zuckerberg put it in June
2009, the “platform strategy” was an effort to “enable us to be the de facto open graph/identity
database that everyone uses in all their applications.”
130.

Since its launch, Facebook Platform has undergone a variety of adjustments and

added functionalities, such as APIs that allowed third-party apps access to Facebook user data. In
2010, Facebook provided third-party apps with access to critical APIs, including the Find Friends
API and other APIs used to access user content from Facebook Blue. The Find Friends API, in
particular, was a valuable growth tool for third-party apps because it enabled users of such apps to
find their Facebook Blue friends who also used the third-party app and to invite those friends who
did not.
131.

Also in 2010, Facebook added the Open Graph API to Facebook Platform, which

enabled third-party apps and websites to add plug-ins, such as the Facebook “Like” button, to their
own services. Using the Like button, Facebook Blue users could like and share their interest in
39
App.160

the third-party app. Third-party apps were motivated to install the Like button and encourage its
use, as a “Like” would be shared on the user’s news feed and profile on Facebook Blue, which
could attract additional users to the third-party app.
132.

Usage of Open Graph grew rapidly. One week after the introduction of Open

Graph, over 50,000 websites had installed Open Graph plug-ins. Those sites realized the
immediate benefits of a massive new distribution channel. By July 2012, Open Graph was being
used to share nearly one billion pieces of social data each day to Facebook Blue, giving Facebook
substantially greater and richer information about its users and their online activities.
133.

This strategy not only integrated users’ online lives and activities more fully into

Facebook Blue; it also drove profits for Facebook. As a Facebook executive summarized it in a
May 2012 email to Facebook COO Sheryl Sandberg: “Because we have this critical mass of
people, that attracts new people to sign up, it attracts developers who want to find customers for
their apps and websites, and it attracts advertisers [who] want to reach the audience” and Facebook
had “[r]eached a size now where you can imagine as a developer that most of your current and
future users/customers are on Facebook[,]” noting that “[7] of the top 10 apps in the Apple App
store are Facebook enabled[.]”
134.

Further, third-party apps helped Facebook grow and provided other forms of value

to Facebook by promoting Facebook around the internet, via the Facebook plug-ins and by
directing social data, such as “Likes,” back to Facebook Blue. Since launching its Facebook
Platform and Open Graph initiatives, Facebook has grown significantly, adding at least 150 million
monthly users each year and serving over 2.7 billion monthly users worldwide today.

40
App.161

135.

With the success of Facebook Platform, Facebook became important infrastructure

for third-party apps and obtained immense power over apps’ developmental trajectories,
competitive decision-making, and investment strategies.
136.

Facebook uses this power to deter and suppress competitive threats to its personal

social networking monopoly. In particular, to protect its personal social networking monopoly,
Facebook adopted conditional dealing policies that limited how third-party apps could use
Facebook Platform. Specifically, between 2011 and 2018, Facebook made Facebook Platform,
including certain commercially significant APIs, available to developers only on the condition that
their apps neither competed with Facebook (including, at relevant times, by “replicating core
functionality” of Facebook Blue or Facebook Messenger), nor promoted competitors. Facebook
punished apps that violated these conditions by cutting off their use of commercially significant
APIs, hindering their ability to develop into stronger competitive threats to Facebook Blue.
137.

These actions, individually and in the aggregate, have suppressed the ability and

incentive of apps in the Facebook ecosystem to become competitive threats to Facebook—and its
personal social networking monopoly—in at least two ways. First, the public announcement and
enforcement of the policies changed the incentives of software developers, deterring them from
developing features and functionalities that would present a competitive threat to Facebook, or
from working with other platforms that compete with Facebook. Second, enforcement of the
policies—i.e., the actual termination of API access for competitive threats that attracted
Facebook’s attention—hindered the ability of individual businesses to threaten Facebook’s
personal social networking monopoly.

41
App.162

1. Facebook’s Anticompetitive Conditions on Platform Access Required
Developers Not to Work with Competitors
138.

From July 2011 until December 2018, Facebook publicly announced and imposed

a set of anticompetitive conditions governing access to Facebook Platform.
139.

On July 27, 2011, Facebook introduced a new policy that “Apps on Facebook may

not integrate, link to, promote, distribute, or redirect to any app on any other competing social
platform.”
140.

This policy was intended to harm the prospects for—and deter the emergence of—

competition, including personal social networking competitors. Indeed, the immediate impetus
for the policy was Google’s launch of the Google+ personal social network. In a July 27, 2011,
email, a Facebook manager explained: “[W]e debated this one a lot. In the absence of knowing
what and how google was going to launch, it was hard to get very specific, so we tended towards
something broad with the option to tighten up as approach and magnitude of the threat became
clear.” Later that same day, another Facebook employee protested the anticompetitive move to
colleagues: “I think its [sic] both anti user and sends a message to the world (and probably more
importantly to our employees) that we’re scared that we can’t compete on our own merits.”
141.

Following that, Facebook imposed several other policies restricting app developers’

use of Facebook Platform, including Facebook APIs. Through these policies, Facebook used its
control over APIs to deter and suppress competition.
142.

September 2012: no exporting data to competitor social networks. On September

12, 2012, Facebook introduced a new policy: “Competing social networks: You [developers] may
not use Facebook Platform to export user data into a competing social network without our
permission[.]”

42
App.163

143.

January 2013: no promotion / data export to any app that “replicates a core

Facebook product or service.” On January 25, 2013, Facebook added a new condition to prevent
developers from “replicating core functionality” (i.e., competing with Facebook), or assisting
others who might do so:
Reciprocity and Replicating core functionality: (a) Reciprocity: Facebook
Platform enables developers to build personalized, social experiences via the Graph
API and related APIs. If you use any Facebook APIs to build personalized or social
experiences, you must also enable people to easily share their experiences back
with people on Facebook. (b) Replicating core functionality: You may not use
Facebook Platform to promote, or to export user data to, a product or service that
replicates a core Facebook product or service without our permission. (Emphasis
added.)
144.

Facebook continued to evaluate further restrictions that would target competitors.

Again, the proposal to further restrict competitors’ access to Facebook Platform fueled internal
dissent, as well as repeated explicit recognition of the importance of API access to the growth and
success of apps and businesses in the Facebook Platform ecosystem. In an email from December
2013, a Facebook software engineer wrote:
[S]o we are literally going to group apps into buckets based on how scared we are
of them and give them different APIs? How do we ever hope to document this?
Put a link at the top of the page that says “Going to be building a messenger app?
Click here to filter out the APls we won’t let you use!” And what if an app adds a
feature that moves them from 2 to 1? Shit just breaks? And a messaging app can’t
use Facebook login? So the message is, “if you’re going to compete with us at all,
make sure you don’t integrate with us at all.”? I am just dumbfounded.
145.

Facebook’s Head of Developer Products responded, noting that Facebook already

targeted competitors for access restrictions: “[Y]eah, not great, but this already happens to some
degree - e.g. Path isn’t allowed to use certain things. . . . [T]he absolute numbers in terms of who
is considered a competitor are pretty small.” Another Facebook engineer agreed: “[m]ore than
complicated, it’s sort of unethical[,]” while an engineering manager noted: “[w]ell, I agree it is
bad[.]” The Head of Developer Products replied: “[S]o, I agree this sucks but you are reading this
43
App.164

too absolutely. . . . [R]ealistically only the top 5 messaging apps will ever raise an eyebrow.” But
the software developer was unsatisfied: “[T]hat feels unethical somehow, but I’m having difficulty
explaining how. It just makes me feel like a bad person.” The Head of Developer Products replied:
“[T]his is kind a [sic] political safety net internally that allows Platform to escape-hatch situations
that the rest of the company isn’t happy about.”
146.

May 2014: Platform 3.0 launches. A new approach—dubbed Platform 3.0—

launched on May 2, 2014. At that time, Facebook terminated all apps’ access to certain APIs,
which included restricting third-party apps from accessing information about their users’ friends
who were not already using that third-party app.
147.

An internal Facebook slide deck from August 21, 2014, summed up the fear of

competition that motivated Facebook to restrict access to its Facebook Platform ecosystem:
“Concern:

App may use Facebook for growth, switch functionality to become [a] direct

competitor[.]”
148.

December 2018: removal of explicit anticompetitive conditioning policy. On

December 4, 2018, Facebook removed its “core functionality” restrictions. The following day, a
Member of the U.K. Parliament published a cache of documents, obtained from litigation between
Facebook and the app Six4Three, highlighting Facebook’s anticompetitive conduct towards app
developers.
149.

Facebook’s suspension of the explicit anticompetitive conditioning policy in

December 2018 was driven by anticipated public scrutiny from the release of the documents, and
did not represent a disavowal by Facebook of the underlying anticompetitive conduct. Having
suspended its anticompetitive platform policies in response to anticipated public scrutiny,
Facebook is likely to reinstitute such policies if such scrutiny passes.

44
App.165

150.

Because access to the relevant APIs is valuable to app developers, Facebook policy

conditions changed the incentives of app developers, and deterred them from developing
competing functionalities or supporting competing social networks.
151.

Moreover, Facebook knew and expected that API access was sufficiently important

to affect the incentives of developers and the developmental trajectories of their apps. Developers
were incentivized to make decisions that would not jeopardize their access to Facebook’s APIs.
An internal Facebook slide deck dated January 2014 dealing with Facebook Platform policies
directly acknowledged the importance of API access, asking whether Facebook was
“[c]omfortable altering / killing prospects of many startups[.]”
2. Facebook’s Enforcement of its Anticompetitive Conditions Deterred Emerging
Threats
152.

Facebook’s actions to enforce these policies by cutting off API access were

generally directed against apps in three groups.
153.

First, Facebook targeted promising apps that provided personal social networking.

For example, Facebook took actions against a personal social networking competitor, Path, which
was founded by a former Facebook manager. In or around April 2013, Facebook terminated Path’s
access to Facebook’s APIs, and Path’s growth subsequently slowed significantly.
154.

The second group of targets were promising apps with some social functionality.

For example, Circle was an app that was attempting to build a local social network that came to
Facebook’s attention in December 2013. In proposing to cut off Circle’s API access, a Facebook
manager emphasized Circle’s competitive promise: “Circle positions itself as the ‘local social
network’ and has seen some strong growth over the last four days (+800K downloads yesterday,
+600K FB logins yesterday, #1 in the App Store in the UK).” While Facebook claimed externally
that the termination was because Circle had “spammed” users, internal correspondence after Circle
45
App.166

had resolved the spam problems revealed the real reason was because Circle posed a threat: “They
are duplicating the [social] graph - and doing a rather excellent job if [sic] it. . . . They are also
very directly creating a competing social network on top of that graph.” Indeed, Facebook
continued to withhold access to its APIs after Circle remedied concerns that Facebook had flagged,
with a Facebook manager stating: “While I appreciate that Circle has done all of the items below
(or agrees to do them), we ultimately still have the replicating core functionality piece, which can’t
be ‘fixed’.” Over the following weeks, Circle’s daily new users dropped from six hundred
thousand per day to nearly zero.
155.

Similarly, in January 2013, Facebook’s Director of Platform Partnerships and

Operations wrote to colleagues: “[T]witter launched Vine today which lets you shoot multiple
short video segments to make one single, 6-second video. As part of their NUX [new user
experience], you can find friends via FB. Unless anyone raises objections, we will shut down their
friends API access today. [W]e’ve prepared reactive PR, and I will let Jana know our decision.”
Mr. Zuckerberg replied: “[Y]up, go for it.” By cutting off Vine, Facebook prevented it from
accessing APIs that would have helped it grow.
156.

The third group of targets were promising apps that offered mobile messaging

services, that were existing competitors of Facebook Messenger, and that ultimately threatened to
develop into competitive threats to Facebook Blue. Throughout 2013, Facebook blocked mobile
messaging apps from using commercially significant APIs. For example, in August 2013,
Facebook undertook an enforcement strike against a number of messaging apps simultaneously,
with the Head of Developer Enforcement directing colleagues to restrict them from “accessing any
read APls beyond basic info[,]” instructing that “we will not be communicating with the
[developers] in any way about these restrictions.”

46
App.167

157.

Thus, Facebook’s enforcement of the conditional platform policies hindered the

ability of individual businesses to grow and threaten Facebook’s personal social networking
monopoly.
158.

Facebook’s enforcement actions also alerted other apps that they would lose access

to Facebook’s APIs if they, too, posed a threat to Facebook’s personal social networking
monopoly. For instance, one third-party app contacted Facebook about its platform practices soon
after Facebook cut off Vine. A Facebook manager reported internally about the third-party app:
“They’re super concerned about the viability of relying on our platform moving forward when
there’s this lingering chance that we can shut them down under grounds like this.”
159.

Collectively, Facebook’s announcement and enforcement of its anticompetitive

conditions have served to hinder, suppress, and deter the emergence of promising competitive
threats to its U.S. personal social networking monopoly. Accordingly, this conduct has contributed
to the maintenance of Facebook’s U.S. personal social networking monopoly.
160.

Facebook cannot substantiate procompetitive benefits sufficient to justify the

anticompetitive conditioning of access to Facebook Platform.
VIII. HARM TO COMPETITION
161.

Through the conduct described above, Facebook has hindered, suppressed, and

deterred the emergence and growth of rival personal social networking providers, and unlawfully
maintained its monopoly in the U.S. personal social networking market, other than through merits
competition.
162.

The conduct described above harmed, and continues to harm, competition by

limiting and suppressing competition that Facebook otherwise would have to face in the provision

47
App.168

of personal social networking. As a result, users of personal social networking in the United States
have been deprived of the benefits of additional competition for personal social networking.
163.

The benefits to users of additional competition include some or all of the following:

additional innovation (such as the development and introduction of new attractive features,
functionalities, and business models to attract and retain users); quality improvements (such as
improved features, functionalities, integrity measures, and user experiences to attract and retain
users); and/or consumer choice (such as enabling users to select a personal social networking
provider that more closely suits their preferences, including, but not limited to, preferences
regarding the amount and nature of advertising, and the availability, quality, and variety of data
protection privacy options for users, including, but not limited to, options regarding data gathering
and data usage practices).
164.

In addition, by monopolizing the U.S. market for personal social networking,

Facebook also harmed, and continues to harm, competition for the sale of advertising in the United
States. In particular, because personal social networking providers typically monetize through the
sale of advertising, Facebook’s suppression of competing personal social networking providers
also has enabled Facebook to avoid close competition in the supply of advertising services.
165.

Competing personal social networking providers would have been close

competitors of Facebook Blue in the supply of advertising. This is because they would have been
able to offer the distinctive advertising features described above that distinguish social advertising
from other forms of display advertising, search advertising, and “offline” advertising. Instagram
and WhatsApp, in particular, were each well-situated to develop into meaningful competitive
constraints on Facebook Blue in the sale of advertising. Instagram’s founders explicitly planned
to develop advertising offerings to monetize the Instagram personal social network. And an

48
App.169

independent WhatsApp that developed a personal social networking offering would have had
incentives to monetize it by offering advertising. Competing social networks may also have
explored and developed alternative advertising models that consumers and advertisers preferred.
166.

Facebook’s anticompetitive conduct to maintain its personal social networking

monopoly therefore also has neutralized, suppressed, and deterred competition for the sale of
advertising, and deprived advertisers of the benefits of additional competition.
167.

The benefits to advertisers of additional competition include some or all of the

following: additional users to advertise to (as a result of increased innovation and improved quality
of personal social networking for users); lower advertising prices (as additional advertising
competition would incentivize reductions in advertising prices); additional innovation (as
additional advertising competition would incentivize the development and introduction of
additional attractive features, functionalities, and business models in order to attract advertisers);
quality improvements (as additional advertising competition would incentivize quality
improvement, such as with respect to transparency, integrity, authentication of ad views, customer
service, accuracy in reporting performance and other metrics, and brand safety measures such as
sensitivity to neighboring content); and/or choice (as additional advertising competition would
enable advertisers to select a personal social networking provider that more closely suits their
preferences, including, but not limited to, preferences regarding different forms of advertising
and/or different options for users).
168.

Facebook cannot establish business justifications or procompetitive benefits in any

relevant market to justify its unlawful and anticompetitive conduct to maintain its personal social
networking monopoly.

49
App.170

IX. VIOLATION OF LAW
Monopolization of Personal Social Networking Arising Under Section 2 of the Sherman Act
169.

The FTC re-alleges and incorporates by reference the allegations in paragraphs 1-

167 above.
170.

At least since 2011, Facebook has had monopoly power in the United States with

respect to personal social networking.
171.

Facebook has willfully maintained its monopoly power through its course of

anticompetitive conduct, including though anticompetitive acquisitions and anticompetitive
conditioning of access to interconnections. Through its course of conduct, Facebook has excluded
competition and willfully maintained its monopoly in personal social networking through means
other than competing on the merits.
172.

Facebook’s course of conduct is ongoing. Facebook continues to hold and integrate

the competitive threats it acquired in Instagram and WhatsApp. Facebook recognizes that its
continued ownership and operation of Instagram and WhatsApp both neutralizes their direct
competitive threats, and creates and maintains a “moat” that protects Facebook from entry into
personal social networking by another firm via mobile photo-sharing and mobile messaging.
Facebook continues to monitor the industry for competitive threats, and likely would seek to
acquire any companies that constitute, or could be repositioned to constitute, threats to its personal
social networking monopoly. Further, having suspended its anticompetitive platform policies in
response to anticipated public scrutiny, Facebook is likely to reinstitute such policies or equivalent
measures when such scrutiny passes.
173.

There is no procompetitive justification for Facebook’s exclusionary conduct in

maintaining its personal social networking monopoly.

50
App.171

174.

Facebook’s anticompetitive acts violate Section 2 of the Sherman Act, 15 U.S.C.

§ 2, and thus constitute unfair methods of competition in violation of Section 5(a) of the FTC Act,
15 U.S.C. § 45(a).
IX. POWER TO GRANT RELIEF
175.

Section 13(b) of the FTC Act, 15 U.S.C. § 53(b), empowers this Court to issue a

permanent injunction against violations of the FTC Act and, in the exercise of its equitable
jurisdiction, to order equitable relief to remedy the injury caused by Facebook’s violations.
X. PRAYER FOR RELIEF
WHEREFORE, the FTC requests that this Court, as authorized by Section 13(b) of the
FTC Act, 15 U.S.C. § 53(b), and pursuant to its own equitable powers, enter final judgment against
Facebook, declaring, ordering, and adjudging:
A. that Facebook’s course of conduct, as alleged herein, violates Section 2 of the
Sherman Act and thus constitutes an unfair method of competition in violation of
Section 5(a) of the FTC Act, 15 U.S.C. § 45(a);
B. divestiture of assets, divestiture or reconstruction of businesses (including, but not
limited to, Instagram and/or WhatsApp), and such other relief sufficient to restore
the competition that would exist absent the conduct alleged in the Complaint,
including, to the extent reasonably necessary, the provision of ongoing support or
services from Facebook to one or more viable and independent business(es);
C. any other equitable relief necessary to restore competition and remedy the harm to
competition caused by Facebook’s anticompetitive conduct described above;
D. a prior notice and prior approval obligation for future mergers and acquisitions;

51
App.172

E. that Facebook is permanently enjoined from imposing anticompetitive conditions
on access to APIs and data;
F. that Facebook is permanently enjoined from engaging in the unlawful conduct
described herein;
G. that Facebook is permanently enjoined from engaging in similar or related conduct
in the future;
H. a requirement to file periodic compliance reports with the FTC, and to submit to
such reporting and monitoring obligations as may be reasonable and appropriate;
and
I. any other equitable relief, including, but not limited to, divestiture or restructuring,
as the Court finds necessary to redress and prevent recurrence of Facebook’s
violations of law, as alleged herein.

52
App.173

App.174

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 1 of 64

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

UNITED STATES OF AMERICA
U.S. Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530
STATE OF ARKANSAS
323 Center Street, Suite 200
Little Rock, AR 72201
STATE OF FLORIDA
PL-01, The Capitol
Tallahassee, FL 32399
STATE OF GEORGIA
40 Capitol Square SW
Atlanta, GA 30334
STATE OF INDIANA
302 West Washington Street
IGCS – 5th Floor
Indianapolis, IN 46204
COMMONWEALTH OF KENTUCKY
1024 Capital Center Drive, Suite 200
Frankfort, KY 40601
STATE OF LOUISIANA
1885 North Third Street
Baton Rouge, LA 70802
STATE OF MISSISSIPPI
P.O. Box 220
Jackson, MS 39205
STATE OF MISSOURI
P.O. Box 899
Jefferson City, MO 65102
STATE OF MONTANA
P.O. Box 200151
Helena, MT 59620

App.175

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 2 of 64

STATE OF SOUTH CAROLINA
1000 Assembly Street
Rembert C. Dennis Building
P.O. Box 11549
Columbia, SC 29211-1549
and
STATE OF TEXAS
P.O. Box 12548
Austin, TX 78711
Plaintiffs,
v.
GOOGLE LLC
1600 Amphitheatre Parkway
Mountain View, CA 94043
Defendant.

COMPLAINT
The United States of America, acting under the direction of the Attorney General of the
United States, and the States of Arkansas, Florida, Georgia, Indiana, Kentucky, Louisiana,
Mississippi, Missouri, Montana, South Carolina, and Texas, acting through their respective
Attorneys General, bring this action under Section 2 of the Sherman Act, 15 U.S.C. § 2, to
restrain Google LLC (Google) from unlawfully maintaining monopolies in the markets for
general search services, search advertising, and general search text advertising in the United
States through anticompetitive and exclusionary practices, and to remedy the effects of this
conduct.

2

App.176

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 3 of 64

I.
1.

NATURE OF THIS ACTION

Two decades ago, Google became the darling of Silicon Valley as a scrappy

startup with an innovative way to search the emerging internet. That Google is long gone. The
Google of today is a monopoly gatekeeper for the internet, and one of the wealthiest companies
on the planet, with a market value of $1 trillion and annual revenue exceeding $160 billion. For
many years, Google has used anticompetitive tactics to maintain and extend its monopolies in the
markets for general search services, search advertising, and general search text advertising—the
cornerstones of its empire.
2.

As in many other businesses, a general search engine must find an effective path

to consumers for it to be successful. Today, general search engines are distributed primarily on
mobile devices (smartphones and tablets) and computers (desktops and laptops). These devices
contain web browsers (software applications for accessing information on the internet) and other
“search access points” that call on a general search engine to respond to a user’s query. Over the
last ten years, internet searches on mobile devices have grown rapidly, eclipsing searches on
computers and making mobile devices the most important avenue for search distribution in the
United States.
3.

For a general search engine, by far the most effective means of distribution is to

be the preset default general search engine for mobile and computer search access points. Even
where users can change the default, they rarely do. This leaves the preset default general search
engine with de facto exclusivity. As Google itself has recognized, this is particularly true on
mobile devices, where defaults are especially sticky.
4.

For years, Google has entered into exclusionary agreements, including tying

arrangements, and engaged in anticompetitive conduct to lock up distribution channels and block
rivals. Google pays billions of dollars each year to distributors—including popular-device
3

App.177

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 4 of 64

manufacturers such as Apple, LG, Motorola, and Samsung; major U.S. wireless carriers such as
AT&T, T-Mobile, and Verizon; and browser developers such as Mozilla, Opera, and UCWeb—
to secure default status for its general search engine and, in many cases, to specifically prohibit
Google’s counterparties from dealing with Google’s competitors. Some of these agreements also
require distributors to take a bundle of Google apps, including its search apps, and feature them
on devices in prime positions where consumers are most likely to start their internet searches.
5.

Google’s exclusionary agreements cover just under 60 percent of all general

search queries. Nearly half the remaining queries are funneled through Google owned-andoperated properties (e.g., Google’s browser, Chrome). Between its exclusionary contracts and
owned-and-operated properties, Google effectively owns or controls search distribution channels
accounting for roughly 80 percent of the general search queries in the United States. Largely as a
result of Google’s exclusionary agreements and anticompetitive conduct, Google in recent years
has accounted for nearly 90 percent of all general-search-engine queries in the United States, and
almost 95 percent of queries on mobile devices.
6.

Google has thus foreclosed competition for internet search. General search engine

competitors are denied vital distribution, scale, and product recognition—ensuring they have no
real chance to challenge Google. Google is so dominant that “Google” is not only a noun to
identify the company and the Google search engine but also a verb that means to search the
internet.
7.

Google monetizes this search monopoly in the markets for search advertising and

general search text advertising, both of which Google has also monopolized for many years.
Google uses consumer search queries and consumer information to sell advertising. In the United
States, advertisers pay about $40 billion annually to place ads on Google’s search engine results

4

App.178

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 5 of 64

page (SERP). It is these search advertising monopoly revenues that Google “shares” with
distributors in return for commitments to favor Google’s search engine. These enormous
payments create a strong disincentive for distributors to switch. The payments also raise barriers
to entry for rivals—particularly for small, innovative search companies that cannot afford to pay
a multi-billion-dollar entry fee. Through these exclusionary payoffs, and the other
anticompetitive conduct described below, Google has created continuous and self-reinforcing
monopolies in multiple markets.
8.

Google’s anticompetitive practices are especially pernicious because they deny

rivals scale to compete effectively. General search services, search advertising, and general
search text advertising require complex algorithms that are constantly learning which organic
results and ads best respond to user queries; the volume, variety, and velocity of data accelerates
the automated learning of search and search advertising algorithms. When asked to name
Google’s biggest strength in search, Google’s former CEO explained: “Scale is the key. We just
have so much scale in terms of the data we can bring to bear.” By using distribution agreements
to lock up scale for itself and deny it to others, Google unlawfully maintains its monopolies.
9.

Google’s grip over distribution also thwarts potential innovation. For example,

one company recently started a subscription-based general search engine that does not rely on
advertising profits derived from monetizing user information. Another, DuckDuckGo,
differentiates itself from Google through its privacy-protective policies. But Google’s control of
search access points means that these new search models are denied the tools to become true
rivals: effective paths to market and access, at scale, to consumers, advertisers, or data.
10.

Google’s practices are anticompetitive under long-established antitrust law.

Almost 20 years ago, the D.C. Circuit in United States v. Microsoft recognized that

5

App.179

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 6 of 64

anticompetitive agreements by a high-tech monopolist shutting off effective distribution channels
for rivals, such as by requiring preset default status (as Google does) and making software
undeletable (as Google also does), were exclusionary and unlawful under Section 2 of the
Sherman Act.
11.

Back then, Google claimed Microsoft’s practices were anticompetitive, and yet,

now, Google deploys the same playbook to sustain its own monopolies. But Google did learn
one thing from Microsoft—to choose its words carefully to avoid antitrust scrutiny. Referring to
a notorious line from the Microsoft case, Google’s Chief Economist wrote: “We should be
careful about what we say in both public and private. ‘Cutting off the air supply’ and similar
phrases should be avoided.” Moreover, as has been publicly reported, Google’s employees
received specific instructions on what language to use (and not use) in emails because “Words
matter. Especially in antitrust law.” In particular, Google employees were instructed to avoid
using terms such as “bundle,” “tie,” “crush,” “kill,” “hurt,” or “block” competition, and to avoid
observing that Google has “market power” in any market.
12.

Google has refused to diverge from its anticompetitive path. Earlier this year,

while the United States was investigating Google’s anticompetitive conduct, Google entered into
agreements with distributors that are even more exclusionary than the agreements they replaced.
Also, Google has turned its sights to emerging search access points, such as voice assistants,
ensuring that they too are covered by the same anticompetitive scheme. And Google is now
positioning itself to dominate search access points on the next generation of search platforms:
internet-enabled devices such as smart speakers, home appliances, and automobiles (so-called
internet-of-things, or IoT, devices).

6

App.180

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 7 of 64

13.

Absent a court order, Google will continue executing its anticompetitive strategy,

crippling the competitive process, reducing consumer choice, and stifling innovation. Google is
now the unchallenged gateway to the internet for billions of users worldwide. As a consequence,
countless advertisers must pay a toll to Google’s search advertising and general search text
advertising monopolies; American consumers are forced to accept Google’s policies, privacy
practices, and use of personal data; and new companies with innovative business models cannot
emerge from Google’s long shadow. For the sake of American consumers, advertisers, and all
companies now reliant on the internet economy, the time has come to stop Google’s
anticompetitive conduct and restore competition.
II.
14.

JURISDICTION, VENUE, AND COMMERCE

The United States brings this action pursuant to Section 4 of the Sherman Act,

15 U.S.C. § 4, to prevent and restrain Google’s violations of Section 2 of the Sherman Act,
15 U.S.C. § 2.
15.

Plaintiffs Arkansas, Florida, Georgia, Indiana, Kentucky, Louisiana, Mississippi,

Missouri, Montana, South Carolina, and Texas by and through their respective Attorneys
General, bring this action in their respective sovereign capacities and as parens patriae on behalf
of the citizens, general welfare, and economy of their respective States under their statutory,
equitable, or common law powers, and pursuant to Section 16 of the Clayton Act,
15 U.S.C. § 26, to prevent and restrain Google’s violations of Section 2 of the Sherman Act,
15 U.S.C. § 2.
16.

This Court has subject matter jurisdiction over this action under Section 4 of the

Sherman Act, 15 U.S.C. § 4, and 28 U.S.C. §§ 1331, 1337(a), and 1345.

7

App.181

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 8 of 64

17.

The Court has personal jurisdiction over Google; venue is proper in this District

under Section 12 of the Clayton Act, 15 U.S.C. § 22, and under 28 U.S.C. § 1391 because
Google transacts business and is found within this District.
18.

Google is a limited liability company organized and existing under the laws of the

State of Delaware, and is headquartered in Mountain View, California. Google is owned by
Alphabet Inc., a publicly traded company incorporated and existing under the laws of the State of
Delaware and headquartered in Mountain View, California. Google engages in, and its activities
substantially affect, interstate trade and commerce. Google provides a range of products and
services that are marketed, distributed, and offered to consumers throughout the United States, in
the plaintiff States, across state lines, and internationally.
III.

INDUSTRY BACKGROUND

A.

Search Engines, Search Advertising, and General Search Text Advertising

19.

In the early 1990s, computer scientists and entrepreneurs explored different ways

to search and index the growing number of internet sites. The first computer program or general
“search engine” that could perform this task was designed in 1990 by a student at McGill
University in Montreal and called “Archie.” Other early general search engines emerged, with
different methods of gathering, organizing, and presenting information about internet sites.
Google’s founders launched their research project “Backrub” on Stanford University’s network
in 1996.
20.

Most modern general search engines use software to “crawl” the internet,

indexing webpages and the information within them. As Google explains, “The web is like an
ever-growing library with billions of books and no central filing system. We use software known
as web crawlers to discover publicly available webpages. Crawlers look at webpages and follow

8

App.182

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 9 of 64

links on those pages, much like you would if you were browsing content on the web. They go
from link to link and bring data about those webpages back to Google’s servers.”
21.

When a search user enters a query into a general search engine, the software uses

algorithms to evaluate the relevance of information on any given webpage to the user’s query.
Depending on the query, some general search engines may also search selected proprietary
databases for pertinent information to offer additional “specialized” search results. The general
search engine then delivers the results on the SERP, with links to, and short descriptions of,
webpages the algorithm has curated and ranked. Sometimes, the general search engine will serve
ads with the search results.
22.

Given the internet’s enormous breadth and constant evolution, establishing and

maintaining a commercially viable general search engine is an expensive process. Google’s
search index contains hundreds of billions of webpages and is well over 100,000,000 gigabytes
in size. Developing a general search index of this scale, as well as viable search algorithms,
would require an upfront investment of billions of dollars. The costs for maintaining a scaled
general search business can reach hundreds of millions of dollars a year.
23.

General search engines are “one-stop shops” consumers can use to search the

internet for answers to a wide range of queries. The United States has only three general search
engines that crawl the internet: Google, Bing, and, to a lesser extent, privacy-focused search
provider DuckDuckGo. DuckDuckGo combines search results from different sources (including
Bing) depending on the search query. A fourth general search engine, Yahoo!, does not currently
crawl the internet and instead purchases search results from Bing.
24.

Consumers can find certain specialized information online using sources other

than general search engines. For example, consumers can search retail marketplaces such as

9

App.183

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 10 of 64

Amazon or eBay to shop for products, or go to Expedia or Priceline to compare airfares. Search
sites that offer users a narrower, focused set of answers to queries are “specialized search
engines.” Specialized search engines are often able to give users deeper topical results than
general search engines by using specialized data or information gathered from users or supplied
by third parties.
25.

Most general search engines do not charge a cash price to consumers. At least

one, Bing, even offers to pay consumers rewards for using its general search engine. That does
not mean, however, that these general search engines are free. When a consumer uses Google,
the consumer provides personal information and attention in exchange for search results. Google
then monetizes the consumer’s information and attention by selling ads.
26.

Search advertising first appeared on Google in 2000. During that same year

Google launched AdWords, its buying platform for search ads. Two years ago, Google rebranded
AdWords as Google Ads.
27.

To sell ads on its SERP, in 2002, Google adopted auctions for keywords;

advertisers would bid on selected keywords, and when those keywords arose in a query, the
winning bidder’s ad was shown. At that time, Google also started using a compensation scheme
where advertisers pay only when the user clicks on the ad, known as cost-per-click pricing. Some
SERP displayed multiple ads. Eventually, Google discovered that it could increase the number of
clicks—and its own profits—by ranking ads to promote those with greater relevance and
therefore higher expected click-through rates. To help determine placement of ads, Google still
uses a “quality score” based on various factors.
28.

Advertisers use various types of ads to achieve different objectives. Marketers and

advertisers typically refer to a “purchase funnel” or “customer acquisition funnel” to describe the

10

App.184

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 11 of 64

average consumer’s various states of mind leading up to a potential purchase, and the type of
advertising most effective at each state. The following is an illustration of the purchase funnel:

The Consumer Purchase Funnel
Ad Recall
Brand Awareness
Brand Interest
Consideration
Favorability
Intent
Purchase
Figure 1
29.

Search ads enable advertisers to target potential customers based on keywords

entered by these users, at the exact moment users express interest in the topic of the queries. For
this reason, search ads are lower in the purchase funnel—closer to the consumer’s ultimate intent
to make a purchase—than other types of ads that are primarily intended to drive brand
awareness. The ability of search ads to provide advertising based on a consumer’s self-disclosed
interests, when the consumer is actively seeking information, makes search ads uniquely
valuable to advertisers.
30.

Historically, general search engines such as Google sold only general search text

ads. General search text ads resemble the organic search results that appear on a SERP—what
Google refers to as the “10 blue links”—but with a subtle notation that they are “ads” or
“sponsored.” Google describes its text ads as follows:

11

App.185

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 12 of 64

Text ads on the Search Network show above and below Google search results. It has three parts: headline text. a
display URL, and description text.

Comprehensive Insurance I Protect Yourself

011

a Budget I Get Your Free Quote Today

~ www.example.com/ insurance

Get affordable & trustworthy insurance. 10% discount on all online quotes. Easily compare insurance plans side-by-side in
just a few seconds.

Figure 2
3 1.

Over time, general search engines also began to sell some specialized search ads,

which promoted specific categories of goods and se1v ices such as retail products, hotel rooms, or
local se1v ices such as locksmith s and plumbers. Figure 3 shows a Google SERP that includes,
from top to bottom, specialized search ads (in this case, Google "Shopping Ads" designed
specifically to sell retail products), a general search text ad, and an organic search result.

Go..,gle

X

best Brown Shoe

Q. All

O

I;;) Images

Shopp,llg

C!] Videos

li1l

News

, More

,!, Q.

Semngs

Too1s

About 1,020,000,000 rOS\lltG (0.44 i.ccond.a)

Ads • See

best Brown Shoe

Shopping Ads

»
Cole Haan
Johnson Oxfor ..

$131 .99
DSW
(122)

Men Edmonds
~ifth Avenut ...

Banana Republic
Men's: Hadl~...

Allen Edmonds
Bond Stteet ca_

$245.00

$158.00

Al en Edmonds
(250)

Banana Republic
special oner

$199.97
Allen Edmonds
(56)

Banana Repubht...

Men's: Nleklas:...
$98.00
Banana Republic
specIaI orre,

Ad · www.toboot.com/ •

Text Ad

To Boot New vorK • Hanctcrafteel Men·s Dress snoes
Look Your Best With Our Handcrafted Shoes. Boots, Anel sneakers. Free Sh~p1ng Ava1able.
Dress Up Wllh Our Handcrafted Shoes. 8001s. And Sneakers Free Shipping On Al Orders.
www.businesslnsider.com • Reviews •

7o of tne best brown dress shoes guys can buy right now ...

Organic Result

Sep 20, 2017 - Check out the best brown dress shoes ror men, befow:Wolf & Shepherd Suiker
Chukka. Jack Elwin Carter Wlnglip Boot Magnanni Golay Cap Toe Oxford. Wolf & Shepherd Blllz
Chelsea Boot. Wolf & Shepherd Closer Cap Toe. Vince Camuto Tallden Wlngllp. Paul Evans
Stewart Penny Loafer Melzan CorUno Spll1 loe Oerby. Nordstrom

Figure 3

12

App.186

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 13 of 64

32.

Some specialized search providers also sell search ads. For example, advertisers

can buy specialized search ads for goods sold on Amazon, hotels presented on Expedia, and local
services listed on Yelp.
33.

As the number of users of a general search engine grows, advertisers benefit

because they want their marketing campaigns to reach large groups of consumers. But users do
not benefit from indirect network effects in an equivalent way. As Google’s Chief Economist has
explained, “users do not decide which search engine to use based on the number of advertisers.”
34.

Today, the search advertising business in the United States is enormous—over

$50 billion per year—and dominated by Google. Because of Google’s user base and scale, the
company’s search ads have become a “must have” for many advertisers. Advertising agencies
and larger companies often have entire groups that manage search advertising, mostly focused on
Google.
B.

Importance of Scale

35.

Scale is of critical importance to competition among general search engines for

consumers and search advertisers. Google has long recognized that without adequate scale its
rivals cannot compete. Greater scale improves the quality of a general search engine’s
algorithms, expands the audience reach of a search advertising business, and generates greater
revenue and profits.
36.

The additional data from scale allows improved automated learning for algorithms

to deliver more relevant results, particularly on “fresh” queries (queries seeking recent
information), location-based queries (queries asking about something in the searcher’s vicinity),
and “long-tail” queries (queries used infrequently).
37.

Scale is also important for search advertising because advertisers pay more to buy

ads from a search provider with a large audience of potentially interested customers. Google can
13

App.187

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 14 of 64

deliver enormous audiences, especially in mobile, which its competitors cannot. Google’s scale
also enables it to better discern which ads are most relevant for which queries.
38.

Further, to recoup the large investment in creating and maintaining a general

search engine, scale is critical to generating the necessary revenues and profits. Even a
competitor that syndicates its search results from other general search engines must make
substantial investments to compete. The most effective way to achieve scale is for the general
search engine to be the preset default on mobile devices, computers, and other devices, as
described in more detail below.
C.

General Search Engine Distribution and Default Status

39.

Search is like many other businesses in that the owners of general search engines

can benefit greatly from a network of distributors to get their products to consumers. Distribution
of general search engines takes place primarily through search access points, such as browsers
and search apps, typically located on mobile devices and computers. More recently, searches
have become available on IoT devices.
40.

General search service providers can enter into agreements with various

distributors, including computer and mobile-device manufacturers, cell phone carriers, and
browser developers, to secure preset default status on computer and mobile-device search access
points.
41.

New computers and new mobile devices generally come with a number of

preinstalled apps and out-of-the-box settings. Computers and mobile devices generally have apps
preinstalled that include search access points, such as browsers, search apps and widgets, and
voice assistants. Mobile devices may also have hardware features—such as a home button
triggering a voice assistant—that a consumer can use to invoke apps with search functionality.
Each of these search access points can and almost always does have a preset default general
14

App.188

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 15 of 64

search engine. Being the preset default general search engine is particularly valuable because
consumers rarely change the preset default.
1.
42.

The Mobile Search Distribution Channel

With roughly 60 percent of searches, mobile devices represent the largest and,

over the last five years, fastest growing search distribution channel.
43.

In the United States, Apple iOS devices—those running on Apple’s proprietary

mobile operating system—account for roughly 60 percent of mobile-device usage. Apple’s iOS
is a closed ecosystem; Apple does not license iOS to third-party mobile-device manufacturers.
Another roughly 40 percent of mobile-device usage comes from devices that use Android, an
open-source mobile operating system controlled by Google. Unlike iOS, Android is licensable,
which means third-party mobile-device manufacturers can use it as the operating system for their
devices. All other mobile operating systems, combined, account for less than one percent of
mobile-device usage in the United States.
44.

General search services can be delivered to mobile-device users through a variety

of search access points, including: (1) a browser, (2) a static search bar (search widget, referred
to in Figure 4 as the QSB or quick search box) on the device’s home screen, (3) a search app,
(4) artificial intelligence software (voice assistants) accessed by a button or voice command and
designed to answer voice-initiated queries, and (5) other apps that link to general search engines,
such as smart keyboards. Figure 4, from a 2018 Google strategy deck, provides a more specific
breakdown of how Google delivers its general search service on Android devices.

15

App.189

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 16 of 64

How do users get to
Google?
•f
es
using entry point

Google App (Icon)

QSB

23

7

·oK Google..

Chrome

L9
Non-Chrome browsers
-1 screen·

OS
•OW, lrld.illll CM, ,

of.,,.,_
'Long Press Home

Other(No1if, shoncuts. etc)
'J.

G
Figure 4
45.

In the United States, both cell phone carriers and manufacturers sell mobile

devices. As discussed above, these phones or tablets typically have search access points preset
with a general search engine as the default. These preset defaults are usually governed by a
distribution or licensing agreement. For instance, Google has contracted with Apple for many
years to preset Google’s search engine as the default for Apple’s Safari browser and, more
recently, other search access points on Apple’s mobile devices. When a consumer takes a new
iPhone or iPad out of its box, all the significant access points default to Google as their general
search provider. Indeed, Google has preset default status for an overwhelming share of the search
access points on mobile devices sold in the United States.
46.

For mobile browsers, Google is the default search provider for both Apple Safari

(approximately 55 percent share) and Google Chrome (over 35 percent share), which together
account for over 90 percent of the browser usage on mobile devices in the United States.

16

App.190

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 17 of 64

47.

Consumers typically do not change their mobile device’s default search functions,

making securing preset default status for search access points important for effective distribution
of general search engines (and delivery of search ads). As one search competitor noted in 2019,
“For the most part, despite the simplicity of changing a default setting to enable customer choice,
experience shows us that users accept the default search experience that comes with their device
or the browser.” This fact is especially true on mobile devices; as Google observed in a 2018
strategy document, “People are much less likely to change [the] default search engine on
mobile.” Alternative methods of obtaining search access points or encouraging general search
engine usage—such as direct marketing to consumers—are not nearly as effective as
preinstalling search access points on mobile devices and computers.
2.
48.

The Computer Search Distribution Channel

When using a computer, most consumers access a general search engine through a

browser, either by (1) typing a query directly into the address bar at the top of the browser, or
(2) visiting a general search engine web page and entering a query. Many browsers default to a
general-search-engine web page as the home or start screen each time a user activates the
browser; this offers users a convenient way to start their search experience.
49.

In the United States, Google Chrome is the leading computer browser, with

almost 60 percent market share. Apple’s Safari browser has approximately 16 percent share on
computers. Mozilla’s Firefox has approximately 7 percent share, and Microsoft’s Edge and
Internet Explorer together have approximately 15 percent share. Other small browsers have a
combined share of less than 4 percent. With the exception of Microsoft, most browser developers
have agreed with Google to preset its search engine as the default search provider.

17

App.191

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 18 of 64

50.

Preset default settings are important for computers. Consumers may not

understand that they can change the browser’s preset default general search engine, or consumers
may not bother to invest the time to make such a switch.
51.

For both mobile and computer search access points, being preset as the default is

the most effective way for general search engines to reach users, develop scale, and become or
remain competitive.
D.

Distribution Agreements in Mobile and Computer Channels

52.

General search services providers typically enter into licensing and distribution

agreements with manufacturers and carriers that distribute mobile devices with search access
points. In the United States, roughly 60 percent of all search queries are covered by Google’s
exclusionary agreements. On mobile devices, Google’s exclusionary agreements cover more than
80 percent of all U.S. search queries.
53.

Of the remaining search queries not covered by Google’s exclusionary contracts,

almost half take place on search access points owned by Google. Google is a vertically integrated
search provider and distributes search in part through several of its own properties, including for
example its browser (Chrome) and phone (Pixel). Between its exclusionary contracts and ownedand-operated properties, Google effectively owns or controls search distribution channels
accounting for roughly 80 percent of the general search queries in the United States.
54.

Google’s distribution agreements come in three basic types, with the specific

terms of each agreement depending upon the counterparty and the search access points at issue.
First, Google requires Android device manufacturers that want to preinstall Google’s proprietary
apps to sign an anti-forking agreement; these agreements set strict limits on the manufacturers’
ability to sell Android devices that do not comply with Google’s technical and design standards.

18

App.192

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 19 of 64

55.

Next, for Android device manufacturers that sign an anti-forking agreement,

Google provides access to its vital proprietary apps and application program interfaces (APIs) for
preinstallation, but only if the manufacturers contractually agree to (1) take a bundle of other
Google apps, (2) make certain apps undeletable, and (3) give Google the most valuable and
important real estate on the default home screen.
56.

Finally, Google provides a share of its search advertising revenue to Android

device manufacturers, mobile phone carriers, competing browsers, and Apple; in exchange,
Google becomes the preset default general search engine for the most important search access
points on a computer or mobile device. As a practical matter, users rarely switch the preset
default general search engine. In many cases, the agreements relating to mobile devices go even
further, expressly prohibiting (1) the preinstallation of any rival general search services, and (2)
the setting of other defaults to rival general search engines. This means that Google is the only
preset default search provider preinstalled on the device.
57.

These agreements work exactly as Google designed them—to foreclose

distribution to Google’s search rivals, weakening them as competitive alternatives for consumers
and advertisers by denying them scale.
1.
58.

Background on Mobile Strategy and Development of Android Ecosystem

Google’s anticompetitive agreements must be understood against the backdrop of

Google’s overall business strategy. When Google was formed and achieved initial success in the
late 1990s and early 2000s, internet searches were almost exclusively performed through
browsers on computers. But as Google told investors in its 2007 Form 10-K: “More individuals
are using non-desktop devices to access the internet. If users of these devices do not widely
adopt versions of our web search technology, products or operating systems developed for these
devices, our business could be adversely affected.”
19

App.193

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 20 of 64

59.

In a mobile world, Google had to deal with mobile device manufacturers (such as

LG, Motorola, and Samsung), and carriers (such as AT&T, T-Mobile/Sprint, and Verizon) that
would hold sway over distribution of search and search ads. Google thus asked internally, “How
can we conquer the world’s major wireless markets simultaneously?”
60.

The answer started with Android, a mobile operating system that Google

purchased in 2005. In 2007, Google released the Android code for free under an open-source
license. Being “open source” means that anyone can access the source code and use it to make
their own, modified operating system—a “fork.” This was key to Android’s adoption.
61.

First, Google’s apparent lack of control over an open-source operating system

attracted skeptical manufacturers and carriers of mobile phones to use Android instead of the
other choices then available. As the Android team leader observed to Google’s board of
directors, “Google was historically seen as a threat” to these distributors. But an open-source
model suggested that they—and not Google—would ultimately retain control over their devices
and the app ecosystem on those devices.
62.

Second, once enough major distributors agreed to use Android, the operating

system attracted developers looking for wide distribution of their apps. As more app developers
focused their efforts on designing Android apps, Android became more attractive to consumers,
which in turn led even more developers to design for Android. The result was a must-have
ecosystem of Android apps.
63.

Third, to help the Android ecosystem achieve critical mass and to advance the

network effects, Google “shared” its search advertising and app store revenues with distributors
as further inducement to give up control. As one senior executive explained about Android
Market, an earlier name for Google’s app store, “Android Market is a bitter pill for carriers, and

20

App.194

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 21 of 64

a generous revenue share is the sugar that makes it go down smoother.” In other words,
beginning over ten years ago, Google used revenue sharing to attract partners to Android; as
discussed below, Google uses revenue sharing to keep them locked in today.
64.

By 2010, the Android team leader noted that “Android is poised for world

domination—the success story of the decade.” He was right; the strategy worked. The “Google
Play” app store has a massive library of apps, making it essential for Android distributors to have
on their devices. As for the operating system itself, it quickly became the dominant licensable
mobile operating system in the United States. In the four years between 2009 and 2012,
Android’s share of licensable mobile operating systems on smartphones in the United States
more than tripled, reaching about 80 percent. Today, Android represents over 95 percent of
licensable mobile operating systems for smartphones and tablets in the United States and
accounts for over 70 percent of all mobile device usage worldwide. The only other mobile
operating system with significant market share in the United States is Apple’s iOS, which is not
licensable.
65.

Control over Android has always been a critical issue. As Google’s Android team

leader asked at the time: “How do we retain control of something we gave away?” Google’s
answer is the set of contractual “carrots” and “sticks” discussed below that empower Google to
“[o]wn the ecosystem” and help thwart any alternative mobile ecosystem from developing that
could support a different search provider.

21

App.195

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 22 of 64

Google's Exclusionary Android Agreements

MADA (Mobile Application
Distribution Agreement)

Anti-forking agreements with
Android device manufacturers

GMS preinstallation agreements with
Android device manufacturers

I

I
I

:

GMS (Google Mobile Services)

CDD (Compatibility

L_ __ Definition

A bundle of APis and Google Apps

Document)

f--:

I
I

I

Technical standards
required for both ACC
andAF A

I
I
I
I

I
I
I
I
I

I
I

I

,----

ACC (Android
Compatibility
Commitment)

1

Anti-forking agreements w ith
Android device manufacturer s
(new as of 2017)

I
I
I
I
I
I
I
I

RSA (Revenue Sharing
Agreement)
Search ads revenue sharing
agreements with carriers and
manufacturers

GPS (Google Play Services)
APis (application p r ogram interfaces)
that allow for featur,es not included with
open-source Android (e.g., push
notifications)

Core Apps

MIA (Mobile Incentive
Agreement)
Replacement for some
manufacturer revenue sharing
agreements

L---· Play Store, Google Search App, Chrome
browser, YouTube, Gmail, Google Maps

Figure 5
2.
66.

Anti-Fragmentation Agreements and Compatibility Commitments
(Android Mobile Devices)

The Android operating system is open source; Google updates the Android code

periodically and makes it publicly available. But Google takes steps to minimize the risk that a
developer creates an Android fork to compete with the Android ecosystem controlled by Google.
By limiting the existence of devices running Android forks, Google limits possible distribution
channels available to its search rivals.
67.

One way Google retains control of the Android ecosystem is through anti-forking

agreements. These agreements broadly prohibit manufacturers from taking “any actions that may
cause or result in the fragmentation of Android.” Notably, “fragmentation” is left undefined,
giving Google wide latitude in practice.

22

App.196

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 23 of 64

68.

Google’s anti-forking agreements specifically forbid manufacturers from

developing or distributing versions of Android that do not comply with Google-controlled
technical standards, as defined in its Android Compatibility Definition Document (CDD).
69.

Two types of anti-forking agreements exist. Before 2017, Google required

distributors to sign Anti-Fragmentation Agreements (AFAs). In 2017, while being investigated
by the European Commission (and long after Google had locked up its monopoly status), Google
began shifting its anti-forking restrictions from AFAs to new Android Compatibility
Commitments (ACCs). Today, Google has an AFA or ACC with the leading Android device
manufacturers, including LG, Motorola, and Samsung.
70.

ACCs are marginally less onerous than AFAs because they allow manufacturers

to build devices or components for third parties to sell to consumers, even if those devices or
components do not comply with Google’s technical standards. But ACCs, like AFAs, prohibit
signatories from manufacturing Android forks of their own, distributing devices with Android
forks, or using their powerful brands to market forks on behalf of third parties. Most well-known
Android manufacturers are bound by AFAs or ACCs.
71.

The AFAs and ACCs do not just restrict manufacturers’ ability to build and

distribute innovative versions of mobile phones. Over time, Google has extended the Android
CDD such that its specifications apply to tablets and emerging technologies such as smart TVs,
watches, and automotive devices. Manufacturers that hope to release Android-based versions of
these products must comply with Google’s standards as well.
3.
72.

Mobile Application Distribution Agreements (Android Mobile Devices)

Manufacturers agree to anti-forking agreements in part because they are a

precondition to receiving a license to distribute devices with must-have proprietary Google apps
and APIs (the set of technical specifications that enable software applications to communicate
23

App.197

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 24 of 64

with each other, operating systems, and hardware). This license is provided only through
preinstallation agreements—called Mobile Application Distribution Agreements, or MADAs.
Leading Android device manufacturers, such as LG, Motorola, and Samsung, are MADA
licensees.
73.

Over time, Google has chosen to include important features and functionality in

Google’s own ecosystem of proprietary apps and APIs, rather than the open-source Android
code. Google refers to this proprietary layer as “Google Mobile Services” (GMS). GMS includes
many popular apps, such as Google’s search app, Chrome, YouTube, and Google Maps. GMS
also includes Google Play, Google’s app store. An app store is one of the most valuable features
of a mobile device because it offers access to compatible apps that do not come preinstalled on
the device. Google Play offers about three million apps, more than any other app store (including
Apple’s App Store, which is compatible only with Apple devices). More than 90 percent of apps
on Android devices are downloaded through Google Play. For years, Google Play has been the
only commercially significant app store option for Android manufacturers.
74.

Another key part of GMS is the set of APIs that allow developers to access certain

important features. The APIs available within GMS are part of “Google Play Services” (GPS).
GPS allows apps, including third-party apps, to perform functions that are not possible using the
open-source version of Android. For example, using the open-source Android system, third-party
apps cannot provide basic “push notifications,” enable in-app purchases through Google Play, or
use data from Google Maps; to have these functionalities, third-party apps must use GPS.
75.

The integration of key functions with GPS makes it more difficult for third-party

Android developers to port their apps to Android forks because the apps are designed to interact

24

App.198

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 25 of 64

with Google’s proprietary APIs. And as the functionality gap between open-source Android apps
and Google’s proprietary apps grows, developers are more dependent on GPS.
76.

Signing a preinstallation agreement is the only way for an Android device

manufacturer to preinstall any Google app, including Google Play. It is also the only way an
Android device manufacturer can gain access to GPS and the APIs many developers need for
their apps to work properly, at least without expensive and time-consuming reprogramming. But
any manufacturer installing Google Play or GPS must preinstall a full suite of apps identified by
Google, including the search access points most frequently used by consumers: Chrome, Google
search app, Google search widget, and Google Assistant. Google’s search engine is the default
on all these search access points. Indeed, Google uses the MADAs to control the appearance of
Android devices, requiring the manufacturer to place the Google search widget on the home
screen, and to preinstall Chrome, the Google search app, and other apps in a way that makes
them undeletable by the user.
77.

Moreover, before 2017, most MADAs also required manufacturers to set Google

as the default general search engine for all key search access points on any device with
preinstalled Google apps—these requirements are now found in the revenue sharing agreements
discussed below.
4.
78.

Revenue Sharing Agreements (Android Mobile Devices)

Google enters into search revenue sharing agreements (RSAs) with Android

manufacturers and carriers. Google generally requires exclusive distribution as the sole preset
default general search service on an ever-expanding list of search access points; in exchange,
Google remits to these companies a percentage of search advertising revenue. Google offers
revenue share to Android device manufacturers only if they are MADA licensees, and Google
offers revenue share to carriers only for devices built by manufacturers that are MADA
25

App.199

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 26 of 64

licensees. The leading U.S. carriers (AT&T, T-Mobile, and Verizon) and the leading Android
device manufacturer (Samsung) have RSAs with Google.
79.

Some of Google’s revenue sharing agreements require blanket coverage for all

Android devices sold by Google’s counterparty. Under this version of the revenue sharing
agreements, the distributor receives a payment from Google only if all the distributor’s Android
devices comply with the exclusivity requirements. Other revenue sharing agreements provide for
a model-by-model choice. Under this version of the agreements, for the distributor to receive a
cut of the advertising revenue from any units of a model, every unit of that model must comply
with the exclusivity requirements.
80.

As innovation has increased the number of search access points on mobile

devices—including smart keyboards and voice assistants—Google has expanded its RSAs to
close off these avenues to search rivals.
5.
81.

Mobile Incentive Agreements (Android Mobile Devices)

In Google’s latest round of negotiations with some Android manufacturers,

Google has replaced RSAs with mobile incentive agreements (MIAs), under which Google pays
manufacturers to (1) forego preinstalling rival general search services on their Android devices
and (2) comply with a significant number of “incentive implementation requirements”—
including preloading up to fourteen additional Google apps. LG and Motorola have MIAs with
Google.
82.

To maximize payments under the MIAs, the manufacturers must also set Google

as the default for all search access points on nearly all of their devices. Moreover, Google
generally retains “sole discretion” to determine what constitutes a “search access point,” and thus
controls the coverage of its exclusive contracts. Although the MIAs change the payment

26

App.200

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 27 of 64

structure for certain manufacturers, the agreements achieve the same end as their predecessors:
search exclusivity for Google.
83.

Today, Google has revenue sharing agreements (RSAs or MIAs) with all major

U.S. carriers and Android device manufacturers, as well as a number of smaller carriers and
manufacturers. Google’s revenue sharing agreements (and preinstallation agreements) with
Android device manufacturers, together, account for more than 30 percent of mobile device
usage in the United States.
6.
84.

Revenue Sharing Agreements (Apple and Others)

Google’s revenue sharing agreements are not limited to its Android partners.

Google has entered into revenue sharing agreements with rival browsers and other device
manufacturers, further blocking off search access points from competition.
85.

Most significantly, Google has had a series of search distribution agreements with

Apple, effectively locking up one of the most significant distribution channels for general search
engines. Apple operates a tightly controlled ecosystem and produces both the hardware and the
operating system for its popular products. Apple does not license its operating systems to thirdparty manufacturers and controls preinstallation of all apps on its products. The Safari browser is
the preinstalled default browser on Apple computer and mobile devices. Apple devices account
for roughly 60 percent of mobile device usage in the United States. Apple’s Mac OS accounts for
approximately 25 percent of the computer usage in the United States.
86.

In 2005, Apple began using Google as the preset default general search engine for

Apple’s Safari browser. In return, Google gave Apple a significant percentage of Google’s
advertising revenue derived from the search queries on Apple devices. Two years later, Google
extended this agreement to cover Apple’s iPhones. In 2016, the agreement expanded further to
cover additional search access points—Siri (Apple’s voice-activated assistant) and Spotlight
27

App.201

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 28 of 64

(Apple’s system-wide search feature)—making Google the preset default general search engine
for both services. Today, Google’s distribution agreement with Apple gives Google the coveted,
preset default position on all significant search access points for Apple computers and mobile
devices.
87.

Today, Google has RSAs with nearly every significant, non-Google browser other

than those distributed by Microsoft, including Mozilla’s Firefox, Opera, and UCWeb. These
agreements generally require the browsers to make Google the preset default general search
engine for each search access point on both their web and mobile versions.
IV.
A.

General Search Services in the United States
1.

88.

RELEVANT MARKETS

General Search Services in the United States Is a Relevant Antitrust
Market

General search services in the United States is a relevant antitrust market. General

search services allow consumers to find responsive information on the internet by entering
keyword queries in a general search engine such as Google, Bing, or DuckDuckGo.
89.

General search services are unique because they offer consumers the convenience

of a “one-stop shop” to access an extremely large and diverse volume of information across the
internet. Consumers use general search services to perform several types of searches, including
navigational queries (seeking a specific website), informational queries (seeking knowledge or
answers to questions), and commercial queries (seeking to make a purchase).
90.

Other search tools, platforms, and sources of information are not reasonable

substitutes for general search services. Offline and online resources, such as books, publisher
websites, social media platforms, and specialized search providers such as Amazon, Expedia, or
Yelp, do not offer consumers the same breadth of information or convenience. These resources

28

App.202

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 29 of 64

are not “one-stop shops” and cannot respond to all types of consumer queries, particularly
navigational queries. Few consumers would find alternative sources a suitable substitute for
general search services. Thus, there are no reasonable substitutes for general search services, and
a general search service monopolist would be able to maintain quality below the level that would
prevail in a competitive market.
91.

The United States is a relevant geographic market for general search services.

Google offers users in the United States a local domain website with search results optimized
based on the user’s location in the United States. General search services available in other
countries are not reasonable substitutes for general search services offered in the United States.
Google analyzes search market shares by country, including the United States. Therefore, the
United States is a relevant geographic market.
2.
92.

Google Has Monopoly Power in the General Search Services Market in
the United States

Google has monopoly power in the United States general search services market.

There are currently only four meaningful general search providers in this market: Google, Bing,
Yahoo!, and DuckDuckGo. According to public data sources, Google today dominates the
market with approximately 88 percent market share, followed far behind by Bing with about
seven percent, Yahoo! with less than four percent, and DuckDuckGo with less than two percent.

29

App.203

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 30 of 64

Search Engine U.S. Market Share
(2009 · 2019)
100
90
80

2!
<1l

--=
Cl)

70
60

..., 50

~

'<1l"' 40
?! 30
20
10
0

.1•

11 _ 11 _ II _ II .. II _ 11 _

11 _ I I

2009

2010

2016

■

2011

Google

2012
■ Bing

2013
■ Yahoo!

2014

2015

■ DuckDuckGo

■

2017

••- ••-

2018

2019

Other

Figure 6
93.

Over the years, Google has steadily increased its dominant position in general

search services. In July 2007, Google estimated its general search services market share at
68 percent. By June 2013, Google estimated that its share in the United States had already
increased to 77 percent on computers. By April 2018, Google estimated that its share was
79 percent on computers and 93.5 percent on mobile. More recently, Google has accounted for
almost 90 percent of all general search engine queries in the United States, and almost 95 percent
of queries on mobile devices. Recent share estimates are in Figures 7 and 8.

30

App.204

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 31 of 64

Mobile Search Engine U.S. Market Share

Computer Search Engine U.S. Market Share

including tablet and mobile

including desktop and laptop

(September 2020)

(September 2020)

Yahoo!
2%

Google _ _
94%

Google _ _
82%

uckDuckGo
2%
\

Othe1·
<1%

Figure 7
94.

Figure 8

There are significant barriers to entry in general search services. The creation,

maintenance, and growth of a general search engine requires a significant capital investment,
highly complex technology, access to effective distribution, and adequate scale. For that reason,
only two U.S. firms—Google and Microsoft—maintain a comprehensive search index, which is
just a single, albeit fundamental, component of a general search engine.
95.

Scale is also a significant barrier to entry. Scale affects a general search engine’s

ability to deliver a quality search experience. The scale needed to successfully compete today is
greater than ever. Google’s anticompetitive conduct effectively eliminates rivals’ ability to build
the scale necessary to compete.
96.

Google’s large and durable market share and the significant barriers to entry in

general search services demonstrate Google’s monopoly power in the United States.
B.

Search Advertising in the United States and General Search Text Advertising in
the United States Are Relevant Antitrust Markets
1.

97.

Search Advertising Is a Relevant Product Market

Search advertising in the United States is a relevant antitrust market. The search

advertising market consists of all types of ads generated in response to online search queries,
including general search text ads (offered by general search engines such as Google and Bing)
31

App.205

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 32 of 64

and other, specialized search ads (offered by general search engines and specialized search
providers such as Amazon, Expedia, or Yelp).
98.

Search ads enable advertisers to target marketing messages in real time in

response to queries entered by a consumer. Thus, a user’s general search query has the important
function to an advertiser of revealing the searcher’s intent. The ability of search ads to respond to
consumer inquiries, at the moment the consumer is investigating a subject relevant to an
advertiser’s product or service, makes these ads highly valuable to advertisers and distinguishes
them from other types of advertising that cannot be similarly targeted, whether online or offline.
99.

Other forms of advertising are not reasonably substitutable for search ads. For

example, “offline” ads such as newspaper, billboard, TV, and radio ads cannot be targeted at a
specific consumer based on the consumer’s real-time, self-disclosed interests. Similarly, other
forms of online ads, such as display ads or social media ads, do not enable advertisers to target
customers based on specific queries and are generally aimed at consumers who are further from
the point of purchase. As Google’s Chief Economist explained: “One way to think about the
difference between search and display/brand advertising is to say that ‘search ads help satisfy
demand’ while ‘brand advertising helps to create demand,’” and “[d]isplay and search
advertising are complementary tools, not competing ones.”
100.

Few advertisers would find alternative sources a suitable substitute for search

advertising. Thus, there are no reasonable substitutes for search advertising, and a search
advertising monopolist would be able to maintain prices above the level that would prevail in a
competitive market.
2.
101.

General Search Text Advertising Is a Relevant Product Market

There also is a relevant product market for general search text advertising that is

wholly contained within the broader search advertising market. General search text ads are sold
32

App.206

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 33 of 64

by general search engines, typically placed just above or below the organic search results on a
SERP, and resemble the organic results that appear on a general search engine’s SERP, with a
subtle notation that they are “ads” or “sponsored.” In contrast, other types of search ads—
specifically, specialized search ads—typically are visually different from general search text ads
and convey different types of information. For example, a Google Shopping Ad normally
includes an image of the product, its price, and star-based ratings (see Figure 3). In 2018, general
search text ads accounted for close to 85 percent of Google’s search ad revenue.
102.

General search text ads are distinct from specialized search ads in ways that limit

their substitutability for most purposes, including their scope of coverage, purpose, format, and
sales process. Indeed, for many advertisers that purchase general search text ads, there are no
reasonable alternatives for these ads, which renders these advertisers particularly vulnerable to
targeted price increases. General search text ads on Google are vitally important for many
different types of advertisers, including companies that prefer to sell directly to consumers from
their own websites and companies that want to protect their brand names on Google.
103.

General search text ads can be delivered in response to search queries related to

any subject that users explore on the internet. General search text ads are offered predominantly
by the two companies that operate general search engines: Google and Microsoft (Bing); Bing
also syndicates general search text ads for Yahoo! and DuckDuckGo. By contrast, other kinds of
search ads are provided by specialized search providers in response to narrower and deeper
searches in their areas of specialization, such as retail (e.g., Amazon), travel (e.g., Kayak), or
local (e.g., Yelp).
104.

General search text ads often target consumers further from an actual sale or

“conversion” than specialized search ads. Users often rely on a general search engine such as

33

App.207

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 34 of 64

Google to start a search of the entire web to explore an interest, consider options, and form a
preference, often about a purchase. An advertiser often will buy a general search text ad to drive
these searchers down the purchase funnel to the advertiser’s website to shop for a product or
service. In part for this reason, specialized search providers, such as Amazon, Expedia, and
eBay, are among Google’s largest customers for general search text ads—i.e., they buy general
search text ads to drive consumers to their specialized search sites, where they then sell
specialized search ads to advertisers who want to reach those interested consumers at or near the
point of purchase. Because general search text ads and specialized ads serve different functions,
advertisers often view these ads as complements.
105.

General search text ads link to the advertiser’s website, so the user can “click out”

to that site. By contrast, ads by specialized search providers often link to webpages on that
specialized search provider’s own website. For example, if a company sells a product on
Amazon and buys an ad on Amazon to promote its product, the ad links to the Amazon page on
which the advertised product can be purchased—not the seller’s own website. This kind of
search ad is called a “click in” ad. Thus, general search text ads can be purchased by advertisers
that do not sell their products or services on specialized search sites (such as Amazon) as well as
advertisers that prefer to sell their products or services directly to consumers.
106.

Few general search text advertisers would find alternative sources a suitable

substitute for general search text advertising. Thus, there are no reasonable substitutes for
general search text advertising, and a general search text advertising monopolist would be able to
maintain prices above the level that would prevail in a competitive market.
3.
107.

The United States Is a Relevant Geographic Market

The United States is a relevant geographic market for both the search advertising

and the general search text advertising markets. Market participants recognize this in the
34

App.208

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 35 of 64

ordinary course of business. For example, Google offers advertisers the ability to target and
deliver ads based on the location of consumers in the United States, and Google search is
customized for particular countries. Google also separately tracks revenue for the United States.
4.
108.

Google Has Monopoly Power in the Search Advertising and General
Search Text Advertising Markets in the United States

Google has monopoly power in the search advertising market. Based on public

estimates of total search advertising spending in the United States, Google’s share of the U.S.
search advertising market is over 70 percent. This market share understates Google’s market
power in search advertising because many search-advertising competitors offer only specialized
search ads and thus compete with Google only in a limited portion of the market.
109.

Google also has monopoly power in the general search text advertising market.

Google’s market share of the U.S. general search text advertising market also exceeds
70 percent. Google’s share of the general search text advertising market well exceeds its share of
the search advertising market.
110.

There are barriers to entry in these advertising markets that protect Google’s

advertising monopolies. Most critically, search advertising of any kind requires a search engine
with sufficient scale to make advertising an efficient proposition for businesses. Specialized
search engines require significant investment, including the cost of populating and indexing
relevant data, distribution, developing and maintaining a search algorithm, and attracting users.
Search advertising of any kind also requires (1) a user interface through which advertisers can
buy ads, (2) software to facilitate the sales process, and (3) a sales and technical support staff.
The same barriers to entry that apply to general search services also protect Google’s general
search text advertising monopoly.

35

App.209

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 36 of 64

V.
111.

ANTICOMPETITIVE CONDUCT

Google is a monopolist in the general search services, search advertising, and

general search text advertising markets. Google aggressively uses its monopoly positions, and
the money that flows from them, to continuously foreclose rivals and protect its monopolies.
112.

Google has unlawfully maintained its monopolies by implementing and enforcing

a series of exclusionary agreements with distributors over at least the last decade. Particularly
when taken together, Google’s exclusionary agreements have denied rivals access to the most
important distribution channels. In fact, Google’s exclusionary contracts cover almost 60 percent
of U.S. search queries. Almost half the remaining searches are funneled through properties
owned and operated directly by Google. As a result, the large majority of searches are covered
by Google’s exclusionary contracts and own properties, leaving only a small fraction for
competitors.
113.

Google’s continued use of the exclusionary agreements over many years, long

after there was any real competition in general search, has denied its rivals access to the scale
that would allow rivals to increase quality. By depriving them of scale, Google also hinders its
rivals’ ability to secure distribution going forward, insulating Google from competition.
114.

Google’s exclusionary motives influence its negotiations with distributors. Some

of these exclusionary agreements have been described by Google as an “[i]nsurance policy that
preserves our search and assistant usage.” To preserve its dominance, Google has developed
economic models to measure the “defensive value” of foreclosing search rivals from effective
distribution, search access points, and ultimately competition. Google recognized it could pay
search distributors to “protect [its] market share from erosion.” Google continues to focus on the
exclusionary defensive value of its distribution contracts as it tries to expand its search
dominance into new distribution channels, such as smart home speakers. Here, Google’s
36

App.210

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 37 of 64

defensive value “is attributable to protecting access to Search and other Google services that may
otherwise be blocked in a given household” if a user chooses a rival.
115.

In sum, Google deprives rivals of the quality, reach, and financial position

necessary to mount any meaningful competition to Google’s longstanding monopolies. By
foreclosing competition from rivals, Google harms consumers and advertisers.
A.

Google’s Agreements Lock Up Mobile Distribution of Search

116.

Launched in the infancy of mobile smartphones, Google’s strategy to ward off

competition for mobile search distribution had two parts. First, Google expanded its existing
search deal with Apple to cover mobile. Second, for other mobile distributors, Google offered its
Android operating system for “free” but with a series of interlocking distribution agreements to
ensure it search-engine dominance in the Android ecosystem.
117.

Google’s strategy worked. Google has almost completely shut out its competitors

from mobile distribution. As one executive for a competing search product recognized in
frustration last year: “Google essentially [has] locked up ALL DISTRIBUTION” with its Apple
deal and restrictive Android licensing terms, leaving the competitor’s product with “no mobile
volume.”
1.
118.

Distribution on Apple iOS Devices

Apple has not developed and does not offer its own general search engine. Under

the current agreement between Apple and Google, which has a multi-year term, Apple must
make Google’s search engine the default for Safari, and use Google for Siri and Spotlight in
response to general search queries. In exchange for this privileged access to Apple’s massive
consumer base, Google pays Apple billions of dollars in advertising revenue each year, with
public estimates ranging around $8–12 billion. The revenues Google shares with Apple make up
approximately 15–20 percent of Apple’s worldwide net income.
37

App.211

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 38 of 64

119.

Although it is possible to change the search default on Safari from Google to a

competing general search engine, few people do, making Google the de facto exclusive general
search engine. That is why Google pays Apple billions on a yearly basis for default status.
Indeed, Google’s documents recognize that “Safari default is a significant revenue channel” and
that losing the deal would fundamentally harm Google’s bottom line. Thus, Google views the
prospect of losing default status on Apple devices as a “Code Red” scenario. In short, Google
pays Apple billions to be the default search provider, in part, because Google knows the
agreement increases the company’s valuable scale; this simultaneously denies that scale to rivals.
120.

Apple’s RSA incentivizes Apple to push more and more search traffic to Google

and accommodate Google’s strategy of denying scale to rivals. For example, in 2018, Apple’s
and Google’s CEOs met to discuss how the companies could work together to drive search
revenue growth. After the 2018 meeting, a senior Apple employee wrote to a Google
counterpart: “Our vision is that we work as if we are one company.”
121.

The current version of the Google–Apple agreement substantially forecloses

Google’s search rivals from an important distribution channel for a significant, multi-year term.
This agreement covers roughly 36 percent of all general search queries in the United States,
including mobile devices and computers. Google estimates that, in 2019, almost 50 percent of its
search traffic originated on Apple devices.
122.

Particularly when considered with the other exclusionary distribution agreements

discussed below, Google’s hold on Apple’s distribution channel is self-reinforcing, impairing
rival general search engines’ ability to offer competitive products and making Google’s
monopolies impenetrable to competitive discipline. By paying Apple a portion of the monopoly
rents extracted from advertisers, Google has aligned Apple’s financial incentives with its own

38

App.212

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 39 of 64

and set the price of bidding for distribution extraordinarily high—in the billions. And, even if a
rival was willing to make no money from a distribution relationship or could afford to lose
money indefinitely, the rival would likely still fall short because the existing distribution
agreements have for more than a decade denied rivals the benefits of scale, thus limiting (1) the
quality of their general search and search advertising products, as well as (2) the audience to
attract advertisers. In other words, because of the longtime deprivation of scale, no other search
engine can offer Apple (or any other partner) the mix of quality, brand recognition, and
economics that market-dominant Google can.
2.
123.

Distribution on Android Devices

Google controls the Android mobile distribution channel with its distributor

agreements and owned-and-operated distribution properties.
124.

Even though Android is open source, Google has used Android to protect

Google’s lucrative general search and search advertising monopolies. Google sets the rules
through anti-forking agreements, preinstallation agreements, and revenue sharing agreements.
Notably, each of these agreements builds on the others to preserve control. Thus, Google will not
pay a revenue share or financial incentive payment on a mobile device unless it is covered by
(1) an anti-forking agreement, (2) a preinstallation agreement ensuring that Google’s search
access points are preinstalled and given prominent placement, and (3) a revenue sharing or
mobile incentive agreement that entitles Google to preset default status and, in most cases,
prohibits preinstallation of search access points with rival general search providers.
125.

Through these interlocking, anticompetitive agreements, Google insulates and

protects its monopoly profits. One internal Google analysis of these restrictive agreements
concluded that only one percent of Google’s worldwide Android search revenue was currently at

39

App.213

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 40 of 64

risk to competitors. This analysis noted that the growth in Google’s search advertising revenue
from Android distribution was “driven by increased platform protection efforts and agreements.”
a)
126.

Anti-Forking Agreements

An alternative operating system could serve as a pathway for distribution of

general search services other than Google. However, Google’s anti-forking agreements inhibit
the development of an operating system based on an Android fork that could serve as a viable
path to market for a search competitor.
127.

Developing an operating system from scratch is extremely expensive, but a

manufacturer could start with existing Android open-source code for a fraction of the cost.
Moreover, the costs to app developers of “porting” GMS-compatible Android apps to an Android
fork are substantially less than developing apps for an entirely new operating system.
128.

Google’s anti-forking agreements, however, have inhibited operating system

innovation through forking, ensuring that manufacturers and distributors are beholden to
Google’s version of Android. Distributors know that any violation of an anti-forking agreement
could mean excommunication from Google’s Android ecosystem, loss of access to Google’s
must-have GPS and Google Play, and millions or even billions of dollars in lost revenue sharing.
Thus, distributors avoid anything that Google might deem “fragmentation”—a term that Google
“purposely leave[s] . . . very vague” and interprets broadly.
129.

Pursuant to the preinstallation agreements discussed below, Google also has final

say over whether a device is found to be compatible with the technical specifications Google
requires manufacturers to meet before they can preinstall GMS. As a Google engineer noted, it
must be “obvious to the [manufacturers] that we are using compatibility as a club to make them
do things we want.” Google views its anti-fragmentation mandate, and its final approval of

40

App.214

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 41 of 64

devices before they launch, as a “poison pill” to prevent deviation from the Google-controlled
Android ecosystem.
130.

Google’s broad interpretation of the anti-forking agreements, and the reluctance it

creates among Android distributors to support alternative versions of Android, presents barriers
to entry. These were on display when Amazon developed its Fire OS operating system, a
competing fork of Android. Rather than preinstall Google’s search engine, GPS, Google Play, or
other Google apps on Fire devices, Amazon preinstalled its own proprietary apps and agreed to
make Microsoft’s Bing the preset default general search engine. Amazon originally sold only
Fire OS tablets, but in 2014 it launched a phone that ran on Fire OS. The phone was not a
commercial success and Amazon quickly exited the phone business. Amazon continues to sell
Fire tablets, which account for less than two percent of mobile device usage in the United States.
131.

Google’s anti-forking provisions and policies limited the growth of Amazon’s

mobile phone, and of Fire OS, because major manufacturers declined to support Amazon’s
phone out of fear doing so would risk their lucrative deals with Google. Manufacturers willing to
work with Amazon did not have the same marketing and logistics capabilities as top
manufacturers. Despite hundreds of millions of dollars in investment over nearly ten years across
tablets and phones, Fire OS still has not reached sufficient critical mass to challenge Google’s
version of Android and provide a significant alternative path to market for search rivals.
132.

No Android fork has made significant inroads to challenge Google for mobile

devices, and there is no meaningful operating system alternative for manufacturers and carriers
to license. These manufacturers and carriers are beholden to Google’s Android ecosystem, which
Google uses to preserve its monopolies in general search, search advertising, and general search
text advertising. Google’s anti-forking agreements further inhibit the development of alternative

41

App.215

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 42 of 64

Android operating systems for the next generation of search distribution channels, such as smart
watches, smart speakers, smart TVs, and connected automobiles.
b)
133.

Preinstallation Agreements

Google uses preinstallation agreements—MADAs—to ensure that its entire suite

of search-related products is given premium placement on Android GMS devices. Consumers
naturally and regularly turn to these prominently placed search access points to conduct searches.
Preinstallation agreements also reinforce Google’s anti-forking requirements, either by including
an anti-forking clause of their own or, more commonly, requiring device manufacturers to be
signatories to an anti-forking agreement.
134.

If a manufacturer wants even one of Google’s key apps and APIs, the device must

be preloaded with a bundle of other Google apps selected by Google. The six “core” apps are
Google Play, Chrome, Google’s search app, Gmail, Maps, and YouTube. Manufacturers must
preinstall the core apps in a manner that prevents the consumer from deleting them, regardless of
whether the consumer wants them. These preinstallation agreements cover almost all Android
devices sold in the United States.
135.

Google’s preinstallation agreements effectuate a tie, that is, they condition the

distribution of Google Play and GPS to the distribution of these other apps. This tie reinforces
Google’s monopolies. The preinstallation agreements provide Android device manufacturers an
all-or-nothing choice: if a manufacturer wants Google Play or GPS, then the manufacturer must
also preinstall, and in some cases give premium placement to, an entire suite of Google apps,
including Google’s search products. The forced preinstallation of Google’s apps deters
manufacturers from preinstalling those of competitors. This forecloses distribution opportunities
to rival general search engines, protecting Google’s monopolies.

42

App.216

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 43 of 64

136.

Google recognizes it could “make [the] phone experience better for user[s] by

ensuring . . . preloaded apps are deletable.” In large part, this is because “[u]sers can free up
space by deleting apps they don’t want.” Consumers desiring to use non-Google search access
points thus suffer because they cannot save storage space on their devices by deleting unwanted
Google apps. In this way, manufacturers must agree to make their phones less attractive to
consumers to accommodate Google’s efforts to lock up search distribution.
137.

Once the manufacturer adopts the necessary suite of Google apps, the search

access points of those apps are preset to default to Google’s search engine. For example, the
preinstalled version of Chrome is preset to default to Google search. A senior executive at
Google referred to changing Chrome’s preset search default as “totally off the table” and insisted
that if a manufacturer “values their MADA, they cannot modify Chrome’s settings.” The result is
that Google locks up the access points to general search on Android phones, as shown in
Figure 9:
How Google Locks up Search Distribution on Android
Other search access
points, such as smart
keyboru:ds, default to
Google search

Requil:ed preinstalled
Google apps,
including search app,
on home screen

Google as exclusive ................ ,.
search bar ("widget")
◄

...........

............
Google set as
exclusive search on
the "minus 1 screen,"
often found by
swiping right from
the home screen

:
Requil:ed preinstalled
\
default browser
. ........ L..........
(Chrome or nonChrome) with Google
set as default search

(

Google Assistant as exclusive
voice assistant, and home button
must activate Google Assistant

Figure 9

43

App.217

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 44 of 64

138.

The preinstallation agreements are even more pernicious than basic ties because

these agreements force distributors to configure the appearance of their phones to Google’s
specifications. For example, they require manufacturers to put the Google search widget on the
device’s default home screen. Google considers the search widget “an essential part of the
Google brand” and rejects requests by manufacturers to waive the preinstallation agreement’s
search-widget requirement. This locks up another search access point, as it would be impractical
for a manufacturer to preinstall two search widgets on the same home screen.
139.

Google’s preinstallation agreements also impose voice-search preferencing. In

addition to requiring the preinstallation of Google Assistant, preinstallation agreements require
manufacturers to (1) implement a Google hotword, which activates Google Assistant, and
(2) ensure certain touch actions on the device’s home button directly access Google Assistant or
Google. Google’s agreements with most manufacturers also (3) set Google Assistant as the
default assistant app.
140.

Rivals to Google Assistant are deprived of the same opportunities. Most of

Google’s preinstallation agreements prevent rival assistants from being the preset default or
using a home button. Google also handicaps rival assistants by limiting the APIs that non-Google
apps can use, ensuring that the useful features, such as “always on” microphone access that
would enable the use of a hotword or the initiation of phone calls, are available only to Google
Assistant. Even Google Assistant’s chief rival—Amazon’s Alexa—is unable to navigate these
disincentives to get significant preinstallation or functional integration on Android devices.
141.

Voice search is an important, emerging access point. Internal Google documents

have recognized that the “[v]oice platform will become the future of search” and financial
projections for the assistant category recognize “search defensive value.”

44

App.218

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 45 of 64

142.

Partners that depart from the preinstallation agreements risk discipline from

Google. For example, in 2011, one major electronics manufacturer considered giving a group of
consumers outside the United States a choice between two home screen experiences for their
device: one home screen with the Google search widget and a second home screen with a rival
search widget. Discussing this proposal with colleagues, one Google employee noted “[a]llowing
a mode that does not have Google as the default search provider and completely changes the
home screen” would violate Google’s terms and risk breach.
143.

In 2015, Google was concerned that a major United States carrier would ask

manufacturers to install a search widget powered by the carrier’s in-house search engine.
Google’s Vice President of Partnerships wrote to a colleague that Google needed to make clear
to manufacturers that “[these] customization requests will not go far” and replacing the Google
search widget with a different search box would violate the preinstallation agreement.
Termination of this default agreement would, in turn, prohibit access to the entire GMS suite,
including Google Play and GPS, and forfeit any potential cut of Google’s search advertising
revenue under a revenue sharing agreement. In short, as the above examples illustrate, Google’s
documents show its efforts to discipline its counterparties, including major electronics companies
and carriers.
c)
144.

Revenue Sharing Agreements

In exchange for a substantial portion of Google’s search advertising revenues,

Android distributors agree to make Google the preset default general search engine for all
significant search access points on the device. In addition, these agreements typically contain an
exclusivity provision prohibiting the preinstallation of a competing general search service.
145.

Google has recognized for some time that its revenue sharing agreements with

Android device manufacturers and carriers provide exclusivity for its general search service on
45

App.219

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 46 of 64

those devices. As stated explicitly in a draft 2014 Google strategy deck in Figures 10 and 11
below, Google’s revenue sharing arrangements with Android manufacturers or OEMs “provide
exclusivity of Search” and its deals with carriers similarly “prevent[] the pre-installation of other
Search engines or browsers,” thus enabling Google “to protect Search exclusivity on the device
as it makes its way to the user.”
Go gle In 2014, we paid $217M to Android OEMs to distribute search
MADA (Mobile Applicatio n Distribution Agreement): Provide, OEM's

with the license to dostnbuto/pre-load Google S8N1Ce$ on their Android•

based smartphones
Top search bar: Google derault search on top
search bar. powered by GSA

Primary home screen: Plac.ement of Google

!Older with spec,fied set Of apps. Play Store
placement, Chrome Browser
Within Google fo lder:

Placement or specific apps.
including Maps, Gmail,
Google+, Photos. YouTube,

''Revshare d eals provide exclusivity
of Search on devices - can provide
more stringent requirements as a
result of payment ... since 2012
renegotiation of deals have brought
revshru·e % down substantially"
(emphasis added)

Hangouts

•

MADA ensures placement and discoverability of Google search and Play Store on the o • o (thro
does not provide exclusivity (OEM is free to pre-load anything else on the phone)

•

GSA or Chrome) and

~~

I

•
•

OEM revshare deals are global • however we only pay OEMs ,rwe do not have a competing dea( w,th a earner (next slide

33

Figure 10 (Android manufacturers)
Go gle In 2014, we paid $460M to Carriers to distribute search

s

"Alternate
search app
cannot be
pre­
installed"
(emphasis
added)

Similar to OEM revshare deals, our current standard revshare
Is 16% on Search • renegotiation of these deals have also
brought revshare % down on carrier devices
We also pay carriers on Play purchases through the Direct
Carrier Billing payment method • current revshare is 15% on
Apps. and 6% on Content (music, movies, books)

"Carrier Revshare D eal s: As par t of
our carrier deals, Android devices
distributed by the carrier will h ave
exclusivity of Google search on the
device, preventing the pre­
installation of other Search engines
or browser s ... By having these deals in
place (especially in markets that are
dominated by carrier retail distribution,
such as the US) we are able to protect
Search exclusivity on the device as it
makes its way to the user" (emphasis
added)

Prs ne

34

Figure 11 (Android carriers)
46

App.220

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 47 of 64

146.

Similarly, one Google executive acknowledged that exclusivity is “the general

philosophy of the RSA or one of the tenets of the value exchanged in the RSA.” Another Google
executive noted, “our philosophy is that we are paying revenue share *in return for* exclusivity.”
These agreements are, as that executive further explained, “really important” because “otherwise
Bing or Yahoo can come and steal away our Android search distribution at any time.”
147.

As Google’s documents recognize, the preinstallation agreements and revenue

sharing agreements work together as a belt-and-suspenders strategy for driving searches to
Google (and therefore away from competitors) on Android devices. As one Google executive
explained in 2017, Google uses revenue sharing agreements “as a lever for motivating partner
behavior that is consistent with our goals for Google and the ecosystem,” and to “drive
incremental revenue (securing search defaults not covered by MADA).” By using its monopoly
profits, Google is able to secure even “more stringent requirements” on manufacturers and
carriers to obtain the preset default position on search access points not covered by the
preinstallation agreements. The combined result of Google’s preinstallation and revenue sharing
agreements is to lock up all the main pathways through which consumers access search on
Android devices, thus foreclosing rivals and protecting Google’s monopoly positions.
148.

The size of Google’s payments to Android distributors demonstrates the

enormous value of default status and exclusivity provided by the agreements. Last year, Google
paid major U.S. carriers, collectively, more than a billion dollars.
149.

Other channels of distribution left for competitors are far inferior to those paid for

by Google and protected by its agreements. For example, a consumer can in theory download a
competing search app on his or her own. But as one of Google’s executives bluntly put it, “most

47

App.221

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 48 of 64

users just use what comes on the device” and do not attempt to download or use other general
search services.
150.

Google’s revenue-sharing partners turn down opportunities to preinstall or

otherwise enable innovative, search-related apps because those new partnerships could violate
Google’s demand for exclusivity.
151.

Google also uses its agreements to ensure that new search access points are not

available to competitors. For example, Google developed a smart keyboard—a mobile app that
can be used as an alternative for the standard-issued keyboards on smart phones—with the
recognition that such keyboards might be “the next big search access point.” Google relies on its
preinstallation and default restrictions in its revenue sharing agreements as a “strategic defense”
against rival keyboards that might provide a “[b]ridge” to rival general search engines. Thus,
search queries cannot leak out to Google’s rivals even in niche areas.
152.

Google likewise structures its agreements to penalize any distributor that might

walk away, tying them to Google. The typical term of the carrier and manufacturer revenue
sharing agreement is two to three years. If a carrier or manufacturer does not renew its revenue
sharing agreement with Google, the distributor loses out on revenue share not only for new
mobile devices but also for the phones and tablets previously sold and in the hands of consumers.
This provision is punitive to the carrier or manufacturer and helps to ensure that carriers and
manufacturers will not stray from Google.
153.

To be attractive to a carrier or manufacturer, a rival search provider’s offer for

preset default status would need to cover not only the revenue the carrier or manufacturer would
have earned from Google for new devices, but also the revenue that the carrier or manufacturer
would have earned on all the devices that are currently in the hands of consumers. Google will

48

App.222

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 49 of 64

continue to benefit from those devices with defaults previously set to Google. A rival search
provider is left with no practical way to ensure that it will generate revenues from those devices,
regardless of how competitive its general search service might otherwise be.
154.

In roughly a decade, no other general search provider has secured preset default

search status on any preinstalled search access point on GMS Android devices. As with the
Apple distribution agreements, the Android distribution agreements—taken together—are selfreinforcing, depriving rivals of the quality, audience, and financial benefits of scale that would
allow them to mount an effective challenge to Google.
155.

Particularly for newer entrants, the revenue sharing agreements present a

substantial barrier to entry. These entrants cannot pay the billions of dollars that Google does for
the most effective forms of distribution—premium placement and default status. Instead, they are
relegated to inferior forms of distribution that do not allow them to build scale, gain brand
recognition, and generate momentum to challenge Google.
B.

Google Agreements Lock Up Browser Distribution

156.

Beyond its agreements locking up distribution on Android and Apple devices,

Google also has entered into exclusive revenue sharing agreements with browsers. Google has
recognized it is “crucial to retain web browser partnerships.” Google’s agreements with browsers
generally require the browsers to make Google the preset default general search engine for
search access points in both the browser’s computer and mobile versions.
157.

In exchange for being the preset default general search engine, Google shares up

to 40 percent of the advertising revenue it generates from these search access points with
Google’s browser rivals. Browser revenue sharing agreements typically last at least two years
and are routinely extended.

49

App.223

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 50 of 64

158.

Browsers are one of the most important distribution channels for general search

services because they are the gateway to the internet for most consumers. Many search queries
on mobile devices and computers are performed through the device’s browser. Today, Google
has revenue sharing agreements with the most widely used browsers in the United States, such as
Apple’s Safari browser and Mozilla’s Firefox browser; Microsoft’s browsers are the only notable
exceptions. Over 85 percent of all browser usage in the United States occurs on Google’s own
Chrome browser or on one of the browsers covered by these revenue sharing agreements.
159.

In a competitive market, rivals could compete to be the preset default general

search engine on a browser. The general search services market has not, however, been
competitive for many years. When considered with Google’s other exclusionary agreements and
its monopoly power, Google’s conduct forecloses a critical avenue for search competitors to
enter the market or increase distribution. In the absence of these agreements, rival browsers
would have the ability to consider making other general search engines the preset default for
some or all search access points, spurring greater competition in the general search services
market and offering additional choices to consumers. As a Google employee once noted,
Google’s browser agreements can be “a good way to keep [a browser] away from Bing.”
C.

Google Is Positioning Itself to Control the Next Generation of Search
Distribution Channels

160.

Although mobile phones and computers account for the vast majority of general

searches on the internet today, in the future, an increasing number of searches will likely be
conducted on next generation devices such as smart watches, smart speakers, smart TVs, and
connected automobiles. Google is positioning itself to control these emerging channels for search
distribution, excluding new and established rivals.

50

App.224

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 51 of 64

161.

As noted above, Google has interpreted its anti-forking agreements (AFAs and

ACCs) with Android mobile partners to cover next generation devices. Additionally, Google
uses other points of leverage in the mobile channel to discourage mobile partners from working
with rival operating systems on next generation devices. The result is that Google is positioned to
retain control over the operating systems that power next generation devices manufactured by
mobile partners and to inhibit adoption of alternative search services on those devices.
162.

Google also requires connected-device manufacturers that do not sell Android

mobile phones to agree to restrictive contract terms that mirror the effects of the mobile
distribution agreements. For instance, Google partners with automobile manufacturers on the
condition that they not preinstall rival search-related apps. Google has similarly restrictive
agreements with smart watch manufacturers: its agreements to license Google’s “free” smart
watch operating system (Wear OS) prohibit manufacturers from preinstalling any third-party
software, including any rival search services.
163.

Additionally, Google refuses to license its Google Assistant to IoT device

manufacturers that would host another voice assistant simultaneously—a feature commonly
known as “concurrency.” Through concurrency, a rival voice assistant could grow in popularity
to challenge Google for control over the way that consumers access the internet generally, even
on more established devices such as mobile phones. Google recognizes that concurrency is a
feature that consumers would value, but it sees too great a competitive risk from allowing
consumers to decide which voice assistant to use on a case-by-case basis.
164.

Finally, Google uses its control over hardware products—including smart

speakers and Google Nest smart home products—to protect its general search monopoly. Google
recognizes that its “[h]ardware products also have HUGE defensive value in virtual assistant

51

App.225

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 52 of 64

space AND combatting query erosion in core Search business.” Looking ahead to the future of
search, Google sees that “Alexa and others may increasingly be a substitute for Search and
browsers with additional sophistication and push into screen devices.”
165.

Google therefore aims to control emerging search access points to protect its

monopolies in the general search services, search advertising, and general search text advertising
markets in the present and the future. Google is poised to ensure that history repeats itself, and
that all search access points funnel users in one direction: toward Google.
VI.
166.

ANTICOMPETITIVE EFFECTS

Google has maintained unlawful monopolies in the general search services, search

advertising, and general search text advertising markets through its many exclusionary
agreements and other conduct that have separately and collectively harmed competition by:
a.

Substantially foreclosing competition in general search services and
protecting a large majority of search queries in the United States against
any meaningful competition;

b.

Excluding general search services rivals from effective distribution
channels, thereby denying rivals the necessary scale to compete effectively
in the general search services, search advertising, and general search text
advertising markets;

c.

Impeding other potential distribution paths for general search services
rivals;

d.

Increasing barriers to entry and excluding competition at emerging search
access points from nascent competitors on both computers and mobile
devices;

52

App.226

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 53 of 64

e.

Stunting innovation in new products that could serve as alternative search
access points or disruptors to the traditional Google search model; and

f.

Insulating Google from significant competitive pressure to improve its
general search, search advertising, and general search text advertising
products and services.

167.

By restricting competition in general search services, Google’s conduct has

harmed consumers by reducing the quality of general search services (including dimensions such
as privacy, data protection, and use of consumer data), lessening choice in general search
services, and impeding innovation.
168.

Google’s exclusionary conduct also substantially forecloses competition in the

search advertising and general search text advertising markets, harming advertisers. By
suppressing competition, Google has more power to manipulate the quantity of ad inventory and
auction dynamics in ways that allow it to charge advertisers more than it could in a competitive
market. Google can also reduce the quality of the services it provides to advertisers, including by
restricting the information it offers to advertisers about their marketing campaigns.
169.

Google’s conduct also has harmed competition by impeding the distribution of

innovative apps that offer search features that would otherwise challenge Google. Google has
also harmed competition by raising rivals’ costs and foreclosing them from effective distribution
channels, such as distribution through voice assistant providers, preventing them from
meaningfully challenging Google’s monopoly in general search services.
170.

Google’s monopoly in general search services also has given the company

extraordinary power as the gateway to the internet, which it uses to promote its own web content
and increase its profits. Google originally prided itself as being the “turnstile” to the internet,

53

App.227

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 54 of 64

sending users off its results pages through organic links designed to connect the user with a thirdparty website that would best “answer” a user query. Over time, however, Google has pushed the
organic links further and further down the results page and featured more search advertising
results and Google’s own vertical or specialized search offerings. This, in turn, has demoted
organic links of third-party verticals, pushing these links “below-the-fold” (i.e., on the portion of
the SERP that is visible only if the user scrolls down) and requiring them to buy more search
advertising from Google to remain relevant. This raises their costs, reduces their
competitiveness, and limits their incentive and ability to invest in innovations that could be
attractive to users. Not surprisingly, investors also report being unwilling to provide funding to
vertical startups with business models similar to or potentially competitive with Google’s search
advertising monopoly.
171.

Absent Google’s exclusionary agreements and other conduct, dynamic

competition for general search services would lead to higher quality search, increased consumer
choice, and a more beneficial user experience. In addition, more competitive search advertising
and general search text advertising markets would allow advertisers to purchase ads at more
attractive terms, with better quality and service. Finally, the incentives and abilities for
companies to develop and distribute innovative search products would be restored, resulting in
more options, better products, and higher consumer welfare overall.
172.

The anticompetitive effects flowing from Google’s distribution agreements,

particularly when considered collectively, have allowed Google to develop and maintain
monopolies in the markets for general search services, search advertising, and general search text
advertising; these anticompetitive effects outweigh any benefits from those agreements, or those
benefits could be accomplished by less restrictive means.

54

App.228

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 55 of 64

VII.

VIOLATIONS ALLEGED

First Claim for Relief: Maintaining Monopoly of General Search Services in Violation of
Sherman Act § 2
173.

Plaintiffs incorporate the allegations of paragraphs 1 through 172 above.

174.

General search services in the United States is a relevant antitrust market and

Google has monopoly power in that market.
175.

Google has willfully maintained and abused its monopoly power in general search

services through anticompetitive and exclusionary distribution agreements that lock up the preset
default positions for search access points on browsers, mobile devices, computers, and other
devices; require preinstallation and prominent placement of Google’s apps; tie Google’s search
access points to Google Play and Google APIs; and other restrictions that drive queries to
Google at the expense of search rivals.
176.

Google’s exclusionary conduct has foreclosed a substantial share of the general

search services market.
177.

Google’s anticompetitive acts have had harmful effects on competition and

consumers.
178.

The anticompetitive effects of Google’s exclusionary agreements outweigh any

procompetitive benefits in this market, or can be achieved through less restrictive means.
179.

Google’s anticompetitive and exclusionary practices violate Section 2 of the

Sherman Act, 15 U.S.C. § 2.
Second Claim for Relief: Maintaining Monopoly of Search Advertising in Violation of
Sherman Act § 2
180.

Plaintiffs incorporate the allegations of paragraphs 1 through 172 above.

181.

Search advertising in the United States is a relevant antitrust market and Google

has monopoly power in that market.

55

App.229

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 56 of 64

182.

Google has willfully maintained and abused its monopoly power in search

advertising through anticompetitive and exclusionary distribution agreements that lock up the
preset default positions for search access points on browsers, mobile devices, computers, and
other devices; require preinstallation and prominent placement of Google’s apps; tie Google’s
search access points to Google Play and Google APIs; and other restrictions that benefit Google
at the expense of search advertising rivals.
183.

Google’s exclusionary conduct has foreclosed a substantial share of the search

advertising market.
184.

Google’s anticompetitive acts have had harmful effects on competition,

advertisers, and consumers.
185.

The anticompetitive effects of Google’s exclusionary agreements outweigh any

procompetitive benefits in this market, or can be achieved through less restrictive means.
186.

Google’s anticompetitive and exclusionary practices violate Section 2 of the

Sherman Act, 15 U.S.C. § 2.
Third Claim for Relief: Maintaining Monopoly of General Search Text Advertising in
Violation of Sherman Act § 2
187.

Plaintiffs incorporate the allegations of paragraphs 1 through 172 above.

188.

General search text advertising in the United States is a relevant antitrust market,

and Google has monopoly power in that market.
189.

Google has willfully maintained and abused its monopoly power in general search

text advertising through anticompetitive and exclusionary distribution agreements that lock up
the preset default positions for search access points on browsers, mobile devices, computers, and
other devices; require preinstallation and prominent placement of Google’s apps; tie Google’s

56

App.230

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 57 of 64

search access points to Google Play and Google APIs; and other restrictions that benefit Google
at the expense of general search text advertising rivals.
190.

Google’s exclusionary conduct has foreclosed a substantial share of the general

search text advertising market.
191.

Google’s anticompetitive acts have had harmful effects on competition,

advertisers, and consumers.
192.

The anticompetitive effects of Google’s exclusionary agreements outweigh any

procompetitive benefits in this market, or can be achieved through less restrictive means.
193.

Google’s anticompetitive and exclusionary practices violate Section 2 of the

Sherman Act, 15 U.S.C. § 2.
VIII. REQUEST FOR RELIEF
194.

To remedy these illegal acts, Plaintiffs request that the Court:
a.

Adjudge and decree that Google acted unlawfully to maintain general
search services, search advertising, and general search text advertising
monopolies in violation of Section 2 of the Sherman Act, 15 U.S.C. § 2;

b.

Enter structural relief as needed to cure any anticompetitive harm;

c.

Enjoin Google from continuing to engage in the anticompetitive practices
described herein and from engaging in any other practices with the same
purpose and effect as the challenged practices;

d.

Enter any other preliminary or permanent relief necessary and appropriate
to restore competitive conditions in the markets affected by Google’s
unlawful conduct;

e.

Enter any additional relief the Court finds just and proper; and

57

App.231

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 58 of 64

f.

Award each Plaintiff an amount equal to its costs incurred in bringing this
action on behalf of its citizens.

58

App.232

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 59 of 64

Respectfully submitted,
October 20, 2020
FOR PLAINTIFF UNITED STATES OF AMERICA,
/s/ Ryan A. Shores
RYAN A. SHORES (D.C. Bar #500031)
Associate Deputy Attorney General,
Senior Advisor for Technology Industries
/s/ Alexander P. Okuliar
ALEXANDER P. OKULIAR (D.C. Bar #481103)
Deputy Assistant Attorney General
/s/ Michael F. Murray
MICHAEL F. MURRAY (D.C. Bar #1001680)
Deputy Assistant Attorney General
/s/ Kathleen S. O’Neill
KATHLEEN S. O’NEILL
Senior Director of Investigations and Litigation
/s/ Craig W. Conrath
CRAIG W. CONRATH
Director of Civil Litigation
/s/ Aaron D. Hoag
AARON D. HOAG
Chief, Technology & Financial Services Section
/s/ Adam T. Severt
ADAM T. SEVERT
Assistant Chief, Technology & Financial Services
Section

/s/ Kenneth M. Dintzer
KENNETH M. DINTZER*
DIANA A. AGUILAR ALDAPE
JESÚS M. ALVARADO-RIVERA
BRENDAN BALLOU (D.C. BAR#241592)
MICHAEL E. BLAISDELL (D.C. BAR#998354)
ALEX COHEN
THOMAS P. DEMATTEO
DANIEL S. GUARNERA (D.C. BAR#1034844)
JEREMY M. P. GOLDSTEIN
R. CAMERON GOWER
THOMAS GREENE
KARL E. HERRMANN (D.C. BAR#1022464)
ELIZABETH S. JENSEN
MICHAEL G. MCLELLAN (D.C. BAR#489217)
TAYLOR M. OWINGS (D.C. BAR#1031064)
DANIEL A. PRINCIPATO
RYAN M. SANDROCK
DAVID J. SHAW (D.C. BAR#996525)
CHRISTINE SOMMER (D.C. BAR#470763)
LAUREN S. WILLARD (D.C. BAR#1024636)
Attorneys for the United States
U.S. Department of Justice, Antitrust Division
Technology & Financial Services Section
450 Fifth St, NW, Suite 7100
Washington, D.C. 20530
Phone: 202-227-1967
Fax: 202-616-8544
Email: Kenneth.Dintzer@usdoj.gov
* LEAD ATTORNEY TO BE NOTICED

59
App.233

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 60 of 64

FOR PLAINTIFF STATE OF ARKANSAS:
LESLIE RUTLEDGE, Attorney General
/s/ Johnathan R. Carter
JOHNATHAN R. CARTER, Assistant Attorney General
Office of the Attorney General, State of Arkansas
323 Center Street, Suite 200
Little Rock, Arkansas 72201
Phone: 501-682-8063
Email: Johnathan.carter@arkansasag.gov
FOR PLAINTIFF STATE OF FLORIDA:
ASHLEY MOODY, Attorney General
/s/ R. Scott Palmer
R. SCOTT PALMER, Special Counsel for Antitrust Enforcement
PATRICIA A. CONNERS, Chief Associate Deputy Attorney General
NICHOLAS D. NIEMIEC, Assistant Attorney General
LEE ISTRAIL, Assistant Attorney General
Office of the Attorney General, State of Florida
PL-01 The Capitol
Tallahassee, Florida 32399
Phone: 850-414-3300
Email: Scott.Palmer@myfloridalegal.com
FOR PLAINTIFF STATE OF GEORGIA:
CHRISTOPHER CARR, Attorney General
/s/ Christopher Carr
CHRISTOPHER CARR, Attorney General
MARGARET ECKROTE, Deputy Attorney General
DANIEL WALSH, Senior Assistant Attorney General
DALE MARGOLIN CECKA, Assistant Attorney General
Office of the Attorney General, State of Georgia
40 Capitol Square, SW
Atlanta, Georgia 30334-1300
Phone: 404-651-7675
Email: dcecka@law.georgia.gov
60
App.234

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 61 of 64

FOR PLAINTIFF STATE OF INDIANA:
CURTIS HILL, Attorney General
/s/ Scott L. Barnhart
SCOTT L. BARNHART, Chief Counsel and Director, Consumer Protection Division
MATTHEW MICHALOSKI, Deputy Attorney General
ERICA SULLIVAN, Deputy Attorney General
Office of the Attorney General, State of Indiana
Indiana Government Center South, Fifth Floor
302 West Washington Street
Indianapolis, Indiana 46204
Phone: 317-232-6309
Email: Scott.Barnhart@atg.in.gov
FOR PLAINTIFF COMMONWEALTH OF KENTUCKY:
DANIEL CAMERON, ATTORNEY GENERAL
/s/ Justin D. Clark
JUSTIN D. CLARK, Deputy Director of Consumer Protection
J. CHRISTIAN LEWIS, Executive Director of Consumer Protection
PHILIP R. HELERINGER, Assistant Attorney General
JONATHAN E. FARMER, Assistant Attorney General
Office of the Attorney General, Commonwealth of Kentucky
1024 Capital Center Drive, Suite 200
Frankfort, Kentucky 40601
Phone: 502-696-5300
Email: justind.clark@ky.gov

61
App.235

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 62 of 64

FOR PLAINTIFF STATE OF LOUISIANA:
JEFF LANDRY, Attorney General
/s/ Stacie L. Deblieux
STACIE L. DEBLIEUX, Assistant Attorney General
Office of the Attorney General, State of Louisiana
Public Protection Division
1885 North Third St.
Baton Rouge, Louisiana 70802
Phone: 225-326-6400
Email: deblieuxs@ag.louisiana.gov
FOR PLAINTIFF STATE OF MISSOURI:
ERIC SCHMITT, Attorney General
/s/ Amy Haywood
AMY HAYWOOD, Chief Counsel, Consumer Protection
KIMBERLEY BIAGIOLI, Assistant Attorney General
Office of the Attorney General, State of Missouri
P.O. Box 899
Jefferson City, Missouri 65102
Phone: 573-571-3321
Email: Amy.Haywood@ago.mo.gov
FOR PLAINTIFF STATE OF MISSISSIPPI:
LYNN FITCH, Attorney General
/s/ Hart Martin
HART MARTIN, Consumer Protection Division
CRYSTAL UTLEY SECOY, Consumer Protection Division
Office of the Attorney General, State of Mississippi
P.O.Box 220
Jackson, Mississippi 39205
Phone: 601-359-4223
Email: hart.martin@ago.ms.gov

62
App.236

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 63 of 64

FOR PLAINTIFF STATE OF MONTANA:
TIMOTHY C. FOX, Attorney General
/s/ Mark Mattioli
MARK MATTIOLI, Chief, Office of Consumer Protection
Office of the Attorney General, State of Montana
P.O. Box 200151
555 Fuller Avenue, 2nd Floor
Helena, MT 59620-0151
Phone: 406-444-2026
Email: mmattioli@mt.gov
FOR PLAINTIFF STATE OF SOUTH CAROLINA:
ALAN WILSON, Attorney General
/s/ Rebecca M. Hartner
REBECCA M. HARTNER, Assistant Attorney General
W. JEFFREY YOUNG, Chief Deputy Attorney General
C. HAVIRD JONES, JR., Senior Assistant Deputy Attorney General
MARY FRANCES JOWERS, Assistant Deputy Attorney General
Office of the Attorney General, State of South Carolina
1000 Assembly Street
Rembert C. Dennis Building
P.O.Box 11549
Columbia, South Carolina 29211-1549
Phone: 803-734-3970
Email: rhartner@scag.gov

63
App.237

Case 1:20-cv-03010 Document 1 Filed 10/20/20 Page 64 of 64

FOR PLAINTIFF STATE OF TEXAS:
KEN PAXTON, Attorney General
/s/ Bret Fulkerson
BRENT WEBSTER, First Assistant Attorney General
RYAN BANGERT, Deputy First Assistant Attorney General
DARREN MCCARTY, Deputy Attorney General for Civil Litigation
KIM VAN WINKLE, Chief, Antitrust Division
BRET FULKERSON, Deputy Chief, Antitrust Division
KELSEY PAINE, Assistant Attorney General
Office of the Attorney General, State of Texas
300 West 15th Street
Austin, Texas 78701
Phone: 512-936-1674
Email: Bret.Fulkerson@oag.texas.gov

64
App.238

